<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:27 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                          LIBRARY OF CONGRESS

STATEMENT OF JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS; CHAIRMAN OF THE BOARD, OPEN WORLD 
            LEADERSHIP PROGRAM
ACCOMPANIED BY:
        DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        JULIA HUFF, CHIEF OF OPERATIONS, COPYRIGHT OFFICE
        KURT CYLKE, DIRECTOR, BOOKS FOR THE BLIND AND PHYSICALLY 
            HANDICAPPED
        KARL SCHORNAGEL, INSPECTOR GENERAL


                   statement of senator wayne allard


    Senator Allard. The subcommittee will come to order. I am 
going to do the unprecedented thing and get us started ahead of 
time, ahead of schedule. I am told we have our witnesses here, 
everybody of interest that is going to be present for the 
hearing. So we will go ahead and get you seated for the 
proceeding, and we will start out with my making a few comments 
and then we will call on the first panelist to make their 
presentation.
    We meet today to take testimony from Dr. James Billington, 
Librarian of Congress, on the Library's budget request for 
fiscal year 2007. We welcome Dr. Billington, who is accompanied 
by Deputy Librarian Don Scott, and the Library's top team. The 
request for appropriation totals $588 million, along with 
offsetting collections of $40 million, for a total budget of 
$628 million, an increase of about 4 percent over this year's 
budget.
    This is a relatively modest request and we appreciate that 
you have not requested a large number of new projects and 
initiatives. However, within the Architect of the Capitol's 
(AOC) budget a total of $102 million is requested for Library 
buildings and grounds, including a new $54 million logistics 
warehouse for the Library. This appropriation request 
represents a 50 percent increase over the fiscal year 2006 
budget for Library buildings and grounds and will be very tough 
to accommodate.
    In particular, questions have been raised as to whether the 
design for the warehouse is gold-plated and whether more cost-
effective alternatives have been explored thoroughly.
    Other issues we would like to be updated on today include 
the status of the new National Audio-Visual Conservation Center 
(NAVCC) in Culpeper, Virginia, which I had the opportunity to 
visit in December; plans for converting the books for the blind 
and physically handicapped to digital format; and the ongoing 
realignment of the Congressional Research Service.
    Dr. Billington will also submit testimony for the record as 
chairman of the Open World Leadership Center. This program is 
slated for a $14.4 million budget, a $540,000 increase of 4 
percent over the 2006 level.
    Those are my opening comments. Now we will go to the panel 
that we have before us. I will call on Dr. Billington for his 
testimony, and also welcome General Scott. It is good to have 
you with us this morning.


                   OPENING STATEMENT OF THE LIBRARIAN


    Dr. Billington. Thank you, Mr. Chairman. I really 
appreciate the opportunity to present the Library of Congress 
fiscal 2007 budget request to the subcommittee. I have provided 
details of the Library's accomplishments and goals in my 
written statement. We have approached this budget submission 
keenly aware of the fiscal challenges that this subcommittee, 
as well as the Congress as a whole, faces, Mr. Chairman.
    The Congress and the Library faces unprecedented challenges 
itself if it is to sustain in the exploding digital age its 
historic mission of acquiring, preserving, and making 
accessible the world's largest and most globally inclusive 
collection of human knowledge. That mission has never been more 
important for our service to the Congress or for our overall 
national needs than it is now in the midst of the information 
age and the globalization process.


                        WORKFORCE TRANSFORMATION


    In order to sustain high-quality services at a time of 
radical change in the ways knowledge is communicated and 
developed, the Library must undertake an institutional 
workforce transformation. Sixty-five percent of our budget is 
for people; 40 percent of our workforce will be eligible to 
retire by the year 2010. We need knowledge navigators imbued 
with a new set of skills, in many cases capable of seamlessly 
integrating digital materials with books and other traditional 
artifactual items, books and so forth, in order to provide 
users with comprehensive and objective knowledge that is 
useable and the practical wisdom that has always been a part of 
our democratic function.
    The Library is already leading the national effort to 
archive the Internet, an enormous task, and we must help 
develop standards for the electronic sharing of bibliographic 
records, just as the Library has historically done for the 
print world with its cataloguing records.
    Incidentally, we catalogued more than 313,000 books and 
periodicals last year, more than ever before in the Library's 
history. So the traditional needs continue as the digital 
demands explode.
    The Library must begin its transformation of functions, 
facilities, and people with the reallocation of existing 
resources. Our current process of analysis and planning adheres 
to the spirit of the Government Performance and Results Act 
(GPRA) and we will produce in calendar year 2007 a 
comprehensive strategic plan from which the budget submission 
for fiscal year 2009 will be derived, and the extended nature 
of resource needs for 2013 will be outlined. This planning 
process is already informing our budget process, but that is 
the schedule on which it will be formally implemented.


          NATIONAL AUDIO-VISUAL CONSERVATION CENTER--CULPEPER


    The 4.1 percent increase we request for fiscal 2007 is 
almost entirely for mandatory pay and price level increases. 
Our fiscal year 2007 request for the National Audio-Visual 
Conservation Center in Culpeper, Virginia, represents a 
decrease of $1.2 million from the fiscal year 2006 request. 
This project is progressing well. We expect to complete 
construction and begin moving collections and staff in May of 
this year.
    The unique facility will allow us to preserve more quickly 
and effectively hundreds of thousands of items in our 
audiovisual collection that are a critically important part of 
America's cultural heritage, but very vulnerable to degradation 
and very much in need of calibrated conservation, which we will 
be able to provide with the largest and most up to date such 
facility in the world.
    This project would not have been possible without the 
financial support of the Congress and an unusually generous 
private funding from David Woodley Packard and the Packard 
Humanities Institute.


                      ACQUISITIONS BUDGET REQUEST


    We are very grateful for the additional resources we were 
provided in the past two fiscal years for acquisitions, but we 
are still falling behind in our all-important current 
acquisitions, which is the absolute core requirement of this 
institution so that it can properly serve the Congress and the 
Nation.
    In fiscal year 2007 I respectfully but urgently ask that 
the Congress continue supporting our acquisitions with an 
additional $2 million. These funds will allow us to continue 
collecting materials that we uniquely bring from all areas of 
the world, particularly from lesser known and lesser understood 
regions that are becoming increasingly important for our 
Nation, both for economic and security needs. It is important 
that we sustain the schedule that we have established and have 
been falling behind on for acquisitions.


                        OTHER BUDGET PRIORITIES


    But beyond these two important ongoing priorities, we have 
limited our budget request to three new projects, all of which 
total less than $2 million: $1 million for the Copyright Office 
to begin a record preservation project, an initiative requested 
by Congress in fiscal 2005; $781,000 to begin our workforce 
transformation by enhancing the staff digital competencies, 
career development, and recruitment; and $150,000 to begin 
preparing a major exhibition in 2009 marking the bicentennial 
of Abraham Lincoln's birth. This total project will cost $1.4 
million, will include a traveling exhibit, and will be a major 
effort for this important milestone.


                            LOGISTICS CENTER


    Let me mention finally, as you brought up, the request in 
the Architect of the Capitol's budget for $54.2 million to 
construct a Library logistics center at Fort Meade. I 
understand and sympathize with the subcommittee's concern 
regarding the cost of this facility and I will be working with 
the Architect of the Capitol to find ways to reduce its cost. 
This facility is critically needed for the Library's day to day 
distribution and logistics needs and will provide a long-term 
cost saving to the Government by consolidating costly and 
outmoded storage space from three locations into one modern, 
safer and more secure location.


                          PREPARED STATEMENTS


    Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    [The statements follow:]

               Prepared Statements of James H. Billington

                          LIBRARY OF CONGRESS

    I appreciate the opportunity to appear before you today to discuss 
the past accomplishments and future goals of the Library of Congress in 
the context of our fiscal year 2007 budget request. I would like to 
thank this Committee for the strong support it has always shown the 
Library's programs, and I ask for your support again to ensure that the 
Library maintains its prestigious place as the world's largest 
repository of human knowledge and the main research arm of the United 
States Congress.
    With all the unique distinction that this institution has achieved 
in the print world, it now faces the unprecedented challenge of 
sustaining its leadership amidst the revolutionary changes of the 
digital world. Information-seekers now have many (and often more 
convenient) ways of finding what they need. But they are often 
overwhelmed or misled by the profusion of unfiltered and often 
inaccurate information on the World Wide Web. The Library of Congress 
must redefine its role in this new environment. This institution-wide 
process is now underway--and will be embedded in the new strategic plan 
that we are developing for the entire Library for 2008-2013.
    The budget request we have submitted to you includes the following 
basic assumptions:
  --The Library of Congress must continue to build comprehensive, 
        world-wide collections in all formats so that Members of 
        Congress, scholars, school students, and the American people 
        will have access to valid, high-quality information for their 
        work, their research, and their civic participation.
  --A comprehensive institutional workforce transformation will be 
        required for staff to continue providing the highest levels of 
        service to the Congress and to the public.
  --There is no change in the Library's historic mission of acquiring, 
        preserving, and making its materials accessible and useful to 
        the Congress and the nation. The aim is to blend the new 
        digital materials into the traditional artifactual collections 
        so that knowledge and information can be objectively and 
        comprehensively provided by an integrated library.
  --The transformation of functions, of facilities, and of people must 
        begin with a reallocation of existing resources. The current 
        process of analysis and planning will produce, in the course of 
        calendar 2006, the strategic plan that will determine the 
        extent and nature of resource needs for future budget 
        submissions.

                    THE LIBRARY OF CONGRESS OF TODAY

    Library of Congress collections are made up of more than 132 
million artifactual items in more than 470 languages including: 30 
million books (among them more than 5,000 printed before the year 
1500); 14 million photographs; 5.2 million maps; 3 million audio 
materials; 981,000 films, television, and video items; 5.3 million 
pieces of music; 59 million manuscripts; and hundreds of thousands of 
scientific and government documents.
    And these collections continue to grow. More than 13,000 items are 
added to the Library's collections every day. These materials are 
organized, cataloged, and served to readers in on-site reading rooms 
and through cultural programs and exhibitions. A steadily increasing 
number of materials are made available free of charge on the Internet.
    The Library's collections gather in not only regularly published 
materials, but arcane reports that have limited distribution, 
international ephemera that illuminate other cultures and socio-
political movements, and special collections that have been carefully 
assessed by our curators and acquired by our donors. Among the many new 
materials acquired by the Library in fiscal year 2005 are:
  --The unique Jay I. Kislak Collection of nearly 4,000 items 
        documenting the early history of the Americas.
  --38,555 individual oral histories collected from interviews with 
        U.S. war veterans.
  --Original music manuscripts of Felix Mendelssohn, Jerome Kern, 
        George Gershwin, and Woody Guthrie.
  --The Bernard Krisher Collection, containing 450 taped interviews 
        with Asian dignitaries documenting major developments in Asia 
        from 1962-1983.
  --The personal and professional papers of the late Chief Executive 
        Officer and Publisher of the Washington Post, Katharine Graham.
  --The Cuban Exile Collection, 234 microfilm reels of materials 
        documenting the Cuban-American experience.
  --Factiva, a full-text online database of publications and up-to-the 
        minute reports and news focusing on global developments and 
        business from 118 countries in 22 languages.
  --A collection of 454 charts of the coast of China from the Chinese 
        Navy Headquarters, the Navigation Guarantee Department. A 
        complete set of modern hydrographic charts of the Chinese 
        coastline and areas of the South China Sea.
  --The American Colony of Jerusalem Collection, a Christian society 
        formed in Jerusalem in 1881 by an American, Horatio Gates 
        Spafford, and his wife Anna Lawson Spafford.
    Library of Congress services include:
  --Fulfilling our priority mission of service to the Congress through 
        the objective research and analysis done exclusively for the 
        Congress by the Congressional Research Service. Our Law Library 
        also largely serves the Congress. Overall, the Library provides 
        a wide range of services from analysis on current public policy 
        issues to responses to constituent requests.
  --In fiscal year 2005, the Library performed the following major 
        services to the Congress and its constituents:
    --Delivered more than 900,000 replies to members of Congress, 
            covering nearly 200 current policy areas and providing 
            access to 1,400 regularly updated research products.
    --Registered about 532,000 copyright claims.
    --Circulated nearly 24 million books and magazines free of charge 
            to the blind and physically handicapped.
    --Assisted local libraries all over the nation by cataloging nearly 
            313,000 books and serials--the highest number in the 
            Library's history.
    Library of Congress digital leadership includes:
  --Providing free internet access to its entire catalog, to more than 
        10 million primary documents of American history and culture, 
        to a growing body of similarly unique and multi-medial 
        materials from six other major national libraries, and to 
        extensive information about the Congress. In fiscal year 2005, 
        our web site, www.loc.gov, recorded more than 3.8 billion 
        hits--a 14 percent increase in usage over fiscal year 2004.
  --Coordinating the development and implementation of a comprehensive 
        national plan mandated by the Congress for preserving important 
        but often ephemeral materials on the Internet. The Library has 
        enlisted eight national consortia involving 36 institutions 
        across the country to share in this massive project. The 
        Library has already collected 128 terabytes; and our partners 
        are expected to collect an estimated 100 terabytes. The 
        materials include digital maps, photographs, TV programming, 
        news, and datasets.
                  building the library for the future

The Library's Vision and Strategic Plan
    The Library's vision is to sustain in the digital world of the 21st 
century its historic mission of acquiring, preserving, and making 
maximally accessible to the public and useful for the Congress a 
universal collection of human knowledge. The challenge now is to bring 
the best of the traditional library into the digital environment. This 
will require holding fast to the principles of equitable access and 
long-term preservation while seamlessly integrating new digital 
materials with traditional artifactual items and helping develop 
standards and protocols for the electronic sharing of bibliographic 
records just as the Library did for the print world with its cataloging 
records.
    The Library has developed a Library-wide framework for program 
assessment of every division and support office. Congressional support 
has already enabled us to reengineer copyright functions and to create 
a National Audio-Visual Conservation Center. And we are developing new 
roles for key staff to become objective ``knowledge navigators'' who 
can make knowledge useful from both the artifactual and the digital 
world.
    The institution is undertaking a comprehensive strategic planning 
process that adheres to the spirit of GPRA and will guide us in what 
will have to be a major transformation of our workforce. We must find 
ways to transfer the widely recognized skills of our best traditional 
librarians on to the more broadly and democratically accessible Web and 
into K-12 education which is making increasing use of the Library's 
online resources. We must continue to integrate and be open to new 
technology and best business practices library-wide--and to maximize 
fairness and diversity in building the workforce of the future.
    This work will continue in fiscal year 2006, culminating in a 
comprehensive new strategic plan for fiscal year 2008-2013, from which 
all future budget requests will be derived. Our fiscal year 2007 
request already reflects the Library's improved strategic planning 
process and has led us to ask for no new additional FTEs and a 
historically low 4 percent budgetary increase despite the many 
challenges that the Library will face in fiscal year 2007.

             THE LIBRARY'S FISCAL YEAR 2007 BUDGET REQUEST

    In fiscal year 2007, the Library requests a total budget of 
$628.465 million ($588.131 million in net appropriations and $40.334 
million in authority to use receipts), an increase of $24.842 million 
or 4.1 percent above the fiscal year 2006 level. The total includes 
$23.969 million in mandatory pay and price level increases and $4.896 
million in program increases, offset by $4.023 million in non-recurring 
costs.
    Requested funding supports 4,258 full-time equivalents (FTEs), a 
net decrease of 44 FTEs below the fiscal year 2006 level of 4,302.
    The Library's programs and activities are funded by four salaries 
and expenses (S&E) appropriations which support management of the 
Library, the National and Law Library Services, Copyright 
administration, Congressional Research Service, and Library Services to 
the Blind and Physically Handicapped.
    Fiscal year 2007 funding is allocated as follows:
  --Library of Congress, S&E ($409.294 million/2,902 FTEs), which 
        includes:
    --National Library ($312.590 million/2,264 FTEs)
                --National Library--Basic
                --Purchase of Library Materials (GENPAC)
                --Office of Strategic Initiatives
                --Cataloging Distribution Service
    --Law Library ($14.026 million/101 FTEs)
    --Management Support Services ($82.723 million/537 FTEs)
  --Copyright Office, S&E ($59.189 million/523 FTEs)
  --Congressional Research Service, S&E ($104.279 million/705 FTEs)
  --Books for the Blind and Physically Handicapped, S&E ($55.703 
        million/128 FTEs)

                    THE LIBRARY'S FUNDING PRIORITIES

Mandatory Pay and Price Level Increases
    The Library is requesting an additional $23.969 million to maintain 
current services. This is the amount needed to support the 
annualization of the fiscal year 2006 pay raise, the fiscal year 2007 
pay raise, within grade increases, and unavoidable inflation and vendor 
price increases. These funds are needed simply to sustain current 
business operations and to prevent a reduction in staff that would 
severely affect the Library's ability to manage its programs in support 
of its mission and strategic objectives.

Unfunded Mandates
    The Library is requesting $2.171 million for one unfunded mandate: 
the Department of State (DOS) Capital Security Cost-Sharing Program.
    In fiscal year 2005, the DOS, mandated by the Executive branch, 
began its 14-year program to finance the construction of approximately 
150 embassy compounds, requiring increasing contributions from all 
agencies with an overseas presence, including the Library. The Library 
has argued that the DOS methodology for assessing agencies is unfair 
since it is based on the number of overseas personnel rather than on 
actual services or space provided by DOS in diplomatic facilities. The 
Library's yearly assessment was $1.2 million in fiscal year 2005 and 
$2.4 million in fiscal year 2006. The proposed bill for fiscal year 
2007 is $4.572 million, an increase of $2.171 million. If funding is 
not provided for the next phase of the program, the Library will have 
insufficient resources to operate its overseas offices. This would 
result in the curtailment--and in some cases termination--of 
international acquisitions programs in areas that are of increasing 
importance to the nation (Islamabad, Cairo, Jakarta, Nairobi, New Delhi 
and Rio de Janeiro). The Library continues to negotiate with the DOS 
and will alert the Committees if DOS agrees to any downward adjustments 
of their assessment.

Major Ongoing Projects
    The Library is requesting $794,000 for two ongoing major projects 
that are either in their last year of development or on a time-
sensitive schedule that must be maintained if the entire project is to 
succeed.
  --National Audio-Visual Conservation Center (NAVCC), Culpeper, VA.--A 
        five-year plan for the completion of NAVCC was included in the 
        Library's fiscal year 2004 budget. Fiscal year 2007 represents 
        the fourth year in the Library's five-year cost model, which is 
        adjusted annually to align with shifts in the construction 
        schedule of the Packard Humanities Institute and the Library's 
        occupancy schedule. In 2005, the Phase 1 Central Plant was 
        turned over to the AOC and the Collections Building to the 
        Library. In 2006, construction will be completed and the entire 
        property transferred to the government. Staff relocations will 
        take place, as will the procurement and integration of digital 
        preservation equipment and systems within the NAVCC's audio-
        visual conservation facility. Funding is needed in fiscal year 
        2007 to continue purchasing equipment for the facility as well 
        as for operations support. Total requested fiscal year 2007 
        funding of $13.9 million reflects a net decrease of $1.206 
        million and -6 FTEs from fiscal year 2006.
  --Acquisitions (GENPAC/Electronic Materials).--Advances in technology 
        have opened opportunities for the Library to acquire materials 
        from parts of the world about which, until recently, there had 
        been little knowledge. National interest, especially with 
        respect to security and trade, dictates that we acquire 
        emerging electronic publications and other difficult-to-find 
        resources that document other cultures and nations. The GENPAC 
        appropriation, which funds the purchase of all-important 
        current collections materials, declined precipitously in its 
        purchasing power during the 1990s. Consistent with our fiscal 
        year 2005-2006 budget requests for a multi-year, $4.2 million 
        base increase to the GENPAC budget, the Library is requesting 
        the next incremental adjustment of $2 million, which will bring 
        the total base adjustment up to $3.3 million. Funding is needed 
        to help keep pace with the greatly increased cost of serial and 
        electronic materials that risks seriously eroding the 
        foundation of the many services provided by the Library to the 
        Congress and the nation.

New Projects
    The Library is requesting $1.931 million for three new critical 
initiatives as follows:
  --Copyright Records Preservation.--A six-year, $6 million initiative 
        is needed to image digitally 70 million pages of pre-1978 
        public records that are deteriorating, jeopardizing the 
        mandatory preservation of, and access to, these unique records 
        of American creativity. In fiscal year 2007, the Library is 
        requesting the first $1 million, which will permit the scanning 
        of 10 million page images.
  --Workforce Transformation Project.--Renewal and development of the 
        Library workforce is essential to retrain staff with the 
        necessary skills for the digital age, and to capture for the 
        future the vast knowledge of large numbers of experienced staff 
        who are near retirement. In fiscal year 2007, the Library will 
        begin a program to enhance digital competencies, leadership 
        skills, career development, recruitment, and other workforce 
        counseling and services. These activities are particularly 
        important for sustaining the Library's commitment to a diverse 
        workforce. Funding of $781,000 is requested, and will support 
        initiatives to:
    --Define and develop digital competencies
    --Build an aspiring leaders program for GS 5-9 employees
    --Enhance Library-wide training through the Center for Learning and 
            Development
    --Create a summer intern recruitment program and a talent pool for 
            permanent employment
    --Expand interpreting services.
  --Abraham Lincoln Bicentennial Exhibition.--The Library is planning a 
        major Abraham Lincoln Bicentennial Exhibition in 2009. The 
        exhibition will be a centerpiece of the nationwide celebration 
        to mark the bicentennial of Lincoln's birth. The Library will 
        draw on its unparalleled Lincoln materials to focus on 
        Lincoln's rise to national prominence and the thinking and 
        writing that underlie his career. A total of $1.442 million 
        will be needed for this project, of which $150,000 is requested 
        in fiscal year 2007. The balance of $1.292 million will be 
        requested in fiscal year 2008. Multi-year (3 year) authority is 
        requested for the fiscal year 2007 funding. Funding will 
        support the design of the exhibition and travel needed to visit 
        other venues and/or other institutions that will be lending 
        materials to the Library exhibition.

Other Program Changes
    Congress created and passed the Library of Congress Digital 
Collections and Educational Curricula Act of 2005. Beginning in fiscal 
year 2006, the Act moved the administrative and programmatic ownership 
of the Adventure of the American Mind (AAM) from the Educational and 
Research Consortium to the Library.
    While no additional funding is requested in fiscal year 2007 for 
the Library's new AAM National Program, the Library is requesting a 
change in the way the base funding of $5.801 million is used. Whereas 
this entire amount was earmarked for grants in fiscal year 2006, we 
would like the fiscal year 2007 funding to support both administrative 
($1.791 million) needs and grant awards ($4.01 million). In addition, 
the Library will begin developing standards-based, field-tested 
curricula, using a train-the-trainer model to create a network of 
partners from all parts of the country.

  ARCHITECT OF THE CAPITOL--LIBRARY OF CONGRESS BUILDINGS AND GROUNDS

    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC is 
requesting an fiscal year 2007 budget of $102.2 million, of which 
$62.265 million supports projects specifically requested by the 
Library. Included is $54.2 million to construct a 166,000 square foot 
logistics warehouse at Fort Meade, replacing and consolidating current 
long-term and temporary facilities leased and maintained by the 
Library.
    The significant increase over the fiscal year 2006 budget request 
level is the result of deferring maintenance and upgrades to the 
Library's buildings on Capitol Hill and the delays in the Fort Meade 
construction plan. Costs are higher because more maintenance and 
upgrade projects need to be completed concurrently. Deferments and 
delays have created longer lists of projects. The cost increase is 
compounded by inflationary pressures and by the steadily growing risks 
in health, safety, and security to the Library's staff and collections. 
The cost of maintenance and upgrades will increase exponentially if the 
Library cannot stop, or at least slow down, the rate of deterioration 
of its buildings, and return to its construction plan and schedule.

                PROPOSED CHANGES TO LEGISLATIVE LANGUAGE

    The Library has proposed language to improve employment options 
elsewhere in the Federal Government for Library staff. The first 
provision confers competitive status to Library employees who have 
successfully completed their probationary period at the Library--the 
basic eligibility to be noncompetitively selected to fill vacancies in 
the competitive service of the Federal Government. This will enable 
Library staff to apply for positions in the executive branch on an 
equal footing with ``career'' executive branch employees. A related 
provision would enhance the employability of Library employees 
displaced because of a reduction in force (RIF) or failure to accept a 
transfer to an alternative work location. This provision would give 
staff who have been separated, priority for selection for competitive 
service positions comparable to that enjoyed by separated employees 
from other federal agencies.
    We also propose new appropriation language to address the 
requirement specified in the Cooperative Acquisitions Program Revolving 
Fund legislation (CAP), Public Law 105-55, that the revolving fund 
receive its own audit by March 31 following the end of each fiscal 
year. The Library requests that the March 31 audit requirement be 
rescinded and that the CAP be subject to the same audit requirement as 
the Library's other revolving funds.
    The fiscal year 2006 administrative provision limiting the 
Library's assessment for embassy construction to equal to or less than 
the unreimbursed value of the services provided to the Library on State 
Department diplomatic facilities must also be maintained in fiscal year 
2007.

                               CONCLUSION

    The Library of Congress' priorities expressed in the fiscal year 
2007 budget request have a common theme: that of enhancing and 
transforming the staff, the collections they manage, and the buildings 
that house them. These requests will make it possible for the Library 
to improve the quality of its service in keeping with the high ideal of 
a knowledge-based democracy and a creativity-enhancing society. This 
budget will help us prepare for the many changes needed to sustain and 
expand the opportunities for a free people to benefit from an open and 
universal stream of knowledge and information. The Library looks 
forward to working with and for the Congress as we seek to build these 
opportunities in fiscal year 2007, and in the years ahead.
                                 ______
                                 
                      OPEN WORLD LEADERSHIP CENTER

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to present testimony on the Open World Leadership Center's 
budget request for fiscal year 2007. The Center, whose board of 
trustees I chair, conducts the only foreign-visitor program in the U.S. 
legislative branch and sponsors the largest U.S.-Russia inbound 
exchange. All of us at Open World are very grateful for our home and 
support in the legislative branch and for congressional participation 
in our programs and on our governing board. The Consolidated 
Appropriations Act passed in December 2004 made the chair of this 
subcommittee ex officio a member of Open World's board, and my fellow 
trustees and I are pleased and honored to have you join us, Mr. 
Chairman. We look forward to working with you as we make important 
decisions on the future of Open World.
    During an important year of assessment and change, the Board and 
staff began to review all aspects of the program in order to produce in 
fiscal year 2006 a comprehensive strategic plan for the future. This 
review is being led by Board member James Collins, who played a key 
role in launching the program when he was Ambassador to Russia.
    Geraldine Otremba completed her outstanding leadership of the able 
and dedicated staff of the Center in September 2005. Aletta Waterhouse, 
who had also done great work with the program from its beginning, 
served very well as Interim Executive Director. The Board will name a 
new Executive Director in early spring of 2006.
    The Center's budget request of $14.4 million (Appendix A) for 
fiscal year 2007 reflects an increase of $0.54 million (4.0 percent) 
over fiscal year 2006 funding. This funding will enable the Center to 
continue its proven mission of hosting young leaders from Russia; 
expand its important program for Ukraine; and conduct smaller programs 
for such other countries as the Board of Trustees will approve in 
consultation with the Appropriations Committees. The budget increase 
over fiscal year 2006 is due to increases of salaries and benefits (11 
percent of increase), airfares and impact of changing exchange rates 
(60 percent of increase), and domestic transportation, per diem and 
other programmatic costs (29 percent).
    In 2005, Open World welcomed its 10,000th participant in its sixth 
year of operation. We began calendar year 2005 by organizing a major 
post-Orange Revolution exchange to six U.S. states for Ukrainian 
judges, election experts, NGO managers, and journalists. We ended the 
year with a local-government study tour in Maine for a delegation from 
the Solovetsky Islands, home to one of the Soviet Union's first prison 
camps and one of Russia's greatest monasteries.
    Open World brought 1,552 Russians and Ukrainians to the United 
States in calendar 2005 to work with their American counterparts while 
experiencing our democracy and civil society. The Chief Justice of the 
Russian Supreme Court had planning sessions at the U.S. Supreme Court 
on U.S.-Russian judicial cooperation; two teams of Russian child-trauma 
experts helping Beslan victims consulted with Pennsylvania social 
agencies on their mental and social support services, and a delegation 
of Ukrainian journalists shared their experiences during the Orange 
Revolution at a forum in Cincinnati.
    Open World's plans for calendar year 2006 include programs on 
accountable governance for officials from municipalities created under 
Russia's recent law on local self-governance; expanding our two-year-
old exchange for Ukrainian leaders; and providing programs on elections 
to both Russian and Ukrainian leaders. We will also continue our rule 
of law program, which has benefited so much from the involvement of 
U.S. Supreme Court justices and many other prominent members of the 
American judiciary, including Chief U.S. Bankruptcy Judge Sidney B. 
Brooks of Denver, Colorado, and U.S. District Judge Michael M. Mihm of 
Peoria, Illinois. As I discuss below, this calendar year the Center's 
board--in consultation with the members of the Appropriations 
Committees--must also make important decisions about whether and where 
Open World should expand in Eurasia.

Program Leadership
    Senator Ted Stevens (AK) serves as honorary chairman of the Open 
World Leadership Center's board. The congressionally appointed members 
are Senate Majority Leader Bill Frist (TN), Senator Carl Levin (MI), 
and Representative Robert E. ``Bud'' Cramer (AL). The second 
congressionally appointed seat reserved for a member of the House of 
Representatives is currently vacant. Public Law 108-447, as amended by 
Public Law 109-13, added to the Board the chair of the Committee on 
Appropriations of the House of Representatives or designee and the 
chair of the Subcommittee on Legislative Branch of the Committee on 
Appropriations of the Senate. Former U.S. Ambassador to Russia James F. 
Collins, Walter Scott, Jr., Chairman of Level 3 Communications, former 
Representative Amo Houghton, and former U.S. Ambassador to Spain George 
Argyros are the current citizen members. I sit on the Board in my 
capacity as Librarian of Congress, and I currently serve as chairman. 
The Board of Trustees met on December 5, 2005, and reviewed the budget 
request and program plans presented below.

            Program Objectives:
    Open World program enhances professional relationships and 
understanding between political and civic leaders of participating 
countries and the United States. It is designed to enable emerging 
young leaders from the selected countries to:
  --build mutual understanding with their U.S. counterparts and share 
        approaches to common challenges;
  --observe U.S. government, business, volunteer, and community leaders 
        carrying out their daily responsibilities;
  --experience how the separation of powers, checks and balances, 
        freedom of the press, and other key elements of America's 
        democratic system make the government more accountable and 
        transparent;
  --develop an understanding of the U.S. free enterprise system;
  --learn how U.S. citizens organize and take initiative to address 
        social and civic needs;
  --participate in American family and community activities; and
  --establish lasting professional and personal ties with their U.S. 
        hosts and counterparts.
    Open World provides the highest-caliber program for the U.S. visit 
so that Open World participants return to their countries with a 
meaningful understanding of America's democracy and market economy.
    Open World has refined and focused on a few key themes central to 
democracy-building in order to improve the quality and focus of the 
U.S. program.
    The catalytic effect of the 10-day U.S. stay is extended by 
fostering continued post-visit communication between participants and 
their American hosts and contacts, their fellow Open World alumni, and 
alumni of other USG-sponsored exchange programs.
    In calendar 2005, Russian alumni participated in 168 interregional 
conferences, workshops, meetings, and professional seminars sponsored 
by Open World. A major conference for the program's Lithuanian alumni 
was held in the capital city of Vilnius, and three events were held for 
alumni in Ukraine.
    Open World's multilingual website with online forums (and assisted 
Russian/English translation for cross-cultural communication) helps 
maintain communication among delegates, American hosts, and other 
interested parties. Open World also operates two listservs for Russian 
alumni, one with news of grants, competitions, and other sources of 
financial support, the other with weekly updates on Open World news and 
announcements and opportunities for cooperation and partnership with 
fellow alumni. All alumni activities and the website are supported 
through private funding.

Measures of Success
    In addition to conducting the qualitative assessments described 
above, the Center also tracks quantitative program performance measures 
to ensure that Open World is meeting its mission of focusing on a 
geographically and professionally broad cross-section of emerging 
leaders who might not otherwise have the opportunity to visit the 
United States:
  --Delegates have come from all the political regions of Russia and 
        virtually all those of Ukraine, Lithuania, and Uzbekistan.
  --84 percent of Russian participants live outside Moscow and St. 
        Petersburg.
  --More than 5,000 federal, regional, and local government officials 
        have participated, including 156 members of parliament and 935 
        judges.
  --The average age of Open World delegates is 38.
  --92 percent of delegates are first-time visitors to the United 
        States.
  --Only 12.5 percent of delegates report having ``above average'' or 
        better English-language skills. (Several U.S. exchange programs 
        require some English-language skills. By not requiring 
        knowledge of English, Open World is able to choose from a much 
        larger candidate pool of young leaders. Interpretation is 
        provided for all Open World delegations.)
  --49 percent of delegates are women. (Women did not have significant 
        leadership opportunities in the Soviet Union.)
  --The distribution of delegates among Russia's seven ``super-
        regions'' roughly matches that of the country's general 
        population.

Open World in America
    Open World delegates are hosted by a large and dedicated group of 
American citizens who live in cities, towns, and rural communities 
throughout the United States:
  --Since Open World's inception in 1999, more than 5,300 U.S. families 
        have hosted participants in more than 1,500 communities in all 
        50 states.
  --In 2005, the 204 locally based Open World host organizations in 147 
        congressional districts included universities and community 
        colleges, library systems, Rotary clubs and other service 
        organizations, sister-city associations, courts, and 
        nonprofits.
    American hosts' generosity toward and enthusiasm for Open World are 
a mainstay of the program. In 2005, interested host communities' demand 
for Open World visitors exceeded supply by 34 percent. Americans' 
enthusiasm for the Open World Program is reflected in their generous 
giving. In 2005, Americans gave an estimated $1.9 million worth of in-
kind contributions through volunteer home hosting of delegates, a ratio 
of one dollar in contributions for every seven dollars in appropriated 
funds.
    Visiting delegates, in turn, have impacted American communities by 
sharing ideas with their professional counterparts, university faculty 
and students, governors and state legislators, American war veterans, 
and other American citizens in a variety of forums such as group 
discussions, Rotary Club breakfasts, and town hall meetings.
    During a 2005 Open World visit to Appleton, Wisconsin, for example, 
a Russian delegate from Kurgan Region, which borders Kazakhstan, 
proposed an idea at a Rotary club event. Since there were so many World 
War II veterans in attendance, the delegate suggested an exchange of 
letters between Wisconsin World War II veterans and their Kurgan 
counterparts. One such letter from a member of the Appleton-Kurgan 
Sister City Program reads, in part:

    ``WWII efforts created a significant result in history and provided 
a great victory which was achieved with the help of the Russians for 
the benefit of the world. Many people, especially among our Russian 
friends, lost family members . . . Some of my schoolmates lost their 
lives as well. They made the ultimate sacrifice from which all of us in 
the years since the war have benefited.''

    Students from Appleton North High School became interested in the 
correspondence and decided to interview local veterans, record their 
stories digitally, and make them available online. The letters also 
inspired an op-ed article in the local paper on Memorial Day last year 
and will be displayed at the Appleton Public Library. We understand the 
U.S. Consulate in Yekaterinburg as well as Fox Cities Online are 
interested in displaying the letters on their websites. In short, the 
Open World delegation's visit to Wisconsin is having a wide ripple 
effect.
    Two other examples of interchanges that benefited the American host 
communities come from Urbana, Illinois, and Harrisburg, Pennsylvania. 
In Urbana, a visiting Open World rule of law delegate made a detailed 
presentation on the differences between the Russian and American court 
systems to the Champaign County circuit court judges, state's attorney, 
and public defender; this was followed up by a lively question and 
answer session. And in Harrisburg, the two Open World teams of child-
trauma experts working with Beslan victims shared their harrowing 
experiences and the latest information on Russian child-trauma theory 
and practice during presentations to social-service providers and 
community leaders.
    As a result of the Open World Program, American professional 
leaders are also expanding their own international networks, opening up 
multiple channels of dialogue to integrate new ideas and values. Today 
one of the best ways to connect with the Supreme Court of Ukraine might 
be through Charles R. Simpson III, a federal district court judge in 
Louisville, Kentucky. One of Judge Simpson's 2005 Open World delegates, 
Ukrainian appellate judge Tatyana Valentinovna Shevchenko, recently e-
mailed him with the news that she had just been appointed to her 
country's high court.

The Importance of Russia
    The Board believes that Open World should maintain a high level of 
hosting from Russia. As Secretary of State Condoleezza Rice stated in a 
February 12, 2006 interview, we must challenge ``Russia as a whole . . 
. the Russian people, to fully integrate [democratic institutional] 
values into their future.'' Michael McFaul of the Carnegie Endowment 
for International Peace recently asserted the need for ``exchanges, 
connections, anything that increases connectivity between Russian and 
American society.''
    The Open World Program is playing a growing role in helping 
Russia's emerging leaders experience first hand the workings of our 
democratic institutions to. The ranks of Russian Open World 
participants include:
  --719 senior regional administrators and 163 regional legislators;
  -- more than 1,000 mayors, city council members, municipal 
        departmental heads, and executive-level city officials;
  --887 judges;
  --588 NGO directors; and
  --188 print editors and 68 heads of TV and radio stations.
    In addition, the Open World experience has contributed to the 
establishment or strengthening of 65 sister-organization and Rotary 
International partner relations, including 17 partnerships between U.S. 
and Russian legal communities.

Calendar Year 2005 Activities
            Russia
    Among the 1,410 Russian participants in calendar year 2005, 
delegates came from a wide range of regional ethnic groups, and had 
hosting experiences in 47 U.S. states and the District of Columbia. 
Open World's hosting themes were economic development, the environment, 
health and social services, rule of law, women as leaders, and, for the 
first time, local governance. Under the health/social services theme, 
several Open World teams concentrated on AIDS prevention and treatment, 
disability issues, or substance abuse prevention and treatment. Open 
World also hosted two delegations of Russian nonproliferation 
specialists who worked with their counterparts at two U.S. Department 
of Energy national laboratories.
    A highlight of our 2005 Russia program was a rule of law exchange 
hosted by Chief U.S. Bankruptcy Judge Sidney B. Brooks of Denver, 
Colorado, for a high-level delegation of Russian Supreme Commercial 
Court justices and regional commercial-court chief judges. The Russians 
held talks with federal and state judges and University of Denver law 
professors, observed court proceedings, took a workshop on alternative 
dispute resolution, and were briefed by the state attorney general on 
his office's role and structure. The delegates also attended the U.S. 
district court's weekly press briefing and analyzed it with court staff 
afterward. Thanks to the relationships established by this and earlier 
commercial-court exchanges, the head of Russia's Supreme Commercial 
Court will visit the United States later this month on a trip supported 
by the Department of State and Open World.
    As a result of legislation passed in 2003, the Open World Russia 
program now also includes up-and-coming arts administrators and artists 
in a range of media--important leaders to the development of a 
democratic society. Support from the National Endowment for the Arts 
enables the Russian Cultural Leaders Program to offer two- and three-
week residencies to these participants. The 2005 cultural program were 
brought Russian writers to the University of Mississippi to participate 
in the Oxford Conference on the Book, and brought Russian documentary 
filmmakers to the Athens Center for Film and Video in Athens, Ohio, for 
an intensive residency.
            Ukraine
    Ukraine was selected in 2003 for an Open World program because of 
its strategic position in Eurasia, its large and educated population, 
and its important potential contribution to regional stability.
    The 142 young Ukrainian leaders that Open World welcomed in 
calendar year 2005 were hosted in 14 states and the District of 
Columbia. The theme for Ukraine in 2005 was ``civil society,'' with 
subthemes in independent media, electoral processes, NGO development, 
and rule of law. Open World initiated a judge-to-judge program similar 
to its highly successful judicial exchange with Russia. Forty-two 
Ukrainian judges, including a Supreme Court justice and two members of 
the Supreme Commercial Court, were hosted in eight different states. In 
a number of the American communities that hosted Ukrainian leaders, the 
impact of the Orange Revolution was discussed in presentations, 
roundtables, and panels.
    The September 13, 2005 mayoral primary in Cincinnati provided the 
backdrop for one of this year's most successful Ukrainian exchanges: a 
study trip on American media and elections for a delegation of print 
and broadcast journalists. Hosted locally by the Cincinnati-Ukraine 
Partnership, the delegates observed mayoral candidates being 
interviewed by the press, spent a half day with key editors of the 
Cincinnati Enquirer, had a workshop on public relations and the press, 
and observed balloting at the Board of Elections on election night. 
They also sat in on newspaper editorial meetings and a live television 
news broadcast, allowing them to feel, as one delegation member said, 
like ``part of the editorial team.''

Open World 2006 and Plans for 2007
    For 2006, the Board of Trustees approved continuing the successful 
Open World programs for Russia (civic, cultural, and rule of law) and 
the rule of law and civic programs for Ukraine. I appointed a panel to 
assess and make recommendations for Board consideration on four major 
issues: (1) whether Open World should expand to other countries, and if 
so, which, (2) whether country programs should be linked by region, (3) 
what the scope and nature of alumni programs should be, and (4) what 
improvements could be made to the Russia and Ukraine programs. The 
panel will submit an overall strategic plan for board approval by June 
2006. The Board will notify the Appropriations Committee of any 
countries selected for new Open World programs. Any program expansion 
will be initiated in calendar 2006 and fully implemented in 2007. By 
September 30, 2006, Open World will finish implementing the financial 
management and administrative recommendations in the Government 
Accountability Office's March 2004 report on Open World.
    The budget request maintains hosting and other programmatic 
activities at a level of approximately 1,400 participants total. Actual 
allocations of hosting to individual countries will be adjusted to 
conform to Board of Trustees recommendations and consultation with the 
Appropriations Committees. The requested funding support is also needed 
for anticipated fiscal year 2007 pay increases and to cover the 
Department of State Capital Security Cost Sharing charge for the 
Center's two Foreign National Staff.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits ($1.197 million)
  --Contracts ($8.48 million--awarded to U.S.-based entities) that 
        include: Coordinating the delegate nomination and vetting 
        process; obtaining visas and other travel documents; arranging 
        and paying for air travel; coordinating with grantees and 
        placing delegates; and providing health insurance for 
        participants.
  --Grants ($4.72 million--awarded to U.S. host organizations) that 
        include the cost of providing: Professional programming for 
        delegates; meals outside of those provided by home hosts; 
        cultural activities; local transportation; professional 
        interpretation; and administrative support.

                               CONCLUSION

    The fiscal year 2007 budget request will enable the Open World 
Leadership Center to continue to make major contributions to an 
understanding of democracy, civil society, and free enterprise in a 
region of vital importance to the Congress and the nation. This 
Subcommittee's interest and support have been essential ingredients in 
Open World's success.
    I thank the Subcommittee for its continued support of the Open 
World Program.

   APPENDIX A.--OPEN WORLD LEADERSHIP CENTER BUDGET--FISCAL YEAR 2007
------------------------------------------------------------------------
                                                            Fiscal year
                       Description                        2007 estimated
                                                            obligations
------------------------------------------------------------------------
11.1 Personnel Compensation.............................        $944,100
12.1 Personnel Benefits.................................         252,400
21.0 Travel.............................................          97,500
22.0 Transportation.....................................           2,200
23.0 Rent, Comm., Utilities.............................           8,100
24.0 Printing...........................................           4,100
25.1 Other Services/Contracts...........................       8,386,000
26.0 Supplies...........................................           4,100
31.0 Equipment..........................................          16,500
41.0 Grants.............................................       4,685,000
                                                         ---------------
      Total, fiscal year 2007 budget request............      14,400,000
------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of Marybeth Peters, The Register of Copyrights

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present the Copyright Office's fiscal year 2007 budget 
request.
    The Copyright Office is requesting the Committee's approval of four 
program changes for the Copyright BASIC appropriation. There are three 
offsetting collections authority changes and one in net appropriations. 
In offsetting collections, we are requesting a $1,590,901 decrease in 
the Reengineering Program funding due to fewer funds in the no year 
account, an $850,000 decrease due to a decrease in renewal receipts, 
and a $600,000 increase due to an overall increase in receipts from 
other service fees. In new net appropriation authority, the Office 
requests $1 million to digitally image the pre-1978 public records to 
mitigate the risk of loss and to make them available online. I will 
discuss these requests in more detail, after I provide an overview of 
the Office's work and accomplishments.

          REVIEW OF COPYRIGHT OFFICE WORK AND ACCOMPLISHMENTS

    The Copyright Office's mission is to promote creativity by 
sustaining an effective national copyright system. We do this by 
administering the copyright law; providing policy and legal assistance 
to the Congress, the administration, and the judiciary; and by 
informing and educating the public about our nation's copyright system. 
The demands in these areas are growing and becoming more complex with 
the evolution and increased use of digital technology.
    I will briefly highlight some of the Office's current and past work 
and our plans for fiscal year 2006.
Policy and Legal Work
    We have continued to work closely with the Senate Committee on the 
Judiciary, its Subcommittee on Intellectual Property, and its House 
counterpart. In May, I testified before the Senate Subcommittee on 
International Piracy of Intellectual Property, highlighting the fact 
that piracy is one of the most enduring copyright problems throughout 
the world and the Office's efforts, together with other Federal 
agencies, to reduce piracy to the lowest levels possible.
    I also testified twice last year on ways to modernize music 
licensing in a digital world. In June, I testified before the House 
Subcommittee and in July, I testified before the Senate Subcommittee. 
During the first hearing, I focused on the possibility of permitting 
``music rights organizations'' to license on a consolidated basis both 
the public performance right of a musical work as well as its 
reproduction and distribution rights. In the second hearing, I 
considered alternative solutions to the music licensing dilemma, 
including a blanket statutory license for digital phonorecord 
deliveries. These hearings and meetings with representatives of the 
affected industries produced a consensus that Section 115 of the 
copyright law should be modernized to reflect the needs and realities 
of the online world. However, there was no agreement as to how such 
modernization should be structured and implemented. Further work is 
needed in this area and I will continue to work with the interested 
parties and Congress on legislative solutions to the music licensing 
problem in this and the next fiscal year.
    I testified before the Senate Committee on the Judiciary in 
September to examine legal and policy issues in the wake of the Supreme 
Court's June 27, 2005, decision in Metro-Goldwyn-Mayer Studios, Inc. v. 
Grokster, Ltd. which clarified the doctrine of secondary liability as 
it would apply to those who offer products and services in a way that 
induces others to engage in copyright infringement. I testified that 
the Court's ruling seemed to strike an appropriate balance between the 
rights of copyright holders and the flexibility necessary to enable and 
encourage technologists to continue to develop new products and, thus, 
there was no immediate need for new legislation. I used the word 
``seemed'' because, at the time of the hearing, only three months had 
passed since the ruling and it was simply too early to tell whether 
Grokster would provide sufficient guidance for the years and 
circumstances to come.
    The Office implemented a new preregistration system, as required by 
the Family Entertainment and Copyright Act of 2005, Public Law 109-9, 
within the statutory six-month time frame. Preregistration of an 
unpublished work being prepared for commercial distribution allows a 
copyright owner to bring an infringement action before the authorized 
publication of the work and full registration, making it possible, upon 
full registration, to recover statutory damages and attorney fees. The 
electronic preregistration filing system became operational on November 
15, 2005.
    The Office also conducted two studies in 2005. First, Senators 
Orrin Hatch and Patrick Leahy requested that we examine the issue of 
``orphan works,'' copyrighted works whose owners are difficult or 
impossible to locate, to determine whether there are compelling 
concerns that merit a legislative, regulatory or other solution; and if 
so, what type of solution could effectively address these concerns 
without conflicting with the legitimate interests of authors and right 
holders. As part of our efforts to produce this study, the Office 
collected over 850 written comments from the public and held roundtable 
meetings with dozens of interested parties in the summer of 2005 in 
both Washington, D.C. and Berkeley, CA. The Report on Orphan Works was 
delivered to Congress in January 2006. Second, at the request of 
Congress, we have also conducted a study to examine the harm to 
copyright owners whose programming is retransmitted by satellite 
carriers under a statutory license in Section 119. This report was also 
delivered to Congress in January 2006.
    In addition, the Office has initiated its triennial rulemaking on 
exceptions from section 1201 prohibition on circumvention of 
technological measures that control access to copyrighted works and has 
received public comments. In addition, we will conduct hearings in 
Washington, D.C. and Palo Alto, CA. to elicit further information from 
the public. The study will be concluded in fiscal year 2007, at which 
time, I will make my recommendations to the Librarian of Congress on 
classes of works that should be exempted from the section 1201 
prohibition on circumvention.
    We have also been actively involved in the implementation of the 
Copyright Royalty and Distribution Reform Act of 2004 (CRDRA), Public 
Law 108-419, which became effective on May 31, 2005. This Act phases 
out the Copyright Arbitration Royalty Panels (CARPs), a program 
administered by the Copyright Office, and replaces them with a new 
Library program which is independent of the Copyright Office and 
employs three full-time Copyright Royalty Judges (CRJs) and three 
staff. This organization is known as the Copyright Royalty Board. At 
the outset of the program, I worked diligently with my colleagues to 
identify and recruit the three highly qualified individuals who the 
Librarian appointed to the Board in January 2006.
    The primary responsibilities of the CRJs, as with the CARPs which 
preceded them, are to set rates and terms for the various statutory 
licenses contained in the Copyright Act and to determine the 
distribution of royalty fees collected by the Copyright Office pursuant 
to certain of these licenses. The CRJs have the additional 
responsibility to promulgate notice and recordkeeping regulations to 
administer some of the statutory licenses. In accordance with the rate 
setting schedule set forth in the law, the Board has initiated three 
rate setting proceedings and it will conduct hearings in fiscal year 
2007 to set rates for the transmission of sound recordings over the 
internet.
    We have worked closely with the Board to insure a smooth transition 
from the old system to the new and we have taken steps to conclude open 
and pending distribution and rate setting proceedings that were 
commenced under the Copyright Arbitration Royalty Panel (CARP) program. 
The conclusion of these proceedings, however, does not end my 
involvement in the determination of statutory rates and distributions 
of royalty fees. Under the Reform Act, the Board must seek a legal 
opinion from me on any novel question of copyright law and may seek a 
written determination on other material questions of substantive law. 
Such determinations shall be binding as precedent upon the Copyright 
Royalty Judges in subsequent proceedings.
    During fiscal year 2007, we will continue to take an active role in 
a number of important copyright cases, many of which challenge the 
constitutionality of various provisions of the Copyright Act, and 
continue to provide ongoing advice to executive branch agencies on 
international matters, particularly, the United States Trade 
Representative, the Department of Commerce, and the Department of 
State; and participate in numerous multinational, regional and 
bilateral negotiations.

Registration and Recordation
    Registration of claims to copyright, including renewals, and 
recordation of documents, such as assignments, security interests, and 
mergers, are critical parts of the U.S. copyright system. Timely 
registration secures to owners certain benefits and provides a public 
record of copyright ownership. The Office has significantly improved 
its delivery times for these services since 2001.
    During fiscal year 2005, the Copyright Office received 600,535 
claims to copyright covering more than a million works and registered 
531,720 claims. The Office maintained an average of 80-90 days to issue 
a registration certificate, a significant improvement over processing 
times at the beginning of the decade. We also reduced the average 
processing time for the creation and posting of online copyright 
records by 50 percent.
    The Copyright Office records documents relating to copyrighted 
works, mask works, and vessel hull designs and creates records of those 
documents. These documents frequently concern popular and economically 
significant works. The Office recorded 11,874 documents covering more 
than 350,000 titles of works in fiscal year 2005. The average time to 
record a document was 50-60 days.
    These achievements took place during a period marked by a 
significant investment of staff resources to reengineer Copyright 
Office processes and to move online copyright records from legacy 
systems to a database in Endeavor System's Voyager.
    We expect a significant decrease in renewal registrations in 2007, 
due to the expiration of the renewal provision in the law. Renewal 
registrations only apply to works that were copyrighted before January 
1, 1978, the effective date of the current copyright law. Before 1978, 
if a work was published with the required notice of copyright or an 
unpublished work was registered in the Copyright Office, it received an 
initial term of copyright protection of 28 years, and a renewal term 
that initially was 28 years and today is 67 years. To receive the 
renewal term, a renewal registration had to be made in the last year of 
the initial term, i.e., the 28th year. The last date for 28th year 
renewals was December 31, 2005.
    The law was changed in 1992 to make renewal registration voluntary. 
This law applies to works copyrighted between January 1, 1964, and 
December 31, 1977. There were certain benefits gained by renewing in 
the 28th year, but if no renewal claim was registered in the 28th year 
of the term, renewal was automatically secured on the last day of that 
year. However, even if renewal is automatically secured, i.e., no 
renewal application was submitted in the 28th year of the initial term 
of copyright, a renewal claim may be submitted after the 28th year and 
some benefits flow from such a registration. A number of such 
registrations are made each year and we expect to receive 2,000 to 
3,000 renewals in this category compared to the 16,000 to 18,000 
renewals we have been receiving per year.
    The President signed the Family Entertainment and Copyright Act 
(FECA), Public Law 109-9, on April 27, 2005. As mentioned earlier, this 
legislation amended the copyright law by the addition of a new 
provision, Sec. 408(f), establishing preregistration. Preregistration, 
as distinct from registration, is available only for unpublished 
copyrighted works in categories that the Register of Copyrights finds 
to have had a history of infringement prior to commercial distribution. 
Unlike registration, preregistration requires only an application which 
includes a description of the work and a fee. Preregistration is an 
online service only; it is part of the new information technology 
system called eCO (Electronic Copyright Office). From April 2005 
through the end of the fiscal year, the Office completed intensive work 
to prepare the electronic preregistration application form and help 
text, and to do the related IT development, process analysis, and 
training required to implement on November 15, 2005. Much of the 
development work that was done for the preregistration system will be 
applied directly to the electronic registration system that will be 
piloted in April 2006.

Public Information and Education
    The Copyright Office responded to 362,263 requests for direct 
reference services and electronically published thirty-nine issues of 
its electronic newsletter NewsNet--a source that alerts over 5,000 
subscribers to Congressional hearings, new and proposed regulations, 
deadlines for comments, new publications, other copyright-related 
subjects, and news about the Copyright Office.
    The Office website continued to play a key role in disseminating 
information to the copyright community and the general public. The 
Office logged close to 30 million external hits to key web pages in 
fiscal year 2005, representing a 49 percent increase over the previous 
year. The website received several enhancements, including introduction 
of RSS (Really Simple Syndication) feeds by which members of the public 
can receive instant notification of updates and revisions on pages that 
change frequently. There is a new history page that includes 
biographies of former Registers of Copyright, annual reports dating 
back to 1870, and previous copyright acts. The website is also part of 
LCNet, a new gateway for members of Congress and their staff.

Licensing Activities
    The Copyright Office administers certain provisions of the 
copyright law's statutory licenses. The Licensing Division collects 
royalty fees from cable operators for retransmitting television and 
radio broadcasts, from satellite carriers for retransmitting 
``superstation'' and network signals, and from importers and 
manufacturers of digital audio recording products for later 
distribution to copyright owners. In calendar year 2005, the Office 
collected $212.6 million in royalty funds and distributed $150.7 
million to copyright owners.

Reengineering Program
    The Copyright Office's seven-year Reengineering Program initiative 
is to redesign delivery of its public services. This program is 
customer driven to prepare our Office for the future growth in 
electronic submissions. The Office had planned for the reengineering 
implementation to be completed in the first half of fiscal year 2007, 
to include moving staff offsite so that its space in the Madison 
Building could be renovated in one phase. However, due to 
infrastructure and offsite lease requirements, the program cannot be 
completed until the third quarter of fiscal year 2007. The program has 
four major components--process, information technology, facilities, and 
organization that will be fully implemented in fiscal year 2007.
            Process
    Accomplishments in the process component closely tracked IT 
development. Pilot projects began in fiscal year 2005 to test both the 
new processes and the new IT system, eCO. In the Registration Pilot, 
several thousand actual copyright registrations for motion pictures 
were made using most of the new processes--incoming paper forms were 
scanned, hard copy deposits were bar-coded and tracked, and all 
internal processing and correspondence was done in the eCO system.
    Other pilots included the Deposit Selection Pilot, during which 
examiners successfully made selection decisions for certain routine 
monographs and musical works for the Library of Congress. In an 
Electronic Deposit Pilot, selected publishers submitted electronic 
versions of works via the internet, in preparation for electronic 
registration and possible future deposit of electronic formats for the 
Library's collections. As I mentioned earlier, the new preregistration 
service was implemented in eCO with an online-only application and 
completely paperless process. This service successfully uses Treasury's 
Pay.Gov for fee payments.
            Information Technology (IT)
    During fiscal year 2005, the Copyright Technology Office (CTO) 
continued to work closely with the system development contractor SRA 
International, on the analysis, design, and building of the new 
Copyright IT systems infrastructure that will support the reengineered 
business processes. The CTO also made further significant progress on 
the conversion of the historical files of copyright registrations and 
recordations to MARC format and the preparation for access to the 
records through the Voyager system.
    To ensure compliance with the Library's new system security 
regulation and newly issued security directives, the Office established 
a Security Review Board (SRB), made up of Copyright staff and 
consultants. During the 10 weeks preceding the implementation of the 
Registration Pilot, the SRB created a System Security Plan defining the 
security requirements, conducted a risk assessment, carried out a 
security compliance test and evaluation, and made recommendations to 
Copyright Office management about the security status of the software 
for this pilot. As a result, the Office received an interim 
authorization to operate and the system moved to production.
    In fiscal year 2006, the Office plans to expand its implementation 
of an on-line web portal--eCO Service--to allow the public to apply for 
copyright services online and pay with a credit card or bank account 
through Pay.Gov. Claims processing through the web portal will 
initially be a pilot to allow for full testing of the system before 
making it available to all the public in 2007. Additionally, we will 
use eCO to search a Voyager database of copyright records dating back 
to January 1, 1978.
    In fiscal year 2007 the Office plans to complete the IT component 
by transforming eCO Service from a pilot to full operational capability 
for processing copyright claims and issuing registration certificates, 
processing statements of account for statutory licenses, processing 
acquisition demands under section 407, and recording transfers, 
assignments, and other documents.
            Facilities
    In November 2004, the Library appointed a project manager funded by 
the Copyright Office to oversee the Madison Building renovation project 
and coordinate attendant swing space moves within Capitol Hill and 
offsite. The Copyright Office hired a move management company to 
oversee the moves offsite and back to the Madison Building. In late 
September 2005, after an extensive search for temporary offsite lease 
space, the Library signed occupancy agreements with Government Services 
Administration (GSA) for space within two buildings in Crystal City, 
VA. In December 2005, an RFP was issued for construction of the offsite 
rental space. A contract was awarded in February 2006 and construction 
began in late February. Most of the Office's staff will move offsite in 
early July 2006. The remaining operations and staff will be located in 
the Adams and Madison buildings. We expect all staff to return to the 
Madison renovated space in July 2007.
            Organization
    The Office completed new and revised position descriptions to 
support the new processes for most of the divisions in the new 
organizational structure. Preliminary work was done to prepare for the 
``cross-walk'' of staff from current to new positions and from the 
current divisions and sub-units to the new ones. The Office began 
drafting documents required for the reorganization package as specified 
in Library of Congress regulations. In fiscal year 2007, the new 
organization and positions will be implemented, coinciding with the 
return of the staff to the Madison Building and the implementation of 
new processes.

                    FISCAL YEAR 2007 BUDGET REQUEST

Reengineering
    No new funding is needed for reengineering for fiscal year 2007. 
Rather, the Office is reducing its offsetting collections base by 
$1,590,911 as a result of fewer funds remaining in the no-year account.

Renewal Receipts
    With respect to renewal registrations, the Office is reducing its 
offsetting collections authority by $850,000 and five staff due to the 
fact that the number of renewal registrations will decrease 
significantly in fiscal year 2007.
    When renewal registration was required, the Office registered 
approximately 52,000 claims. Since the enactment of the automatic 
renewal provision in 1992, the number of renewal claims have decreased 
each year. In fiscal year 2005, the Office received approximately 
15,893 renewal claims bringing in fees of approximately $1.2 million. 
In fiscal year 2006, we believe that amount will drop to about $500,000 
and in fiscal year 2007 to about $150,000. Our records show that 
approximately 5,500 renewal claims were received in October, November, 
and December 2004. This has decreased to 4,839 for the same period in 
2005 and is expected to decline throughout the rest of fiscal year 
2006.

Overall Fees Increased
    Over the past two years, the overall fees collected for the Basic 
Fund have gradually increased and are projected in fiscal year 2007 to 
exceed the normal receipts level of approximately $23 million by 
$600,000. This is based on more dollars being received across all the 
fee products, not from a change in the fee schedule. Based on this 
trend, the Office requests a permanent $600,000 increase in offsetting 
collections authority.

Copyright Records Preservation
    The Office requests funding to digitize the pre-1978 copyright 
records. The key objectives of this record digitization project are (1) 
disaster preparedness preservation of pre-1978 public records and (2) 
provision of online access to those public records. Copyright records 
are vital to the mission of the Library of Congress and the Copyright 
Office and they are important to the public and the copyright 
industries that are a significant part of the global economy. The pre-
1978 records document the ownership and copyright status of millions of 
creative works. Loss of these sole-copy public records due to a site 
disaster would trigger a complex and expensive intellectual property 
ownership dilemma. Additionally, the unavailability of pre-1978 records 
online has been raised as a major issue in the study on the problem of 
``orphan works.''
    During fiscal year 2005, the Copyright Office, with the Library's 
Office of Strategic Initiatives, completed the Copyright Records 
Project study of the feasibility of digitizing millions of these paper 
records and developing technical approaches for integrating the 
resulting digital records with post-1977 digital records. The project 
team completed testing of vendor capabilities to digitize and index 
sample records. A comprehensive report of the project provided 
implementation strategies, cost estimates, and a recommendation for how 
the conversion could be handled in two stages.
    The first stage would cost approximately $6,000,000 over a six year 
period and would achieve the preservation goal and very basic online 
access. The second stage would add item level indexing, enhanced 
searching and retrieval, costing between $5,000,000 and $65,000,000 
depending on the extent of fields indexed. The Copyright Office is 
requesting for fiscal year 2007 the initial $1 million to begin the 
first stage.

                          FUTURE FEE INCREASE

    On November 13, 1997, Congress enacted the Technical Amendments 
Act, some provisions of which are now codified in 17 U.S.C. Sec. 708. 
The law requires the Register of Copyrights, whenever appropriate, to 
conduct a study of costs incurred by the Office for the registration of 
claims, the recordation of documents and other special services. On the 
basis of the study and public policy considerations and subject to 
congressional review, the Register is authorized to increase statutory 
and related fees to recover reasonable costs adjusted for inflation. 
Furthermore, the new fees should be fair and equitable and give due 
consideration to the objectives of the copyright system.
    The last time the Copyright Office raised fees was July 2002. The 
basic filing fee was set in 1999 and has not increased since that time. 
Historically, a change in the charge for services usually causes a drop 
in customer demand in the fiscal year following the increase and then a 
gradual rise in demand over the next two years. The possibility for 
raising fees was considered in 2001-2002. Because the Office had just 
begun its reengineering project to implement electronic registrations, 
and that project was to have been completed in 2006, the fee increase 
was postponed to coincide with the implementation of the new electronic 
system. However, since the implementation date for the new system is 
now summer 2007, we believe that we should move forward with a change 
to fees now.
    I have received fee recommendations based on a cost study developed 
by a task group. We will complete the required economic analysis and 
propose a schedule of fees to Congress in March 2006 to be effective 
July 1, 2006. The Office will publish a notice in the Federal Register 
to announce a proposed fee schedule. Based on a year's experience under 
the revised fee schedule and the new business processes, the Office 
expects to adjust the mix of net appropriation and offsetting 
collections authority in its fiscal year 2008 BASIC budget submission 
to Congress.

                               CONCLUSION

    Mr. Chairman, I ask you to support the fiscal year 2007 Copyright 
Basic budget request for a permanent net decrease in offsetting 
collections for the BASIC appropriation and a one time $1 million 
increase in net appropriations for the Digital Imaging project.
    Our fiscal year 2007 budget will allow us to implement the final 
steps of our Reengineering Program. Once implemented, the Office plans 
to further reduce both its net appropriations and offsetting 
collections authority in the fiscal year 2008 budget request as well as 
adjust the net appropriations and offsetting collections based on the 
implementation of new fees. We appreciate your continued support for 
the Reengineering Project that will transform the way we do business 
and meet the public's demand for electronic services.
    I thank the Committee for its past support of the Copyright Office 
requests and for your consideration of this request in this challenging 
time of transition and progress.

                         LOGISTICS CENTER COST

    Senator Allard. Thank you very much. I have a few 
questions. It should not take us too long this morning to get 
you on your way.
    On the logistics warehouse, I am glad to see that you 
recognize that this is a pretty big chunk that we are looking 
at. The total overhead is about 18 percent. You have 10 percent 
that is being assessed by the Architect and you have 8 percent 
by the Corps of Engineers. It sounds excessive. I wonder if, 
with two supervising agencies, we have a duplication of effort. 
I wonder if you could comment on that.
    Dr. Billington. Well, I think I would defer to General 
Scott on this issue, except to say that the basic construction 
cost, the $41 million, is about what was approved for the last 
two book modules approved last year, and there is this question 
of construction oversight fees, as you indicate.
    I would just say briefly that the importance of this can 
hardly be overestimated. It is essential to effect this kind of 
consolidation for the Library's entire distribution function. 
It is not just a warehouse; it is a logistics center that will 
more efficiently do what is being done less efficiently at four 
separate locations at higher costs, to be precise.

                        LOGISTICS CENTER REVIEW

    We plan to discuss on a line by line basis in a very 
careful way all estimated costs with the Architect of the 
Capitol. But I will defer to General Scott, who has been more 
deeply involved in the planning.
    General Scott. Thank you, Dr. Billington. Thank you, Mr. 
Chairman.
    The Library is very concerned about the oversight costs and 
contingency reserves. These are costs as you correctly point 
out, by the AOC and the Corps of Engineers, which we have no 
control or influence over. However, we have and will continue 
to engage them to ask them to help us look for ways that we can 
reduce those costs and still receive the kind of expert 
construction oversight that is required to put up that 
facility.
    We also, as Dr. Billington mentioned, will go through a 
line by line study to ensure that any type of savings that we 
can propose will be realized and we can reduce the price.
    One of the other additional costs related to that facility 
came about as a result of concern from some of the citizens of 
that area who wanted there to be more of a look to blend with 
the neighborhood of the Fort Meade facilities. That has added 
more money than would otherwise be needed.
    So we will revisit all these estimated costs, but in the 
end we are very much concerned about them. We are engaged with 
the AOC and we will appreciate anything the subcommittee can do 
to help us work with the AOC to reduce these costs.

             GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)

    Senator Allard. I am going to have my staff talk with the 
Corps of Engineers as well as the Architect of the Capitol on 
these administrative costs and express to them my concerns 
about how high they are.
    Now, we do not have the Architect of the Capitol under what 
is referred to as the performance assessment and review tool 
(PART) program. This is the method that the Office of 
Management and Budget uses to measure performance within the 
agencies of the Federal Government. The legislative agencies 
are not required to be under this. Executive branch agencies 
are required to justify actions and assess results that we can 
measure here in Congress.
    And if they do not measure very well, it impacts how 
favorably their budget is considered. If they are rated as, for 
example, ineffective or results not demonstrated, their budget 
would be cut.

                        FEDERAL AGENCY OVERHEAD

    So, you are the customer of the Army Corps of Engineers, 
and we will have our staff talk to them. When we have these 
overhead costs, we need to be sure they can justify them, that 
they are measurable from a customer satisfaction standpoint. 
Frankly, I want to see more of our legislative agencies under 
that program because as legislators and policymakers it gives 
us the ability to measure performance of the various agencies.
    And while we are on the subject, we would encourage the 
Library of Congress to also look at this kind of accountability 
when you report to the subcommittee, because it is valuable for 
policymakers and it does help us do a better job for the 
taxpayers of this country.
    This particular article, just for your information, we got 
this out of Congressional Quarterly, page 538 and 539, so you 
can look at the program if you are not familiar with it. This 
is an opportunity for us to have more accountability and 
oversight of these agencies. I think they are way too high, 
these administrative costs.

      GOVERNMENT PERFORMANCE AND RESULTS ACT AND LIBRARY PLANNING

    General Scott. We certainly appreciate your assistance in 
this, Mr. Chairman. Yes, we too appreciate the value of GPRA 
standards because we have been implementing GPRA since 1997. To 
a certain degree, the cost savings that we have been able to 
show with this 2007 budget came as a result of follow-on to 
GPRA and coming up with an annual activity and performance 
plan. From that plan we create the operating plan that we give 
to the Congress. So we appreciate GPRA, and we certainly 
appreciate what you might do to help us.
    Senator Allard. The nice thing about it is you are not 
necessarily just counting beans. What you do hope to put in 
place are some goals and objectives that are measurable from a 
consumer standpoint: Who is using that agency? Who is using 
their services? And how are those customers' needs being met? 
So I think it helps us all do a better job in that. We have to 
measure results.

                      COPYRIGHT DEPOSITS FACILITY

    Also, one other question now. You have requested money for 
this logistics warehouse. In the 2005 budget, we had a 
copyright deposits facility project. Would you explain to me 
why we now have the logistics warehouse that seems to have a 
higher priority than the copyright facility when the copyright 
facility was requested back in the 2005 budget?
    Dr. Billington. Well, the copyright deposits facility is 
extremely important. It is very difficult to make choices of 
this kind, but the logistics center need is a more immediate 
one. We are moving ahead thanks to the Congress' approval in 
2003 and 2004. This is a year of important transition for the 
Copyright Office. Fiscal year 2007 is the last year of the 
reengineering project. The staff must relocate for 1 year while 
their facilities are reconfigured. The logistics issues affect 
distribution and storage, and the related safety and security 
problems seem to us essential this year. The copyright 
facility, which I think the Library will have to come back for 
next year, is equally important, but perhaps a little bit more 
deferrable because of the redesign that is taking place to 
facilitate a modular construction approach. It will be an 
essential request next year. It is not a lesser priority; it is 
just a different priority and one that fits next year with the 
overall schedule because of the redesigned modular approach.
    Senator Allard. Well, thank you.
    Dr. Billington. General Scott wanted to add to that.
    General Scott. I believe, Mr. Chairman, we were asked to 
take another look at the redesign of that copyright deposits 
facility, which we did. Then we only switched priorities 
temporarily while coming up with the redesign, making a 
determination that it would be more advantageous for the 
Library to go ahead with the logistics center at this time 
rather than with the copyright facility this year.

                   INTRODUCTION OF INSPECTOR GENERAL

    Senator Allard. I am one legislator who utilizes the 
agencies that are sort of the eyes and ears of the Congress. 
GAO is one. Another one is the Inspector General. I know that 
the Inspector General has expressed some concerns about the 
cost on this and I understand that Mr. Schornagel is here with 
us today. I would like to have him come up if you would, 
please, and make any comments that you care to make about this 
proposal.
    Mr. Schornagel. My name is Karl Schornagel, Inspector 
General.

                        LOGISTICS CENTER REVIEW

    As you have already stated, I have concerns about the cost 
of this warehouse. I just learned of the total price a couple 
weeks ago and I expressed concerns immediately. I also raised 
in March 2005 some concern about the size of this warehouse. I 
am in the process of getting information from the Library as we 
speak, and there is an important report that is going to be 
issued by one of the Library's contractors that should shed 
some light on this issue.
    Senator Allard. When is that supposed to come out?
    Mr. Schornagel. Next week.
    Senator Allard. Next week, okay.
    Mr. Schornagel. I also share the Librarian's concern that 
the whole cadre of storage facilities at Fort Meade is behind 
schedule about 5 or 6 years. There certainly is a need to get 
some of these buildings put up.
    Senator Allard. So would you be more specific about some of 
your concerns about cost overruns?
    Mr. Schornagel. Yes. I am concerned that about $15 million 
of that $54 million in cost is oversight and contingency. I am 
especially concerned about multiple layers of oversight. About 
$7 million of that is for AOC oversight and administration, 
more than $3 million for the Corps of Engineers. There is $6 
million in reserves and contingency, plus another 25 percent in 
price escalation.
    I also have issues about some of the individual cost 
components of the warehouse itself that range anywhere from 
microwave ovens to the sod for the front lawn. I believe that 
the whole cost issue and approach needs to be reviewed more 
thoroughly.
    Senator Allard. I hope that while you review this project, 
his suggestions will be helpful in trying to figure out ways in 
which we could bring down the cost of this.
    In the past you have raised concerns about poor space 
management at Library facilities, including the warehouse at 
Landover----
    Mr. Schornagel. Yes, that is true.
    Senator Allard [continuing]. That the new facility would 
replace. Have these concerns been resolved?
    Mr. Schornagel. Well, not fully. That is what I mentioned 
earlier. In March 2005 I issued an audit report that found 
inefficient use of the space. As a result, about 20 percent of 
the inventory items were deleted. These are items that were 
either excess or obsolete. As part of that audit report, I 
recommended that the size of the new warehouse be reconsidered 
in light of this new efficiency gain and, to my satisfaction 
that has not fully been addressed yet.
    Senator Allard. So we have excess capacity that is being 
poorly managed in the Landover facility?
    Mr. Schornagel. Yes, that is true.
    Senator Allard. Okay.
    Mr. Schornagel. And I have other issues. For example, the 
reference to the new warehouse is in terms of square feet, but 
when you consider that the proposed warehouse is going to be 
taller, it actually increases the capacity per square foot 
because you have to look at cubic feet. Issues like that are 
relevant to the plans for this new warehouse.

               CONGRESSIONAL RESEARCH SERVICE REALIGNMENT

    Senator Allard. Thank you for that insight.
    On the CRS realignment, the CRS determined last year that 
some 59 production support, technology support, and audio-
visual positions were no longer needed and the affected 
employees were offered a buyout in January. Those who did not 
take the buyout could be subject to a reduction in force later 
this year.
    Can you describe the process that CRS went through to make 
that determination that the positions were not needed, Dr. 
Billington?
    Dr. Billington. Well, I will defer to the Director of the 
Congressional Research Service to respond in detail. I will 
point out that this is part of the workforce transformation 
process. The needs of the Service to deliver, and particularly 
to integrate the electronic aspects of the Service have been 
increasing greatly. We need to reconfigure the workforce to 
deal simultaneously with both the digital component of 
information delivery, including the successful mining of the 
vast amount of public policy research, as we continue our 
traditional artifactual work.
    So the Library is undergoing very important 
transformational changes currently. I will let the Director of 
the Service speak more directly to the particulars.

                        TECHNOLOGY AND STAFFING

    Senator Allard. Dan Mulhollan, would you like to come up?
    While he is coming up, Dr. Billington, I have to tell you I 
am very sympathetic with your challenges in moving to a high 
tech operation. Those are huge challenges and they create some 
obstacles as far as managing your workforce. These are 
challenges we both have to face.
    Dr. Billington. Servicing the Congress is our first 
priority. We are the Library of Congress, and making sure that 
that conversion moves ahead so the Service can be as effective, 
timely, dependable and objective as it has always been is a 
very high priority.
    Senator Allard. Well, the high technology requires a higher 
level of expertise and it is more efficient in many ways. The 
user of the Library can more quickly search out the information 
through computer search.
    Dr. Billington. It used to be in the early days of the 
information revolution that the IT part of an institution was 
where the expertise would be concentrated. It now has to be 
developed thoroughly and integrated into the direct service 
components much more seamlessly and much more immediately. I 
will let the Director speak to the details.

      OPENING STATEMENT OF CONGRESSIONAL RESEARCH SERVICE DIRECTOR

    Senator Allard. Mr. Mulhollan.
    Mr. Mulhollan. Good morning Senator. We welcome the 
opportunity to discuss this issue. I appreciate it.
    As a matter of good business practices, CRS reviews its 
activities and positions continually and has for years. What we 
identified is, particularly in the functions of production 
support and audio-visual functions, that the positions we had 
established in the early 1990s, which corresponded to the 
technical functions at that time, were no longer relevant to 
the technical skills needed with a more sophisticated, 
centralized IT operating system. For instance, production 
support activities are now seamlessly integrated into network 
software. Numerous technical support positions had been created 
to install new hardware as well as software packages and 
upgrades machine by machine. Now, with ``push'' technology and 
a fully integrated network system, those functions no longer 
are needed.
    We also found an underuse of the Service's audio-visual 
functions, as well as the changes in technology.
    Our responsibility is to maintain analytical and research 
capacity and these decisions were based on our ensuring we 
could do that. Given the fact that we had a certain amount of 
money available, workforce reengineering seemed necessary.
    We had announced to staff on September 22, 2005 that we 
were going to eliminate 59 support positions effective 
September 30, 2006. To my knowledge, there is not another 
agency that has given their staff 1 year in order to find other 
jobs. In addition, with your help from last year, we offered 
separation incentives as well as getting early out authority 
from the Office of Personnel Management in order to provide 
more options to staff.
    Twenty-three of the 59 took full or early retirement with 
the separation incentive. We have distributed to all staff in 
CRS the entire staffing plan for the remainder of the fiscal 
year. As of this point, three of the administrative positions 
were filled with affected staff, two staff accepted positions 
elsewhere in the Library. Five of the affected staff in those 
abolished positions have been placed. I anticipate there is 
some likelihood that some of the remaining affected staff are 
certainly competitive and may be selected for other jobs. 
Currently there are 31 affected staff remaining who will be 
without a job at the end of September.
    According to our collective bargaining agreement and 
Library regs, if in fact those folks are not in another 
position by June, the Library of Congress will institute a 
reduction in force. My fondest hope is that prior to that time, 
every one of those people could find a job that they find 
meaningful and good.

                           PREPARED STATEMENT

    Now, that said, one of the things that the Library is 
seeking your help for is approval of an administrative 
provision that would provide a safety net basically for 
reduction in force staff of the Library of Congress. The new 
provisions would allow a staff member of the Library who is 
facing a reduction in force to be in the executive branch's 
priority placement pool, if they want to continue their civil 
service. We would much appreciate your serious consideration of 
that provision.
    [The statement follows:]

               Prepared Statement of Daniel P. Mulhollan

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to appear before you today to present the fiscal year 2007 
budget request for the Congressional Research Service (CRS). With 
regard to our fiscal year 2006 request, I would like to express my 
gratitude for the Committee's support. Despite the challenging fiscal 
environment, Congress found a way to provide some additional assistance 
in meeting the Service's mandatory pay and price-level adjustments, 
research materials, and staffing gap.

                    FISCAL YEAR 2007 BUDGET REQUEST

    The CRS fiscal year 2007 budget request is $104,279,000, consisting 
of the fiscal year 2006 base plus an adjustment for mandatory pay 
increases for CRS staff, as well as the needed price level adjustment 
for the goods and services we acquire in the course of doing our work.

                            RESEARCH AGENDA

    This past year Congress has functioned under enormous pressures. In 
addition to existing domestic and international issues, lawmakers faced 
many unanticipated policy concerns that drew on already strained 
resources, such as hurricane-related disasters, Supreme Court 
nominations, and control of mandatory spending through the budget-
reconciliation process. Pressing issues such as these have required 
your full attention, and the Service has been at your side during these 
demanding times, providing expert research and analysis, grounded in 
institutional memory, tailored to specific needs, and made immediately 
available.
    The character of the support we offered to the Congress this past 
year reflects the continuing and unbroken history of CRS' singular 
mission. We remain steadfast in supplying every committee and Member 
with analysis and evaluation of legislative proposals by identifying 
all components of the policy issues, estimating the probable results, 
and evaluating alternative options.
    CRS has a research management framework that is structured to align 
with the policymaking needs of the Congress. Service-wide research 
planning makes possible a systematic and coordinated approach that 
affords important opportunities for interdisciplinary collaboration 
among experts across the Service. At the beginning of each 
congressional session, the Service's leadership and experts work 
alongside committees and Members, anticipating and identifying the 
major domestic and international policy issues to produce a research 
agenda. We continually reassess that agenda to address unanticipated 
circumstances. CRS' ability to respond to unexpected need for its 
services, while maintaining support for continuing domestic and 
international issues, highlights the depth and breadth of its services.
    Before Hurricane Katrina even made landfall, we had compiled a list 
of CRS experts and identified the Service's relevant products, making 
them immediately available on our website. We contacted Members in the 
affected states and alerted them to available CRS support and services. 
We then assembled teams from relevant disciplines and policy areas to 
address Congress' concerns about hurricane victims' access to 
assistance; command and control in emergency management; federal 
financing of unprecedented, extended assistance in the form of food, 
shelter, health services, and general income support; challenges to 
rebuilding; and reestablishment of the social and economic stability of 
the region. CRS experts assessed pre- and post-hurricane conditions 
relevant to policy concerns, critiqued the focus and effectiveness of 
existing laws and programs, and evaluated policy proposals to bring 
relief to the area. Through briefings and consultations, in more than 
one hundred research products, and via specially designed sections of 
the CRS website, the Service provided the Congress with support during 
this major national disaster, which Congress addressed in more than one 
hundred hearings.
    Other unanticipated legislative issues required slightly different 
approaches. For example, the Senate was called on for the first time in 
eleven years to carry out its advice and consent responsibilities in 
the Supreme Court confirmation process. However, more than one-half of 
the Senators and many congressional staff holding key positions in the 
process had no direct experience with such appointments. To support 
them, CRS provided legal expertise, research and analysis, and the 
insight resulting from institutional memory, acquired though several 
decades of support for Supreme Court and other judicial nominations. 
Through in-person briefings, reports, seminars and confidential 
memoranda, CRS informed Congress about committee and floor rules and 
procedures, the constitutionality of filibusters in relation to 
judicial nominations, status and prospects for the evolution of areas 
of law, and a history of congressional experiences with previous 
Supreme Court nominations. Additionally, aided by the digital scanning 
operations and the unique collections of the Library of Congress, CRS 
provided searchable online access to congressional documentation, 
including hearings, floor debates, floor statements, and votes, for 
eighteen successful and unsuccessful Supreme Court nominations. Most of 
this documentation, nearly 100,000 pages, had not previously been 
available digitally.
    In April 2005, Congress adopted a budget resolution for fiscal year 
2006 that included instructions to sixteen House and Senate authorizing 
committees. The instructions called for reductions in mandatory outlays 
over several years and for tax reductions and increased limit on public 
debt. To assist these committees and the Congress as a whole, CRS 
prepared explanations of budget process, procedures, and practices, 
some of which Congress had not exercised for eight years. Thirty-eight 
percent of the House Members and one-third of the Senate were not in 
their current roles in 1997, which was the last time Congress employed 
reconciliation to control spending. CRS briefed many Members and 
committees on these procedures. CRS also assisted in assessing the 
overall financial and policy implications of budget reconciliation 
measures, ranging from the specific options and their implications for 
trimming mandatory spending to the possible impacts on various programs 
subject to proposed changes.

                         MANAGEMENT INITIATIVES

    CRS adapts in other areas to uphold our commitment to Congress. 
Consistent with my responsibility to lead an accountable and cost-
effective organization and in response to congressional directives, CRS 
not only re-assesses its direct services to the Congress, it also 
continually examines the internal operations supporting that service. 
As Congress has indicated, new technologies can lead to greater 
efficiency, and CRS has completed a long-term study of the impact of 
information technology on our work processes. The resulting analysis 
indicated that CRS, through workforce re-engineering of some support 
functions, could reduce the number of support staff needed Service-wide 
and devote more of the resources to the our analytic capacity without 
any loss in productivity.
    In 2005 CRS completed an examination of our production support, 
technical support, and audio-visual functions, those support functions 
most dramatically impacted by technological advancements. After 
extensive consultation we reached the decision to eliminate the 
outdated functions. The decision affected 59 staff, which is about 8.4 
percent of the total CRS workforce. To assist these individuals, many 
of whom are long-term CRS employees, the Service announced the decision 
one year in advance, offered a voluntary early retirement option and a 
congressionally approved separation incentive, and provided continuing 
retirement and career counseling to the affected staff. This type of 
workforce self-examination is not new to CRS. As a result of similar 
assessments, CRS has eliminated or curtailed other functional 
activities over the years. Earlier situations also required CRS to 
eliminate positions, but in the past CRS was able to achieve the down-
sizing through attrition. Given the fiscal year 2006 constraints, which 
require CRS to reduce its staff size by almost 30 full-time 
equivalents, it is not practical for CRS to retain indefinitely these 
employees, whose functions are not critical to the accomplishment of 
the Service's mission. It is our hope that the affected staff will 
either retire or find alternative employment before the functions are 
eliminated on September 30, 2006. If that does not occur, we will 
institute a reduction-in-force (RIF) in accordance with governing 
Library regulations and our collective bargaining agreement.
    The Library of Congress is requesting the Committee consider an 
administrative provision that would grant Library of Congress 
employees, including those in CRS, who receive a RIF notice eligibility 
into a pool for displaced employees from all federal agencies for 
consideration for positions in executive branch agencies. This 
provision would place Library of Congress employees behind any affected 
employees in an agency undergoing a RIF in selection priority but ahead 
of applicants who have no federal service. Adopting this provision 
would give the Library's small pool of dedicated legislative branch 
public servants a broader potential employment base and could give 
employees the opportunity to enhance their civil-service careers beyond 
the Library of Congress.
    Building on our current performance management system, and in 
response to Congress' request that legislative branch agencies consider 
the performance model set forth in the Government Performance and 
Results Act, CRS developed an enhanced system for assessing performance 
and reporting results to the Congress. The plan and reporting system, 
which are built around our singularly focused mission, use the key 
attributes of relevance, quality, accessibility, and management 
initiatives as concrete frames of reference for establishing 
performance goals. The plan groups performance goals into two distinct 
sets: one focused on research and the other on management. The 
management goals are essential to sustaining and improving agency 
efficiency in resource usage.
    Congress has stated that it expects the legislative branch agencies 
to find opportunities to realize savings through outsourcing certain 
activities and functions. The Service has permanently outsourced 
several business functions that are now being performed successfully by 
contractors. These business functions include a centralized copy 
center, the CRS technology Help Desk, technology user-support services, 
mail and courier services, and receptionist and library technician 
positions. We have just awarded a new contract for the mail and courier 
services, which includes a revamped performance structure that resulted 
in the reduction of one contractor staff position and two mail clerk 
positions. We are currently expanding our technology Help Desk contract 
operation to provide extended hours of coverage to CRS staff, higher 
quality services, and a more sophisticated range of services. The 
Service is also expanding its contract support for graphics and product 
preparation. We are continually reviewing all of these operations to 
ensure the Service's business needs are being met in a manner that 
provides the best value and efficacy possible.
    In the same spirit of achieving savings to focus our resources on 
supplying Congress with needed research and analysis, we are curtailing 
non-mission-critical activities, except as explicitly directed by the 
Congress. The Service has been working with its oversight committees to 
explore alternative approaches to translation services and to the 
indexing of congressional publications produced by CRS. In response to 
requests for translations, the Service is seeking to provide referral 
to outside service providers that have been certified by CRS as 
providing reliable and timely responses. Like translation services, the 
indexing function is largely outside the mission of the Service, and we 
are consulting with our oversight committees and the Joint Committee on 
Printing to work out a mutually acceptable arrangement with the 
Government Printing Office to assist the Congress with such services.
    However, CRS remains responsive to all congressional needs, even 
non-mission critical ones, when Congress specifically directs us. For 
example, Congress requested CRS provide assistance to the House 
Democracy Assistance Commission and the House International Relations 
Committee on parliamentary development programs in new democracies. CRS 
country experts are assisting the Commission in its selection of 
candidate countries. Our country and parliamentary assistance experts 
have been detailed to the House International Relations Committee to 
travel with Commission staff for needs assessment visits to candidate 
countries. The Service has also been asked to provide assistance to the 
Georgian, Indonesian, and other parliaments in developing their 
research services. Further requests for CRS assistance are likely to 
depend on the findings from future needs assessment visits. All travel 
is funded through the House Committee, but we continue to pay staff 
salaries. CRS leadership is carefully assessing this support to ensure 
that the capabilities of our staff remain available to meet other 
congressional demands.

                               CONCLUSION

    CRS is responding directly to congressional instruction to submit 
reasonable budget requests and consider the overall fiscal constraints 
placed on the entire federal budget, to streamline by outsourcing, to 
leverage existing technology to enhance operational efficiency, and to 
look within for ways to complete our mission. The Service is responding 
to a federal fiscal environment that dictates the size of this 
organization be about 705 full-time equivalents. Cognizant of current 
fiscal realities and heeding congressional direction, the CRS budget 
request for fiscal year 2007 does not seek additional funds to support 
program growth. The Service seeks your support for the mandatory pay 
increases for CRS staff and price-level adjustments for goods and 
services.
    CRS intends to complete the re-engineering of its administrative 
and support staff and will assess the actual impact of these actions, 
from both fiscal and functional perspectives, against the expected 
results. The Service will likely study other business functions to see 
if additional streamlining can be achieved and intends to continue its 
practice of reviewing all major contracts and business operations bi-
annually to ensure that the Service's fiscal resources are being used 
in the most cost-effective and relevant manner possible. The results of 
these studies and re-engineering efforts are expected to provide 
meaningful business information that will guide the Service's decision-
making and frame future management initiatives.
    While the Service has remained steadfast to its mission and devoted 
to providing quality services to the Congress, CRS cannot afford to be 
static. An organization serving the Congress that is unable to change 
quickly, alter itself to increase efficiency, or adapt to new 
requirements is an organization bound to fail. CRS is mindful of this 
reality and has continually sought out and acted on pragmatic 
approaches that lead to improvements to better fulfill its mission.
    Despite the many changes in Congress and within CRS, the Service of 
today is identical to the Service of 1914 in one way: our dedication to 
our mission to provide balanced, nonpartisan, authoritative expertise 
to the Congress, on time, on target and in forms useful to lawmakers. 
We will never change the course of our direction.

           CONGRESSIONAL RESEARCH SERVICE REALIGNMENT SAVINGS

    Senator Allard. So there is approximately $4.4 million in 
savings, and how is that reflected in the Library's 2007 budget 
request?
    Mr. Mulhollan. You mean the 59 affected staff? Well, to 
give you an example----
    Senator Allard. The savings from that, yes.
    Mr. Mulhollan. Yes, but part of that savings, I think it 
cost roughly $600,000 to be able to provide a $25,000 
separation incentive to each person. We used the balance of 
those salaries for the remainder of that fiscal year to provide 
the separation incentives, as an example. Because we had an 
overall $3.6 million--excuse me--$3.1 million shortfall, if you 
recall, last fiscal year and the committee gave us $1 million 
of our $3.1 million request to keep us at 729 FTEs. So we have 
requested a permanent reduction to 705, because we do not have 
enough money in our base in order to sustain the service at the 
729.
    As a consequence of this, you recall I mentioned that we 
were focusing our resources to maintain our analytical 
capacity. We are going to end up with a smaller workforce 
configuration--maintaining the number of analysts needed to do 
the research and analytic work for the Congress, but fewer 
overall support staff.

         CONSULTATION WITH CONGRESSIONAL RESEARCH SERVICE STAFF

    Senator Allard. In your testimony you state that extensive 
consultation took place before you decided to eliminate 
production support, computer technical support, and audio-
visual functions. With whom did you consult?
    Mr. Mulhollan. The individual who did the studies spoke to 
every one of the affected staff in the examination of their 
positions.
    Senator Allard. So the CRS staff was consulted?
    Mr. Mulhollan. They were interviewed with regard to what 
they were actually doing and what the functions described in 
their position descriptions were.
    Senator Allard. This was done before you made your 
decision, I assume?
    Mr. Mulhollan. That is correct. They all were able to say, 
``this is what I do.''
    Senator Allard. Okay. Now, there are 31, as you mentioned, 
that still have not landed, so to speak, and could be subject 
to that reduction in force. What action specifically are you 
taking to work with the rest of the Library to find positions 
for those 31 staff?

                    OPTIONS FOR DISPLACED EMPLOYEES

    Mr. Mulhollan. Well, first we are continuing to provide 
career counseling and career transition support--how to write a 
resume, classes on how to apply for a job in the civil service. 
That is ongoing and available to each one of those 31 affected 
staff.
    In addition, we are working closely with the Library of 
Congress and the head of the Library's human resources 
services. The Library has a great track record, from prior 
reduction-in-force events, of being able to find positions for 
those individuals. There is a commitment across the senior 
management of the Library, for which I am quite grateful, to do 
whatever possible to try to ensure that in fact there may be 
positions. While there are no guarantees, we are going to do 
everything possible to place any remaining staff.
    That is why that approval of our proposed administrative 
provisions would be helpful for us in the future.

                         RETIREMENT INCENTIVES

    Senator Allard. This is for Dr. Billington. In January 
about 186 employees took advantage of an early retirement and 
buyout incentive offered Library-wide, including the CRS staff 
we were talking about. Can you explain why the buyout was 
offered, what job functions were eliminated, and how much 
funding was freed as a result of the buyout, and how you are 
redirecting those funds?
    Dr. Billington. I did not understand the last two points 
you made.
    Senator Allard. Well, let's see. Explain why the buyout was 
offered and then what job functions were eliminated, and then 
how much funding was freed up as a result of the buyout. Why do 
we not just take them one at a time. Why did you offer the 
buyout?
    Dr. Billington. Well, I think we will provide, with your 
agreement, the statistics for the record. I can answer the 
question in general and then we will give you the detailed 
statistics.

                        WORKFORCE TRANSFORMATION

    First of all, we have a very large number of people who are 
eligible to retire. It is an aging workforce. This is the 
beginning of a general workforce transformation process and we 
wanted to give a significant buyout opportunity, which quite a 
number of people took.
    On the day our employees were leaving, I met with many of 
them, and they said they appreciated the buyout.
    It is part of the workforce transformation we are 
undergoing into the digital era. The buyout was a way of 
offering an opportunity to leave, which a great many people 
took.
    I might point out that in the current budget submission the 
$781,000 is to assist the workforce transformation. We want to 
develop some newly defined digital competencies. We want to 
build leadership skills for people from the GS-5 to GS-9 
category. We want to do everything we can to retrain as many 
staff members as possible and expand the range of 
opportunities.
    This is a direction in which we are trying to move as 
rapidly as we can. We have to also recruit new people from the 
outside, but we really genuinely want to give as much 
opportunity for other jobs in the Library. The Library as a 
whole is facing a need to transform itself and there cannot be 
any guarantees, but I want to assure you that the Library as a 
whole will make every effort to make available alternate 
opportunities for people whose present functions are becoming 
obsolete. We have brought on as the head of training somebody 
who has had experience with one of the more successful programs 
in the Federal Government and we have been beefing up that 
staff.
    We are very concerned about this problem in human terms, 
but at the same time we simply have to move ahead with this 
kind of transformation if the Library is going to continue to 
serve the Congress and the Nation properly.
    We will provide you statistics and details for the record.
    [The information follows:]

    During fiscal year 2006, the Library requested approval 
from Congress to offer separation incentives and from the 
Office of Personnel Management (OPM) to offer early 
retirements. Consistent with the legislation governing these 
incentives and early retirements, the Library indicated that it 
needed to reshape and renew its workforce to match the highly-
specialized skill sets that are replacing outmoded ways of 
filling its mission. Both Congress and OPM approved these 
requests. It should be noted that the Chief Human Capital 
Officers Act of 2002 (title 13 of the Homeland Security Act of 
2002, Public Law 107-296), contained an explicit sense of 
Congress that the legislation's intent was to reshape and not 
downsize the Federal workforce. Since, 2002, executive branch 
agencies have used these authorities to meet the changing needs 
of the 21st century. In fiscal year 2005, Congress granted the 
legislative branch authority comparable to that of the 
executive branch. Thus the Library's implementation plan is 
consistent with the purpose of the Act; to reshape--not 
downsize its workforce.
    The Library's fiscal year 2006 separation incentive 
programs addressed specific, critical workforce requirements in 
the Congressional Research Service (CRS), Library Services 
(LS), and Integrated Support Services (ISS). In the case of 
CRS, advances in technology, its deployment in the Service, and 
the technical skill level of incoming analytical staff rendered 
obsolete the services provided by its production support staff, 
technical support assistants, and audio-visual staff. In 
addition, CRS required information professionals who could meet 
the redefined work, competencies, and skills sets of the 
Knowledge Services Group, created to better use the skills of 
librarians and other information professionals to serve the 
needs of Congress. Library Services needed to re-engineer its 
functions, redesign jobs, retrain current staff, and recruit 
new staff to meet the Library's digital requirements. For 
example, in the acquisitions and cataloging areas, staff will 
be required to manage digital assets that have distinctive 
retrieval and preservation requirements--more complicated than 
the traditional handling of printed books and journals. With 
more than 3 billion ``hits'' on the Web site annually, 
questions once asked in person are now coming from individuals 
we will never see in person. As a result, reference assistance 
and more collection curation must be performed online, changing 
the profile of and skills needed from a reference staff. 
Technological changes have also required new skill sets on the 
part of ISS staff. For example, printing is now created with 
sophisticated computerized tools and electronically transmitted 
with customer-driven requirements that generate high-impact 
graphics and images unimagined only a few years ago. Similarly, 
facility operations staff must have technical expertise to 
monitor buildings adequately and effectively with the 
sophisticated and integrated systems required by today's high 
technology workforce.
    Approximately $16 million supported the salaries and 
benefits of the 186 employees participating in the early out 
and buyout programs. Redirection of this funding will enable 
the Library to hire new staff more quickly rather than waiting 
for current staff to retire at some unknown point in the 
future, increase contract support capacity--in areas where 
flexibility in staff support is needed as business plans evolve 
and are implemented, and invest in new equipment needed to 
support our innovative programs. This funding, combined with 
the $781,000 requested for workforce transformation, will 
ensure that the Library has the tools--that include not only 
separation incentives and early retirements, but also staff 
training, mentoring, career planning and counseling and digital 
competency skills development, needed to implement an 
integrated workforce renewal plan. The success of this plan is 
highly dependent on the resources available to carry out each 
part of the plan. If funding and FTEs are stripped away, the 
Library will be in a worse position than had we waited for 
employees to retire--a time line that was already impeding the 
Library's digital transition and transformation.

                         IMPACT OF RETIREMENTS

    Senator Allard. The detail of these questions that we are 
asking is to provide us a thorough and complete answer. So the 
rest of the question on what job functions were eliminated and 
how much funding was freed up as a result of the buyout and how 
you are redirecting those funds, we would like to have a 
detailed answer on that. If you do not have that information in 
front of you now, we will give you a chance to give us a 
written response.
    Dr. Billington. Yes, sir.
    Did you want to add anything?
    General Scott. No, I think that is the most appropriate way 
to handle it.
    Senator Allard. Is that fine, General Scott?
    General Scott. Yes, sir.

                    COPYRIGHT REENGINEERING PROGRAM

    Senator Allard. Let me move on to the copyright 
reengineering. Now, that office has been engaged in a 6-year 
effort to overhaul its work processes, a project which involves 
major space renovation. The subcommittee provided over $9 
million in the fiscal year 2006 budget for temporary office 
space and renovation of the existing space in the Madison 
Building. The effort now is 6 months behind, I am told.
    Why has it been delayed and what is the impact on cost and 
is the project now on track for completion in 2007?
    Dr. Billington. It is on track now. The delay was caused 
because of the difficulty the General Services Administration 
(GSA) had in finding a place that could house the Copyright 
Office for only 1 year instead of the conventional longer term 
lease, while the final stages of the reengineering were taking 
place. There were three different changes of locations 
resulting in changes to design specifications and so forth. 
There was a delay, but it is on track now and we are expecting 
that in July of this year, they will move out to another 
location in Crystal City and in July of the following year, 
they will be back in their full reengineered mode.
    Meanwhile, the pilots and electronic registration are on 
track, if you want details, we have Julia Huff--the Register is 
unfortunately not available to be here today, but Julia Huff 
from the Copyright Office can answer this.

                      REENGINEERING PROJECT DELAYS

    Senator Allard. In your efforts in working with the 
Architect of the Capitol and GSA, what could prevent the type 
of problems you have encountered in future projects of this 
kind?
    Dr. Billington. Well, General Scott, do you want to address 
that?
    General Scott. I have got some general ideas, but I think 
it would be best if we could hear from Julia, who has really 
been intimately involved in trying to re-schedule and keep 
things on track that mostly were way beyond the Library's 
control. Is Julia here?
    Ms. Huff. Yes.
    Senator Allard. Julia, do you want to give the lessons 
learned?
    Ms. Huff. Yes, Mr. Chairman, I will. One thing that might 
have helped--we started working with GSA in early 2004, and we 
probably would have benefited from having our own project 
manager onboard at that time, and we did not add that project 
manager until 2005. He, along with the facilities team, has 
really kept on top of GSA and tried to move them along.
    The lesson we have learned from GSA is that they have a 
very structured, layered organization and it just takes more 
time than we anticipated to get paperwork approvals, 
negotiations, and the like moved through all required steps.
    Senator Allard. In short, they are bureaucratic?
    Ms. Huff. Yes, you might say that.
    Senator Allard. Okay.
    Ms. Huff. They did not really respond immediately to our 
request for leased space. When they did, the space was too 
small, and then they switched buildings on us twice in Crystal 
City. All of this caused delays in the design. We had to do 
redesigns of the architectural work, for electrical work, for 
voice and data. We incurred more costs and delays because of 
these changes.
    So yes, we are behind and it is because of the facilities 
piece. We might have started in 2003, but 2 years seemed like 
plenty of lead time when we first began.

       NATIONAL AUDIO-VISUAL CONSERVATION CENTER--CULPEPER STATUS

    Senator Allard. Very good.
    On the National Audio-Visual Conservation Center. The 
Library will be taking possession of this new National Audio-
Visual Conservation Center in early 2007. I really appreciate 
the opportunity to go out and tour that center, and I think we 
are all very appreciative of the Packard Foundation and all 
they have done as far as providing citizens of this country a 
very good facility.
    I would just like to have an update on what the status is 
of this privately funded construction project, and then once it 
is operational do we have any idea what the annual operations 
and maintenance costs might be for that? I want to make sure we 
are making allowances for that in future budgets.
    Dr. Billington. We can try to give you a precise estimate.
    [The information follows:]

    The Library's five-year request to Congress to acquire the 
new equipment and staff resources necessary to operate the 
NAVCC concludes in fiscal year 2008. Full initial operations 
will begin in fiscal year 2009, and ongoing annual costs 
beginning that year will be approximately $23.4 million for the 
Library. This estimate does not include the AOC's operating and 
maintenance costs for this facility. This estimate includes 
$11.4 million for salaries and benefits of the 139 Motion 
Picture, Broadcasting and Recorded Sound (MBRS) employees, 127 
of which will be located at the Culpeper facility, $7 million 
for preservation digitization, $3.5 million for storage, and 
$1.5 million for infrastructure support. The operating 
capacities reflected in these costs were established based on 
our urgent need to preserve at-risk national heritage 
collections dating back nearly 120 years, as well as the need 
to begin ingesting significant new born-digital works. 
Fortunately, the proven technologies to achieve this have 
recently become available, and the Packard Humanities 
Institute's gift of the state-of-the-art NAVCC facility will 
allow the Library to take advantage of these technologies for 
the first time.

    Dr. Billington. We were actually applying for less money 
for this because there was significant reduction in FTEs from 
last year, because a lot of that was for the transition period, 
where we had to install things in sequence and that required a 
little bit of a buildup in the last couple of years.
    We can give you an estimate of how it looks. The current 
situation is that in November they turned over the ownership of 
the central plant to the Architect of the Capitol. This is a 
complex operation because the work is basically being done by 
the Packard Humanities Institute, but we are putting in the 
infrastructure. In December they turned over the ownership of 
the collections building to the AOC for occupancy by the 
Library and we have already begun moving staff and 
collections--we have six collection maintenance employees now 
out there working, and the first collection items just this 
past month were moved from Capitol Hill. The remaining 
collections will be staged for relocation from many different 
storage locations to be centralized into one location 
throughout this calendar year.
    Construction continues on the conservation building and the 
nitrate vaults. The conservation building is where most of the 
staff will be moved. We will be saving $500,000 of annual lease 
costs, starting in 2008 as a result of the collections being 
moved to Culpeper.

    NATIONAL AUDIO-VISUAL CONSERVATION CENTER--PACKARD CONTRIBUTION

    Mr. Chairman, I cannot say exactly what the cost 
contribution from the Packard Humanities Institute will be, but 
it looks like it will be the largest single private capital 
contribution to a Government building in history. We have to 
confirm that. It would not be if you multiplied by inflationary 
factors. But it is a very, very major contribution.
    We think that the base will probably not be very different 
from what it is once we get over this bump. I will try to give 
you as precise estimates as we can of what is anticipated. It 
is going to be really quite an amazing facility. One thing that 
is particularly interesting and important about this for the 
long-range cost is that the capacity is so great out there that 
we should be able to accommodate for many, many years to come, 
even decades to come, the anticipated storage need. It is also 
the first facility that will have digital storage capability, 
so this is very, very important. It will reflect the standards 
that Congress asked the Library to establish some years back 
for audio-visual conservation. It will be the largest and the 
most up to date facility of its kind anywhere.
    By this time next year it ought to be functioning, when it 
is finally conveyed from the Packard Humanities Institute 
through the Architect of the Capitol to the Library for its 
usage.

                        PERFORMANCE MEASUREMENT

    Senator Allard. I want to press you a little bit on the 
Government Performance and Results Act. I would like to have 
you present this subcommittee with a few examples of how the 
Library measures its program performance and makes budget 
decisions based on program effectiveness.
    I want something specific. So if you can answer that 
question for us if you are prepared to. I suspect you may not 
be, and you could present us a written presentation about some 
specific programs where you are applying it and making 
administrative decisions based on what you are seeing on the 
performance objectives.
    [The information follows:]

    Since 1997, the Library has used the GPRA model as a guide in 
developing and implementing its strategic plans and annual operating 
plans and performance reports. Library programs have made significant 
progress in developing goals and objectives that focus on measurable 
outcomes rather than outputs. Consistent with GPRA requirements, the 
Library is once again reviewing and revising its strategic plan which 
will include major changes to its goals, performance measures and 
targets, and assessment systems.
    As part of the Library's annual budget process, each office reviews 
their base resources to determine if additional investments are needed 
to support the Library's goals and objectives. Over the past few years, 
this review has become increasingly important, as the transition to the 
digital age has required ongoing reengineering of our work processes. 
Based on congressional direction and cognizant of Federal budget 
realities, the Library took a hard look within and across organizations 
in determining its resource requirements for fiscal year 2007. As a 
result, our fiscal year 2007 budget request reflects only a 4 percent 
increase over fiscal year 2006, and a net decrease in FTEs--reflecting 
mostly mandatory pay and price level increases. Despite these limits on 
our budget request, the Library will continue to maintain relevance in 
the digital age with enhanced strategic planning and workforce 
transformation.
    Some examples of how Library program offices applied GPRA 
principles in administrative and budget decisions include the 
following:

Copyright Office
    As a standard practice, the Copyright Office monitors productivity 
and staffing levels and adjusts hiring and overtime decisions based on 
trends in receipts, productivity, processing time and amounts of work 
in process. Based on these reviews, the Copyright Office has taken 
actions such as cross-training staff to perform work in areas needing 
assistance, focused overtime in areas where processing time was longer, 
prioritized hiring for areas that were lagging in production. These 
decisions were factors in a more than 50 percent reduction in average 
processing time for registrations since 2001.
    The Copyright Reengineering Project is a multi-year effort to 
improve Copyright's business processes based on an analysis of its 
current services to the public. With the reengineering study 
recommendations, the Copyright Office developed a multi-year planning 
and budgeting strategy to reconfigure its current facilities, build a 
new IT system, and reorganize its staff within the new business 
processes. After the implementation of the reengineered processes and 
based on processing times, productivity rates and customer satisfaction 
findings, the Copyright Office will determine whether to reduce 
staffing in areas identified as overstaffed, reallocate and reassign 
staff based on workload across all areas and/or modify functions. One 
or all of these actions may result in changes in future budget 
requests.
    The Copyright Office planned for a significant reduction in renewal 
fee receipts in fiscal year 2006 and beyond. The number of renewals has 
decreased over the past several years based on statutory changes that 
made renewal registration voluntary. As a result, the Copyright Office 
has requested a permanent decrease in its offsetting collections 
authority and a reduction of five FTEs in fiscal year 2007. The 
Copyright Office also determines its fees using activity-based costing 
methodologies to review costs of providing services while giving due 
consideration to the purposes of the copyright system and the statutory 
requirement that the fees be fair and equitable. As a result of this 
review, the Copyright Office submitted a new fee proposal to Congress 
on March 1, 2006.

Congressional Research Service
    In early January-May 2005, CRS undertook three comprehensive 
studies of support areas: Production and Administrative Support, 
Technical Support Assistants, and Audio-Visual Support. The objectives 
of the studies were to identify the services and tasks currently 
performed by these support groups, determine the extent to which the 
services and tasks met the broader CRS staff support needs, identify 
any unmet support needs, and determine the most efficient and effective 
ways to satisfy all support needs in the aforementioned areas vis-a-vis 
the Service's investments in technology. For the past few years, these 
support functions were carried out by approximately 59 staff, at an 
fiscal year 2006 estimated cost of $4.4 million.
    To accomplish these objectives, CRS reviewed the position 
descriptions for staff working in the support areas and, to ensure 
consistency, developed structured questions to collect needed data from 
a range of staff and using several methodologies. CRS conducted 
numerous interviews with mid- and senior-level managers, support staff 
in all three areas, and other staff who utilized the support services. 
Based on the data collected via document reviews, meetings, 
consultations, and interviews, CRS compiled comprehensive lists of the 
support services and tasks performed in each support area. Afterwards, 
study participants (i.e. managers, support staff, and users of the 
support services) were given copies of the lists and asked to verify 
the extent and frequency which the support staff performed the 
identified services/tasks.
    The analysis supporting these studies led the Service's leadership 
to recognize that the services and tasks provided by the 59 positions 
had been overtaken by advances in technology (desktop tools and 
operating environment) and were no longer needed. The analysis 
demonstrated that new and different services and tasks were needed; 
therefore leading to a workforce re-engineering of the administrative 
staff. CRS has announced its intention to abolish the 59 outdated 
positions, effective September 30, 2006. The Service has also developed 
a cadre of fewer and new positions that will provide administrative 
support.
    The Service's current budget can afford approximately 705 FTEs; 
however with the 2006 one percent rescission and the prospect of a 
similar action in 2007, CRS may need to adjust its FTE estimated 
ceiling down again. Retaining the 59 staff indefinitely would have 
adversely impacted the Service's ability to sustain an analytic 
capacity of between 335 and 350 staff while at the same time adjusting 
its total workforce to the 705 ceiling. The long-term results of the 
CRS workforce re-engineering will be to free up FTEs and funding which 
can be redirected to maintain the needed level of analytic capacity for 
the Congress.
    For several years, CRS has maintained a business activity that 
provides courier delivery and pick-up services directly to and from all 
Congressional member offices, Congressional committee offices, the 
Capitol and CRS Research Centers as well as intra-Service mail pick-up 
and delivery. The operation has been staffed with a combination of 
contractor personnel and CRS staff--and at the time of the review 
(early- to mid-2005), the operation was staffed with 11.5 contractor 
personnel (including an on-site supervisor) at an annual cost of 
$432,000 and three CRS mail clerks at an annual cost of $131,500, for a 
total cost for this business activity of $563,500. The contract was at 
the end of its five-year life; and, as a result, CRS took advantage of 
an opportunity to analyze fully the current workload statistics data as 
a means of updating the contract to better reflect the new ways in 
which CRS communicates with and provides information to the Congress--
increasingly via electronic means.
    CRS staff gathered, assimilated and analyzed historical financial 
cost information on each element of the work performed under this 
contract. They conducted extensive interviews with an on-site 
supervisor, particularly regarding tasks performed, methods employed, 
and operating procedures; staff toured the facilities, witnessed 
operations, conducted survey-level time and motion studies, spoke with 
the couriers, and discussed problems encountered and solutions 
developed; staff interviewed the CRS Contracting Officer's Technical 
Representative (COTR) regarding services performed under the contract, 
the history of the contractual services, and the performance of the 
contractor as well as performance standards prior to outsourcing; staff 
gathered, assimilated, and analyzed month-by-month statistical data, 
from 1999 through 2005 including: delivery of packages and books to 
Congressional offices (CRS provides this service the entire Library of 
Congress), pick-up of packages and books from Congressional offices, 
sorting and bundling of non-rush Congressional mail and delivery to 
House and Senate Post Offices, preparation of mail for Congressional 
district offices, and sorting of CRS mail.
    The study concluded that the activity continues to provide a vital 
service which supports the core mission of CRS--basic to meeting the 
needs and fulfilling the requests of Congress and Congressional staff 
for information. Customer surveys, from both Congressional and CRS 
staff, reflected a high satisfaction level with both the service and 
the performance of the contractor. However, the workload statistics 
data confirmed that the number of items exchanged via the courier 
service had been, and continues to decline each year. The analysis 
revealed that the services could likely be performed by one, and 
possibly two, less personnel.
    The study results provided CRS staff with substantive data that 
produced a re-negotiated contract with ten contractor personnel and one 
CRS staff--a total annual cost reduction of $84,000 which has been 
redirected back into the Service's overall budget.
    CRS has for many years maintained a contractor-operated technology 
help desk. The contract covered four highly skilled personnel to 
provide immediate desktop services to CRS staff. While there was no 
debate about the on-going need for desktop services given CRS's 
reliance on technology tools, this contract was at the end of its five-
year life and warranted a thorough review in order to redefine the 
scope of work and level of expertise needed to match the technology 
environment of 2006 and beyond. This study was conducted at about the 
same time as the functional review of approximately 18 Technical 
Support Assistants.
    The review began with an examination of the contract documentation, 
contractor workload statistics, monthly billings over the life of the 
contract, interviews with CRS program personnel, principally the COTR, 
to gather data on such questions as the services provided under the 
contract, the need for the activity, the definition of successful 
service delivery, methods and factors used to evaluate the contractor's 
performance. The financial data and contractor workload statistics were 
analyzed. The review included an assessment of contractor levels, 
current workload and the real cost of the activity, including the CRS 
management overhead, contractor management fees, and the cost of CRS 
staff with greater technical expertise at the GS-14 level who handle 
escalated service calls which are outside the scope of the help desk 
contract. Based on the review of documentation, interview data, and 
financial information, alternative methods of performing the activity 
were developed and a cost and benefits alternatives analysis was 
prepared.
    On the surface, the viable alternatives costed out within $50,000 
per year of each other; however, best business practices support that 
contracts typically provide the better short-term solution when the 
environment is changing. The Service's recent need for expanded help 
desk hours of coverage to better match the work hours of CRS analysts 
and information professionals (from 7:30 a.m. to 7:30 p.m.) is one 
example of needed flexibility. Another example is the need for expanded 
expertise to help integrate new software and operating systems into the 
Service's products, e.g., with sophisticated graphics and tables. The 
entire technology environment in CRS is undergoing a major 
transformation as the Service moves to a new authoring and publishing 
system. A contract will ensure that CRS has the flexibility to respond 
quickly to the specific work skills needed by the Service and to keep 
pace with continuing changes/advances in the field. This kind of 
flexibility could not be achieved with federal employees employed under 
specific job classifications, grade levels, or in a union environment, 
such as CRS, where ``changes in work conditions'' are generally 
bargainable. Even changes in work hours cannot be effected easily with 
CRS employees in the bargaining unit.
    The new help desk contract will be awarded within the next few 
months.

Library Services
    After analyzing its in-house costs for processing the same 
materials and seeking to reduce its costs, the Library contracted with 
its Italian book vendor to supply shelf-ready books. These books 
arrived at the Library fully cataloged, labeled and ready to be added 
to the collections for immediate use. As a result, three acquisitions 
staff were freed up to be reassigned to other critical processing 
tasks. The Library expects to use this model to expand to other book 
vendors for future contracts to continue to reduce its processing 
costs.
    Taking advantage of the functionality of the Web, the Library 
implemented a Web based exchange program to enhance its acquisition of 
materials through exchange. Stemming from a business process 
improvement project, the program improves the Library exchanges with 
its partners; reduces Library staff time needed to manage and execute 
the program; reduces space needed to store the duplicate material to be 
offered on exchange; and reduces the number of times items are 
physically handled. The Library's new Web program--which now has over 
740 participants--facilitates its ability to receive reciprocal items 
from the exchange partners to help build its collections at much 
reduced costs. In fiscal year 2005, the Library's acquisitions 
divisions received 148,696 pieces from its exchange partners.
    The Cataloging in Publication (CIP) Program was established in 1971 
to provide advance cataloging copy for publications most likely to be 
acquired by the Nation's libraries. Since the Program's inception, 
Library staff have produced catalog records for 1.3 million titles, 
saving public and research libraries the cost of creating these 
records. As an efficiency measure, the Program--which has over 5,000 
publishers that submit their prepublication data--has made the 
transition to electronic processing using the Web. The Electronic CIP 
Program (ECIP)--which now has over 3,600 publishers participating--has 
saved staff time (equal to three full time staff), has dramatically 
reduced throughput time for processing titles, and has overall reduced 
the per title cost of processing CIP titles. The Library saves annually 
$10,000 in postage as a result of not having to mail cataloging data in 
print form to the publishers. ECIP has enabled the Library to achieve 
additional savings by having other research libraries take on the 
cataloging of preprint publications--Cornell University and 
Northwestern University currently contribute annually approximately 200 
cataloged titles.
    The Library's bibliographic access divisions have analyzed the 
costs of producing a catalog record. The costs are driven by both the 
complexity of the cataloging rules and procedures and by the level of 
staff who create the records. To address the latter, the Library 
instituted a pilot in one of its divisions to have technicians use 
catalog records produced by other libraries as the basis for the 
Library of Congress record. Using lower level staff has yielded 
measurable gains. The division's production of copy cataloging 
increased by thirty percent between fiscal year 2004 and fiscal year 
2005 (from 9,725 titles to 12,670). Concomitant to the division's 
increase in copy cataloging output was a one-third decrease in the 
number of hours devoted to more expensive full, original cataloging 
between the two fiscal years (from 67,582 hours to 57,231). This model 
will serve in planning fuller scale use of technicians for processing 
functions commensurate with their level of expertise.
    The Library has worked with the library community to reduce the 
complexity and cost of producing catalog records. In collaboration with 
the library community, an analysis was done of the record content with 
a goal of removing elements that were not necessary to provide 
satisfactory service to users seeking information. The resulting 
record, ``a core level catalog record,'' reduces the cost for 
cataloging per item by as much as 43 percent. The Library has now 
adopted the core level record as its default catalog record. These 
records meet the needs of end user while meeting the needs of other 
libraries to provide access to their collections.
    In fiscal year 2005 Library Services contracted with an information 
services research firm to assist with a strategic assessment of the 
needs and expectations of the National Library's constituents. A 
nationwide survey is currently underway to gather data that will be 
used in the process of assessing the effectiveness of National Library 
programs. The results from this and other data-collection efforts will 
inform future Library Services administrative decisions.

                      RESULTS-BASED DECISIONMAKING

    General Scott. Yes, sir. We could answer the question now, 
but in the interest of time, I would----
    Senator Allard. We have time.
    General Scott. The way the Library implements its planning 
process is the Librarian each year issues guidance to each one 
of the program offices within the Library, and he gives his 
objectives and goals around which the other programs have to 
respond and then come up with theirs. The offices will come up 
with an annual plan, and that annual plan is based upon the 
measurable task, where possible. Now, all the tasks cannot be 
measured, but where they can be measured, offices list those 
tasks that will be accomplished.
    Then when the budget has been put together, those tasks and 
those goals become part of our operating plan that we submit to 
the Congress.
    In addition to coming up with the annual plan, we also have 
for the senior managers, a performance evaluation system that 
reflects what goals and objectives they have worked on and 
achieved during the past calendar year. Those objectives and 
goals are very specific and do tie back to the budget.
    Senator Allard. Can you give us some examples of where 
there was not adequate performance for one reason or another?
    General Scott. There was inadequate?
    Senator Allard. Where there was not adequate performance 
and because of inadequate performance maybe you reduced that 
function, perhaps shifted dollars to another area of the 
Library where there was better performance. Can you think of 
some examples like that in your budget?
    General Scott. I cannot off the top of my head give you an 
example of that.
    Senator Allard. That is what we are looking for. It is 
those kinds of administrative decisions that you may have been 
making in the Library of Congress, where they actually had an 
impact on how you managed the program. Maybe you took some 
money from it because you perceived the performance could have 
been better and should have been better and you had to 
reevaluate it. Perhaps you had another area over here where you 
saw a need, where they were meeting the goals and objectives, 
and maybe shifted a little.
    We are looking for some specific examples of applications. 
You are saying the right things, but we are just looking for 
areas you can point to where you actually used that to make 
administrative decisions.
    General Scott. Yes, sir, we understand and we will get you 
some examples.
    Senator Allard. If you feel like you need some help in 
outlining that the Government Accountability Office (GAO) does 
a good job on objectives and making some decisions on that. 
Maybe to consult with them might be helpful in tailoring what 
we are looking for as far as program guidance. Okay?
    General Scott. Yes, sir, we will do that.

                     DIGITAL TALKING BOOKS PROGRAM

    Senator Allard. On to the Books for the Blind and 
Physically Handicapped. You have been working on it for several 
years to develop what we call a digital talking book to replace 
the current cassette-type system, to make books available to 
the blind. Over the next several years, approximately $75 
million will be requested to produce the new machines.
    In fiscal year 2006 you plan to spend $12 million to 
purchase the old machines which will soon become obsolete. Why 
do we need to purchase any additional cassette machines in 2006 
when I am told there are over 700,000 cassette machines 
currently in circulation, inventory, or repair? Then maybe 
during this you might talk a little bit about the status of the 
new plan.
    Dr. Billington. I think we will ask Mr. Kurt Cylke, who is 
the Director of that program, up. But I just want to say that 
we have to maintain the service and we have to maintain the 
inventory during the transition. We are on the schedule that 
has been long established by Mr. Cylke and by the service, but 
we cannot have a drop in the current analog service until the 
digital program is operational. We are asking for a $19 million 
startup. That was what was always intended. That is not a 
change in the plan.
    We cannot have a drop-off in the service in the meantime. 
Mr. Cylke can elaborate.

                      CASSETTE MACHINE REPLACEMENT

    Senator Allard. Do we have cassette recorders over here 
that could be repaired, that we could put in without having to 
buy new ones during this transition period?
    Mr. Cylke. We have, Mr. Chairman. We have approximately 
740,000 cassette machines in the field. Many of them--most of 
them, of course, are in use by individuals. There are a certain 
number of inventory and then there are a certain number being 
repaired.
    Let me get to your original question of why we are buying 
machines in 2006. Working very closely with the Inspector 
General, we had a study performed that projected out the needs 
for the cassette machine until we can get into the digital 
program. We have 23 million copies of books in libraries and 
warehouses around the United States. We have the 700,000 
machines using them and we are going into the digital age.
    As you heard from Dr. Billington, we are proposing to 
request $19.1 million a year for the next 4 years into the 
budget to permit us to buy those digital machines, and then 
withdraw the additional funds from the budget and go on. 
However we need cassette machines to keep the people who are in 
the program now able to use the millions of books and magazines 
that are available.
    Senator Allard. Would you agree with these figures: We have 
about 133,517 available for loan from the Library?
    Mr. Cylke. That is correct.
    Senator Allard. So that we have a total of 720,000----
    Mr. Cylke. Something close to that. That is correct. Yes.
    Senator Allard. Okay. And then an additional 42,000 
machines you are planning on buying in 2006?
    Mr. Cylke. That is correct. As a matter of fact, I believe 
the contract will be signed today or tomorrow. Again, what we 
did was make an in-depth study of the number of machines that 
we would require to keep the cassette program going until we 
can get into the digital program. This is our final buy of 
machines.
    This report was done by an outside contractor, reviewed by 
Mr. Schornagel, the Inspector General, and his staff. 
Suggestions were made and the number of machines, the 40,000 
plus, was based on a review with the Inspector General.
    Senator Allard. Then you are just going to flat drop off a 
cliff so to speak?

                       ANALOG-DIGITAL TRANSITION

    Mr. Cylke. There will be no future purchase. That is it. We 
have been in the cassette program from the early 1970s, but 
this is our last purchase of cassette machines.
    Senator Allard. And you are going to phase these out?
    Mr. Cylke. They are going to be phased out, but the new 
machines that come in--again, we have millions of copies of 
books on the shelves for use in the cassette format. All these 
books for the last 2 years and into the future will be in 
digital masters. The digital machine will be available to us in 
the beginning of 2008 and it just depends on how much money or 
how the funds are made available by the Congress as to how many 
we can build.
    But we would expect to buy over a 4-year period the great 
bulk of those machines.
    Senator Allard. Are these machines that you have now in a 
format that can easily be transferred over to the digital 
format?
    Mr. Cylke. The machines are not--the machines are analog 
cassette machines. They are four-track, half-speed cassette 
machines. But the analog books that are available on the 
shelves we are converting at a rate of a couple of thousand a 
year of the more important titles. Now, obviously in a public 
library environment many of the books would not be replaced. 
But we are converting things like the classics where we have 
them and going through what we call an A to D process, analog 
to digital.
    We should have 20,000 digital books by 2008. That would be 
reconversion as well as new books that have been mastered that 
way.
    Senator Allard. The public will use the analog and the new 
ones that you are going to put on the digital?
    Mr. Cylke. Digital only.
    Senator Allard. Digital only?
    Mr. Cylke. Well, analog and digital for 1 or 2 years.
    Senator Allard. But then as those others get used up, then 
you will put them on digital; is that your plan?
    Mr. Cylke. If I understand what you are saying, would the 
23 million copies be converted. We will convert only the ones 
that will be of continuing use. In other words, every year we 
do a certain number of fiction items, best sellers.
    Senator Allard. I see.
    Mr. Cylke. They certainly would not--old best sellers would 
certainly not be converted. I do not want to offend anyone, 
but----
    Senator Allard. You do not want to offend anybody's 
favorite book here.
    Mr. Cylke. Right.
    Senator Allard. Now, I want to refer to the IG here. Do you 
have some comments on this program? Do you think that we are 
going in the right direction? Can you comment on that?

                      DIGITAL TALKING BOOKS AUDIT

    Mr. Schornagel. Yes, I do. My office issued an audit report 
on this program back in 2002 that deals a lot with the issues 
that you are raising and recommended that a formal analysis be 
done to bridge the transition from the analog to the digital 
technology and reduce the number of purchases of new machines, 
and that has been done; and also to increase the repairs of the 
used machines.
    My office has been very actively involved in the last few 
years in supporting cost analysis and negotiation strategies 
with this contractor, and has resulted in several million 
dollars in savings. I think that the old analog machine 
purchases are necessary. The fact that we are going to cut it 
off, we really could not justify paying higher unit costs to 
buy smaller quantities in 2007 and beyond.
    It is going to be 2014 to 2017 before these old analog 
machines are completely phased out. People have a tendency to 
want to hang onto them and not want to change technologies. So 
I think that the strategy and the fact that Mr. Cylke is 
getting the full life out of all the old machines that the 
taxpayers are supporting the purchase of is really a reasonable 
approach.

                         CAPITOL VISITOR CENTER

    Senator Allard. Let us move on to the Capitol Visitor 
Center (CVC) tunnel. There was a report in Roll Call just this 
last Tuesday on page 3 that part of the tunnel project might be 
paid for out of private funds. Is this an accurate report and 
would you like to comment on that article, Dr. Billington?
    Dr. Billington. Yes. That is not an accurate report. The 
quote of the CVC spokesman was erroneous. The spokesman himself 
told my chief of staff yesterday that he had been misquoted and 
had already issued a correction. The Library of Congress was 
not contacted by the reporter about the article before it was 
written, so the issue might have been cleared up before 
publication.
    Let me make it very clear. We understand and have always 
understood that the cap of $10 million is firm and we have 
never requested any changes to the construction of the tunnel. 
We have always understood this appropriated amount to be a very 
firm limitation. The Architect of the Capitol has given us full 
assurances that the $10 million appropriated will fully cover 
the costs of the construction and Jefferson Building changes as 
presently proposed.
    I could go into more detail if you want.
    Senator Allard. I just want you to clear the record and 
make sure you are comfortable that we have the facts on record.
    Dr. Billington. Yes. The original appropriation allocation 
was $10 million. We understand that the AOC has spent $5.1 
million for tunnel construction, which includes a $200,000 
contingency, and that just recently they have put out a 
contract for $4 million for changes, that was issued just last 
week.
    That leaves a balance of $900,000 for contingency, which is 
well under the $10 million cap.
    Senator Allard. Any problem with that cap?
    Dr. Billington. We do not see any problems with it, and we 
are not requesting any changes or additions.
    Senator Allard. I would expect that with the opening of the 
Capitol Visitor Center you are going to get more visitors, more 
people wanting to visit the Library of Congress. You are not 
going to have to negotiate across the street and you will 
probably get more members as well as more visitors wanting to 
use that tunnel.
    Are you expecting a large increase in visitors and are you 
doing anything to try and accommodate that?

                   CELEBRATION OF AMERICAN CREATIVITY

    Dr. Billington. Yes. We have been looking into this in some 
detail. The estimate has been given that as many as 3.5 million 
people will be coming into the new visitors center. We want to 
use the public spaces of the Jefferson Building as the focal 
point for additional visitors to the Library. We have done some 
very careful analysis and planning, with a lot of consultation, 
all, I might add, on nonappropriated funds. This is all being 
done with private funding--what we will do to prepare for more 
visitors will depend on what we can raise from private funding.
    The idea will be to celebrate and illustrate and involve 
people in one of the most important contributions that the 
Congress of the United States has made to the American people. 
No other government in the world has as consistently and as 
fully preserved the private sector creativity of its people as 
has the United States, and in particular the legislative branch 
of Government.
    Once the Copyright Office was placed in the legislative 
branch of Government, we were able to retain in the Library's 
collection as closely as possible the mint record of American 
creativity. By housing innumerable collections, we have way 
over 5 million pieces of music, we have the world's largest 
collection of movies, nearly 1 million movies and moving image 
titles--these are amazing accomplishments that the Congress has 
achieved. We want to celebrate this, which we think will 
supplement and round out the story of the Congress and of its 
governance, its oversight and legislative functions, which will 
be illustrated in the Jefferson Building's expanded exhibits.
    We think this will be an important illustration, calling 
attention to a great achievement of Congress, which we have 
been fortunate enough to be the custodians and administrators 
of. This summer we are bringing in interns to find and 
illustrate more things in the copyright deposits that can be 
celebrated and realized. We will use our public spaces, without 
interfering with the traditional usages of the Library, to in a 
dignified way both introduce visitors to the importance of 
knowledge and to give them some experience of creativity. This 
experience will be richly illustrated, not only by the artists 
and the performers, but also by the inventors and the other 
scientists and inventors that made America the creative country 
it is. The creative use of freedom, and the Congress' crucial 
role in preserving this record of creativity will be the main 
thing we are going to be illustrating and celebrating.
    Senator Allard. I think you have a great facility there. As 
you know, my wife uses that Library personally--we go over 
there and walk the halls and do the searches through the 
computer and through your catalogue. I think a lot of Members 
send their staff over, but we will wander over there 
personally. I would agree that it is a great facility. We 
should be very proud of it. We are privileged in this country 
to have that kind of a facility available for us.
    So we want to do everything we can to help make it better 
and continue to make it meet the needs of the American people.

                         WORLD DIGITAL LIBRARY

    Let me move on. I want to talk a little bit about the World 
Digital Library. In November the Library entered into a 
cooperative agreement with Google to develop a World Digital 
Library. Apparently Google is contributing $3 million to this 
effort. Could you update us on this project?
    Dr. Billington. I think this is very exciting. As you know, 
we had close to 4 billion electronic transactions last year. 
Our American Memory website has brought more than 10 million 
items of American history and culture online. We are continuing 
to augment that with materials that highlight creativity and 
the culture. In fact, there will be a connection between the 
website and exhibit space within the Jefferson Building. The 
visitors experience will include an invitation to use our 
educational website as well.
    What we are adding here, again with this important startup 
private money which is purely philanthropic--it is a 
nonexclusive arrangement--is putting the memory of other 
cultures online.
    It is important to dramatize to the world, both to help 
America understand the cultures of foreign countries, with whom 
we are more and more involved, our already large educational 
website and training, facilitating its educational use, to 
provide windows into world cultures. We are going to begin with 
pilot projects with other countries. We are going to launch the 
World Digital Library very carefully, as we did with the 
American Memory project that began our educational and 
inspirational online presence.

                  PARTNERSHIPS WITH NATIONAL LIBRARIES

    We are going to do it jointly. We already have agreements 
with six other national libraries to do joint projects. Our 
original project with the Russians, which was funded and 
initiated by congressional action, is approaching 1 million 
items. We are getting great cooperation from them. They are 
giving us access to nearly everything we want.
    So we have had a successful startup with special funds, and 
now agreements with a wide variety of countries--our most 
recent agreement is with the National Library of Egypt. I was 
just in Egypt and we are going to expand that collaboration. We 
have in our collections the history of Islamic science, which 
is something that has been well preserved, not just in Egypt 
but also in America and in the Library of Congress.
    We are going to be developing and celebrating the memories 
of other cultures, which we think will appeal to the other 
cultures, with bilingual commentary, and a high audio-visual 
component in the middle. This initial grant, and it is a purely 
philanthropic one, is one of the first that they have made in 
this way. It is going to be a very positive first step.
    We are considering particularly expanding into a major 
enterprise the small beginnings we have made with Brazil and 
Egypt. We will be looking into a variety of prospects to take 
our joint projects out to some of the other ancient cultures of 
the world and dramatize to them that America has been a 
guardian and a preserver of much of the world's cultural 
heritage. We will, in cooperation with the repositories in 
those countries, present it together, an American and Egyptian 
collaboration, and an American and Brazilian collaboration, and 
American collaboration with these other countries.
    We already have cooperative agreements with six countries, 
as I mentioned. We believe that America can play a leading role 
in helping develop better communication about the different 
cultures of the world that will increase our understanding of 
them and their appreciation of what we have done in this 
country to preserve their heritage as well as our own.
    Senator Allard. Very good.

                     OPEN WORLD LEADERSHIP PROGRAM

    Now, one last subject I want to cover has to do with the 
Open World Leadership Program. With respect to the Open World 
Program, I understand that Ambassador James Collins is 
undertaking a thorough review of the program at your request. 
Can you tell me when this effort will be complete and what 
particular aspects of the program may be overhauled? Now I 
understand that this is not a part of the Library, but you are 
the chair of that program and so I wondered if you could give 
us just a brief report on what you expect out of that thorough 
review.
    Dr. Billington. Yes, sir. We are doing, as we have already 
done and are refining within the Library, a comprehensive 
strategic plan for the Open World Program. Open World has been 
very successful. It is a unique undertaking in the legislative 
branch. It has brought more than 10,000 emerging young leaders: 
Russians, a growing program with the Ukraine, and startup 
experimental programs with Lithuania and Uzbekistan. There have 
been many suggestions from Members of Congress and others about 
this unique program, which is modeled in a lot of respects on 
the 1.5 percent of the Marshall Plan that was spent bringing 
young Germans over to the United States after the war. Open 
World is bringing over people from the former Soviet Union 
after the cold war.
    Now, we have tasked Ambassador Collins, who was Ambassador 
to Russia when the program was initiated in 1999, to conduct a 
strategic plan--and he is a member of the board of Open World, 
which of course has an independent existence within the 
legislative branch of Government, although certain 
administrative functions are performed still by the Library and 
I do chair the program.

                       OPEN WORLD STRATEGIC PLAN

    This strategic plan will be completed in late June or early 
July. We will present it at the board meeting and if agreed to 
by the board, we will provide for the implementation of the 
strategic plan. We will be looking at such questions as 
possible changes in the nature of the exchanges, which have 
been very successful--the areas to be covered. We now cover 
rule of law both in Russia and Ukraine, which is so central to 
the prospects of democracy--democratic development in those 
countries--and that has been an extraordinarily successful 
program. That is sure to survive.
    But other programs, exactly what we should stress, whether 
this should be expanded to other countries and at what level 
are under review. We are discussing those issues of course in 
the strategic planning process--the staff has been working on 
it from the end of last year. The board meeting in December 
determined that we will reach conclusions and have the formal 
strategic plan from which future budgetary submissions will be 
derived.
    We will also be looking into, very closely into, possible 
economies, and we will be probably making changes. We will 
bring on fairly shortly a full-time executive director. We have 
had very good leadership up to this point. Geraldine Otremba, 
who does our congressional relations, was handling it at first. 
Aletta Waterhouse, who was also with it from the beginning, has 
been acting director since September. We will have a new 
executive director, a permanent appointment that we will be 
able to announce very shortly.
    That executive director will have a chance to work with and 
implement the strategic plan. There are a number of GAO 
suggestions, most of which we have already addressed, but they 
will be folded in in a full accounting into a full strategic 
plan from which we will derive our next budgetary submission.
    Our current budget request represents basically a 
continuation of what we are doing, more or less, with only a 
marginal adjustment this time for unavoidable cost increases, 
mostly in air fares.
    Senator Allard. I look forward to seeing what that final 
report is.
    Dr. Billington. We would hope to report to, discuss our 
strategic plan with the Appropriations Committees before the 
board takes final action on it as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. Very good. Thank you.
    I do not have anything else. Any summary comments?
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]

              Questions Submitted by Senator Wayne Allard

                                 GENPAC

    Question. The Library requested a base adjustment for GENPAC of $2 
million that is more or less evenly divided between serial and 
electronic purchases to ``help keep pace with the greatly increased 
cost of serial and electronic materials (without which) risks eroding 
the foundation of the many services provided by the Library to the 
Congress and the nation.'' The Library's justification notes the 
rapidly growing number of electronic journals (approximately 35,000), 
and that the cost of journals has been rising at the rate of over 14 
percent per year. How much of the Library's costs are for providing the 
same information in different formats? What percentage of the journal 
collection is available in multiple media? What criteria are used to 
decide whether to offer journals in electronic and print formats?
    Answer. The Library generally does not purchase content in multiple 
formats. In a few instances, when materials exist in both print and 
electronic versions, the Library will acquire both.
    Duplication of information may occur for several reasons:
  --The manner in which publishers package journals into sets or 
        aggregated databases causes duplicative content to be included 
        in the Library's acquisitions for the collections. An 
        electronic database may have several hundred journal titles 
        included, two-thirds of which are unique to the Library's 
        collections and therefore wanted. The remaining one-third may 
        be duplicative of print journals, but because of the value of 
        the unique two-thirds, the database is acquired (either 
        purchased or licensed).
  --Some publishers provide a free print copy of a journal when the 
        electronic journal is purchased.
  --Electronic publications package their content uniquely, often 
        offering significantly increased functionality, indexing, and 
        ability to manipulate it. Because of the value that is added, 
        the Library is providing a service to Congress and other users 
        by purchasing an electronic copy, even when a print version is 
        already in the Library's collections.
    Because of the accelerating number of electronic journals being 
published and the Library's vast collection of print journals, the 
percentage of the journal collection available in multiple formats 
cannot be determined. Because the long-term preservation of digital 
content still poses a challenge and because the Library has not 
completed its development of a digital repository to archive electronic 
journals for future generations, the Library has determined that it 
must continue to acquire print copies of journals that exist in both 
electronic and print form. The Library has taken steps, however, to 
mitigate its expenditures for electronic content. It is developing 
trusted partnerships with other organizations to ensure long term 
access to electronic journal content, which will allow the Library to 
cease purchasing duplicate copies of those titles. It also is testing 
the deposit of electronic journals for copyright and seeking change in 
the legislation for the mandatory deposit of various kinds of 
electronic content. The Library further initiated an effort several 
years ago to reduce its acquisition of multiple print copies when it 
was also acquiring an electronic version, thereby considerably reducing 
the duplication.
    When deciding on the format of journals, the Library follows these 
guidelines:
  --If a journal is issued in only one format (print or electronic), 
        the Library acquires the title based on the importance of the 
        content.
  --Electronic versions of print materials already in the collections 
        are acquired to improve ease of access or to allow multiple 
        users access to high-demand content.
  --Both print and electronic versions of journals are acquired if the 
        second format is offered at no additional cost.
  --Print or microform journals are acquired when electronic versions 
        exist, to ensure long term preservation.
    Print or microform journals are acquired when electronic versions 
exist, pending completion of the Library's development of its digital 
repository.

                     COPYRIGHT RECORDS PRESERVATION

    Question. How will digitizing these records change your future 
maintenance and storage costs?
    Answer. The primary purpose of this project is to preserve the 
records--to provide an archival backup for the analog records, 
protecting against the possibility of loss of this irreplaceable, one-
of-a-kind collection. During the first six years of the project, the 
records, including bound record books, microfilm reels, and catalog 
cards will be scanned and rudimentary index data will be captured. This 
will ensure the records can be archived and be accessed electronically 
at a basic level that will facilitate further indexing. However, the 
title, author, and copyright owners are not searchable terms in the 
rudimentary index. For the public who rely on our records, this index 
would not be a substitute for the original records until detailed 
indexing is accomplished in future years.
    The Copyright Office needs to retain all these analog records until 
that time, when the individual electronic records will be integrated 
with the post-1977 copyright records currently available for search and 
retrieval. The detailed indexing project is estimated to cost as much 
as $64 million.
    The Copyright Office will continue to house the card catalog on the 
fourth floor of the Madison Building to facilitate access for those who 
use these records. By the time the first phase of the project is 
completed, the Office plans to have its own storage facility at Fort 
Meade, maintained by the Architect of the Capitol. The record books, 
now in a leased storage facility offsite, would eventually be stored 
there. Total savings once Fort Meade storage is available would be 
$200,000 per year, increasing each year based on increased volume and 
rates charged for commercial storage.
    Therefore, digitizing these records for preservation during the 
next six years will not have an impact on maintenance and storage 
costs. If the detailed indexing is completed in the years following 
this first phase, a decision could be made to destroy the analog 
record. However, this discussion is years away.

                        WORKFORCE TRANSFORMATION

    Question. The request of $781,000 for the renewal and development 
of the Library's workforce is described as an initial investment 
beginning in fiscal year 2007. Are long range estimates available for 
the expected costs of replacing and retraining the workforce? Describe 
why these particular initiatives were selected and how they will 
directly support a larger workforce plan. Why fund these initiatives 
before there is a comprehensive strategic plan to guide the 
transformation of the workforce? How does the workforce transformation 
project, the strategic planning process, and the program assessment 
framework relate? What information do you hope to get out of these 
efforts that you currently do not have?
    Answer. The Library has and will continue to evaluate all aspects 
of its business functions, including work processes, equipment, IT and 
other infrastructure support, and staff performing the work. Periodic 
reviews are routine business practice but most certainly critical when 
the world demands new processes as witnessed by the digital 
transformation. The Library's evaluations are taking place under the 
broad umbrella of strategic planning and through program specific 
assessments. No matter which mechanism is used, people will always play 
an important part of any transformation. They are not only a 
cornerstone in change itself, but needed to implement change.
    Given the aging workforce, with skills once valued but no longer 
needed in the future, the Library has begun its workforce 
transformation to keep up with new business functions and to lay the 
foundation for new functions on the horizon.
    Most of the fiscal year 2007 funding requested under workforce 
transformation is to support basic services that would be needed even 
if a major transformation were not occurring. For example, $225,000 
supports 600 online courses, annual subscriptions to leadership 
development courses, mentoring programs, and career planning and 
counseling--services that are commonplace in most similarly-sized 
agencies, but are not currently available or adequately resourced in 
the Library. The online and annual subscriptions also provide a more 
cost-efficient option for training than the traditional classroom 
approach.
    A total of $98,000 supports one additional employee in the 
Library's learning development center, to ensure the center is fully 
staffed and can manage the size of a training program needed for a 
large workforce. A total of $127,000 provides interpreter services to 
meet the demands of our diverse workforce, including those who are 
physically challenged. Finally, $231,000 is for a summer intern 
recruitment program that will not only help address the Library's 
workload, but also provide a rich pool of candidates for future jobs at 
the Library.
    The remaining $100,000 goes beyond traditional training but asks 
the question of what type of employee and what skills will be needed in 
the future. Funding will help determine digital competencies, and it is 
this study that will lay the foundation for a more comprehensive 
strategic plan for transforming the Library's workforce through 
retraining or new hiring--with new and different position descriptions. 
Until this analysis is completed, the Library cannot project future 
costs but hopes to be in position to do so by the fiscal year 2008 
budget.
    Without the requested funding, the Library will fall further behind 
the rest of the Federal Government and the private sector, costing more 
in lost productivity and lost opportunities.

                          DIGITAL COMPETENCIES

    Question. Since fiscal year 2001, the number of items circulated 
has declined by over 24 percent and reference services by 17 percent. 
Internet transactions have increased by 214 percent. What has the 
Library done to redeploy staff? How do these trends relate to your 
request for skills training?
    Answer. In fiscal year 2007, the Library is requesting $100,000 to 
begin the development of a digital competencies initiative. This 
initiative will identify what new skills/staff are needed to support 
the digital transformation of the Library's services, compare those 
skills to staff already on board, and highlight the gaps between the 
two. The results will be used to develop a comprehensive staffing and 
business plan that will outline action steps and related resources 
needed to retrain and/or reassign current staff, hire new staff, and 
enhance IT and other equipment to support staff. The Library already 
has focused on a few areas such as CRS and Library Services where the 
VERA/VSIP programs were used to help retire employees whose skills are 
no longer needed, allowing the Library to hire the expertise or 
equipment needed to meet the new services and new demands placed upon 
the Library as a result of the digital transformation. While offices 
will continue their program reviews, the digital competencies 
initiative will be a Library-wide review that will not only focus on 
each office but on how the Library works as a whole, for a more 
cohesive and integrated transition into the future.

               CONGRESSIONAL RESEARCH SERVICE REALIGNMENT

    Question. CRS determined last year that some 59 production support, 
technology support, and audio-visual positions were no longer needed. 
You have determined that eliminating the 59 positions will save CRS 
approximately $4.4 million. How is this savings reflected in your 
fiscal year 2007 budget request? If analysts will become responsible 
for tasks previously done by production and technical support staff, 
(e.g., formatting, computer problems) won't diversion to non-analytical 
tasks lower current efficiencies and effectiveness of CRS employees?
    Answer. This question is based upon two fundamentally incorrect 
assumptions. First, CRS never stated that the elimination of the 59 
positions would ``save'' $4.4 million. CRS is undergoing a workforce 
re-engineering effort that will enable the Service to hire different 
staff who can contribute directly and fully to meeting the Service's 
mission. The funds that would have been used to pay the salaries and 
benefits of the 59 support staff will be redirected to pay for 
primarily research analysts. The Service's fiscal year 2007 request 
reflects a budget that would support the on-going need for 
approximately 705 FTEs. There are no savings associated with this 
workforce realignment; and retaining the 59 support staff indefinitely 
would adversely impact the Service's ability to sustain adequate core 
research capacity.
    In fiscal years 2005 and 2006, CRS requested a one-time budget base 
increase to close the gap on rising staff costs and give the Service a 
permanent budget base that could sustain a workforce of 729 FTEs. With 
only $500,000 approved for this purpose in fiscal year 2006 (none in 
fiscal year 2005), the Service had to implement a strategy that would 
adjust its permanent workforce down to 705 full-time equivalents (FTEs) 
while retaining an analytic capacity of 48 percent to 50 percent of the 
total staffing composition--between 335 and 350 staff.
    In fiscal year 2005, the House Appropriations Committee explicitly 
stated that it expected Legislative Branch agencies to take into 
consideration the overall budget constraints placed on the entire 
Federal budget and to submit more reasonable requests. At the same 
time, the Committee directed agencies to identify opportunities that 
would streamline operations, expand outsourcing in a range of operating 
activities, utilize existing technology to enhance efficiency, and 
implement management changes to increase efficiency and effectiveness 
of operations. Further, the Committee directed the Library to conduct a 
study to determine whether any duplicative functions existed between 
the Library and CRS. The same year, this Committee's report language 
stated, ``owing to budget constraints, the Committee is unable to 
recommend additional increases.'' These policies were endorsed by the 
Conference language encouraging agencies to submit more reasonable 
budget requests. Similar policies and concepts were expressed in the 
fiscal year 2006 House report language. Agency heads were directed to 
embrace change and recognize staff and workforce as the most important 
agency asset. Agency heads were directed to look within for ways to 
achieve mission as opposed to seeking additional budgetary increases. 
In 2006, the Senate re-emphasized the applicability of GPRA. Again, the 
Conference language endorsed these policy statements. CRS has heeded 
the Congress' direction to find ways to streamline operations and 
improve efficiency.
    The CRS fiscal year 2007 request reflects the reality of the budget 
environment and respectfully recognizes the Congress' expectation that 
the Service find a way to accomplish its mission within an organization 
of 700 to 705 FTEs. Right now, CRS needs the support of the Congress in 
order to continue its efforts for achieving a workforce transformation 
using the federal employment tools and authorities available, such as 
separation incentives, voluntary early retirements, and possibly a 
reduction in force (RIF). The Library is seeking two new administrative 
provisions that would give any remaining affected CRS staff (as of 
September 30, 2006) opportunities for priority placement in other 
federal agencies should a RIF become necessary. Your support and 
approval of that request would also be extremely helpful. In 2007, CRS 
plans to redirect the funds that would have been used to pay the 
salaries and benefits of the 59 staff to acquiring the capacities, work 
skills, and competencies needed in 2007 and beyond. Your support of the 
Service's fiscal year 2007 full budget request and your endorsement for 
maintaining the management flexibility needed to align or realign the 
organization to match the changing and complex congressional agenda 
within the financial resources available will go a long way in helping 
to ensure that the Service can indeed provide the continued level and 
quality of services that Congress is seeking.
    Second, the question incorrectly assumes that CRS analytical staff 
will now be responsible for performing production and/or technical 
support tasks--which is not the case. The question incorrectly assumes 
that CRS management is not focused on ensuring a most cost effective 
and efficient operation--which is also not the case. CRS has always 
been committed to providing analysts with the most technologically 
robust workstations available. Advances in technology in the past ten 
years have provided automated tools on the analyst's desktop with most 
of the needed formatting and production capabilities built in; and, 
these new technology tools have eliminated much of the need for 
production support personnel (the basis of the elimination of these 
functions). CRS is currently investing in the development of a new 
authoring and publishing system that will even further advance the ease 
of incorporating sophisticated graphics, tables, and pictures directly 
into CRS reports during the writing/authoring phase. The new system 
will allow increased analytic capacity--not decreased capacity. The 
system will make creation and dissemination of CRS reports even more 
efficient and more readily available to the Congress.
    The CRS analysts' needs for publication production support will be 
provided centrally by the CRS Electronic Research Products Office 
(ERPO) which is staffed by a cadre of experienced editors, skilled in 
using advanced technology tools to produce products in multiple 
formats. CRS is building capacity in this office as a means to 
centralize, streamline, and provide uniform and high quality support 
across the Service. At the same time, the CRS Technology Office is 
revamping existing contracts to enhance its desktop user support 
operations, which will also include up-to-date technology professionals 
who can resolve quickly the staff's desktop computer problems. Managing 
modern technology in a centralized business model ensures that: (1) 
business-relevant technology skills are in place, maintained, and 
uniformly accessible to all agency staff; (2) all technology staff are 
directed from a singular agency-wide business strategy and perspective; 
and, (3) technology staff are provided consistent and uniform training 
opportunities based upon general technology refreshment, agency 
implementation of new hardware/software, or individual performance 
shortcomings. The central call center/help desk concept allows a 
computer specialist to gain remote access or ``proxy'' to a personal 
computer anywhere in the organization in order to evaluate and 
troubleshoot technical problems--giving every CRS employee immediate 
access to high quality technology support at their fingertips.

                         FEE SERVICE ACTIVITIES

    Question. What, if anything, has the Library done to identify 
services where it might be appropriate to either charge a fee or raise 
current fees?
    Answer. Where it is appropriate to charge fees, the Library does so 
and in some cases has a formal process for evaluating and raising those 
fees.
    For example, in 1997 Congress established a new procedure for 
setting fees for basic services for the Copyright Office (111 Stat. 
1529 (1997), codified at 17 U.S.C. 708(b)). The Copyright Office is 
directed to periodically study the costs of providing its basic 
services. After determining the costs of those services, it is directed 
to consider whether the full cost recovery fee is fair, equitable, and 
meets the objectives of the copyright system. If not, the fees may be 
adjusted to recover less than full cost. Following this study and 
consideration, the Copyright Office sends Congress a report discussing 
its study, conclusions, and a proposed fee schedule. This fee schedule 
will be adopted unless, within 120 days of receiving the proposal, 
Congress passes a law disapproving the proposed fees. The latest 
Copyright Office report, with its proposed fee schedule, was sent to 
Congress on February 28, 2006.
    Additionally, for other than basic services, the Copyright Office 
has the authority to set fees by regulation. On March 28, 2006, the 
Copyright Office proposed a new fee schedule for these additional 
services and invited public comment on this schedule. Also, a new fee 
service has been proposed. The comment period for these fees closes on 
April 27, 2006. The Office does not expect that Congress will reject 
its proposed fees for basic services. Additionally, it expects to 
conclude its fee setting rulemaking early in May. The plan is to 
institute all the new fees on July 1, 2006.
    Under the provisions of the Economy Act of 1932, 31 U.S.C. Sections 
1535-1536, the Law Library has entered into Interagency Agreements with 
several Executive Branch agencies for services tailored to their 
specific needs requiring research and reference products outside the 
routine services provided by the Library. Fees are based on billable 
hours dedicated to the work performed. Other than contributions 
collected under the offsetting collections authority associated with 
GLIN and the interagency agreements noted above, there are no other Law 
Library activities that would be suitable for charging fees.
    Library Services has several revolving funds that charge a fee for 
services to inside and outside clients. The revolving funds operate 
under revolving fund law and other fund specific legislative 
guidelines. As part of the Business Enterprise Work, Library Services 
is reviewing all the revolving funds, including services provided and 
related fees, and may be proposing changes in the coming fiscal years.
    As other work is identified for fee-based services, the Library 
will propose legislative language to support those fees.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

    Question. Dr. Billington, I understand that the retail shop at the 
Library of Congress is relocating due to the construction of the 
Capitol Visitor Center tunnel. What is the new location? How do you 
think the relocation of the shop will affect sales?
    Answer. In the summer of 2005, the Library relocated the shop to a 
larger location on the west side, beside the Visitor Center and close 
to the Capitol Visitor Center tunnel. Floor space has been increased 
from 1,100 square feet to 2,000 square feet. In moving the shop, we 
also took the opportunity to consolidate stock rooms and storage space 
has increased to 2,500 square feet. The following page includes the 
floor plans and pictures of the new shop location.
    The shop remains in a prominent space within the visitor area of 
the Jefferson Building. Given the continued visibility and the 
increased floor space, we are expecting the move, in coordination with 
other activities, to improve sales. As we develop our plans for the new 
visitor experience at the Jefferson building in the fall of 2007, we 
will be coordinating the work of the Library's visitor services and 
exhibitions offices to enhance our retail presence.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. When the CVC opens, there will undoubtedly be many more 
visitors coming to the Library. Are you considering expanding your 
retail product based on this increase?
    Answer. The sales shop will increasingly reflect the visitor 
experience of the Great Hall, the collections and art on display, the 
special and permanent exhibitions, and the interactive guides 
throughout the Jefferson Building.
    We are consolidating our product mix to focus on Library-related 
merchandise. Our sales figures show that Library-related products 
appeal to our visitors, both on site and online. Such Library-related 
products generate about 56 percent of total revenue, approximately 
$610,000 in fiscal year 2005. Nineteen of our twenty most popular items 
(by revenue) are library related. These top sellers generated $290,000 
in sales revenues, $100,000 in profits. We will continue to grow the 
percentage of inventory dedicated to proprietary Library products, 
increasing brand recognition, outreach, and revenue.
    Question. Dr. Billington, the Library's fiscal year 2007 request 
includes a decrease of 44 FTE's. Can you explain this decrease?
    Answer. The Library is reflecting a decrease of 44 FTEs in fiscal 
year 2007 as the result of authority expiring in fiscal year 2006, 
reduced workload, and/or adjustments needed to align staffing with 
available funding. Reductions include a total of 13 FTEs for positions 
whose authority expires in fiscal year 2006 (6 FTEs for Culpeper, 1 FTE 
for Business Enterprise Project, and 6 FTEs for vacant police 
positions), 7 FTEs for reduced workload projected in the Copyright 
Office, and 24 FTEs in CRS to align staffing with funds available.
    Question. How will the Library's transition into the digital 
environment affect its current workforce? What are your plans for 
retraining your current workforce?
    Answer. As part of our workforce transformation project, we will 
follow a systematic process to identify newly required skills and 
knowledge for our workforce as we transition into a digital 
environment. Until we complete job and skills gap analyses based on new 
skills and knowledge requirements, we will not know the full impact on 
our workforce. Where retraining is appropriate, we will create 
individual development plans and training programs to retrain members 
of the current workforce.
    Question. In fiscal year 2005, the Library's website experienced a 
14 percent increase in usage over fiscal year 2004. How are you 
preparing for this continuing trend in increased web usage?
    Answer. The Library of Congress website has continued to experience 
increases in use both as a result of a general increase in the number 
of users online and as the institution continues to add high-quality 
digitized material for our online audiences. The Library is projecting 
that the rate of increase will continue and build to higher levels over 
the next few years as the American public continues to discover and 
learn about the wealth of high-quality digitized materials and other 
content that we offer.
    The Library has begun the implementation of a web metrics program 
that includes new monitoring software and services that provide 
statistics and analytics to assist the Library in understanding the 
profiles of our online users, the web content that they access, the 
resulting impact on our supporting technical infrastructure, and our 
continued ability to provide high quality online services. This web 
metrics program and other tools that the Library uses to measure 
supporting infrastructure capacity will assist the Library in 
forecasting future usage and in planning capacity accordingly.
    To date, the Library has met growing user demand for online content 
and has supported the necessary expansion in technical infrastructure 
by adjusting our existing budgetary resources. We will continue to 
monitor these statistics and other metrics, assess performance, and 
weigh alternatives for maintaining high quality online service within 
existing resources if at all possible.
    Question. Dr. Billington, you have requested $102 million within 
the Architect of the Capitol's fiscal year 2007 request. Can you 
prioritize the items in this request for the members of the 
subcommittee?
    Answer. Of the $102 million requested for the Library of Congress 
Buildings and Grounds budget within the Architect of the Capitol's 
(AOC) fiscal year 2007 request, approximately $62 million supports 11 
projects specifically requested by the Library.
    Construction of the Logistics Center at Fort Meade is the Library's 
highest priority within the AOC budget. This facility is urgently 
needed to address many critical issues, including meeting fire and 
safety standards and providing environmentally sound storage for 
Library collections. The new facility at Fort Meade is the best overall 
investment for the government based on independent space and economic 
assessments. Choosing another site is not the solution nor will it 
reduce costs. The land at Fort Meade was purchased specifically to 
address storage requirements of the Legislative Branch. Leasing, buying 
or building storage facilities at other locations would undermine this 
master plan. The 100 acres only cost the government one dollar. 
Choosing a different construction site would require millions of 
additional dollars for land. Upgrading current leased facilities or 
retrofitting other lease buildings would only benefit the landlords and 
not the government. Staying in current leased facilities forces the 
Library to continue to pay for space that is expensive and provides no 
return on investment (similar to renting vs. buying a home). Finally, 
we would lose the synergy of Fort Meade, which offers advantages and 
the cost benefit of one security system, one transportation 
destination, easy access between storage facilities, and other 
administrative efficiencies, while providing increased capacity on 
Capitol Hill, and more efficient use of space on and off Capitol Hill.
    If this project is delayed, the Library will continue to incur very 
expensive lease and repair costs associated with current storage 
materials. Savings to the government of at least $3 million annually 
will be lost to lease, operating and repair costs at existing 
facilities. The master plan at Fort Meade is already six years behind 
schedule. Further delays will raise the price tag of this project again 
due to inflation and other factors and further delay, and also 
increase, the price tag of other buildings planned for in the master 
plan.
    The remaining 10 Library projects are needed to maintain the 
Library's buildings and grounds, to address immediate environmental, 
fire and life safety issues, and to support space modifications in 
response to the Library's ever changing program needs.
    The AOC has also included their own fire and life safety projects. 
Past deferments and delays have created a long list of urgently needed 
projects. The cost of maintenance and upgrades will continue to rise 
rapidly if the Library cannot stop, or at least slow down, the rate of 
deterioration of its buildings and return to its approved construction 
plan and schedule.
    The following table lists the Library's projects in priority order:

 ARCHITECT OF THE CAPITOL FISCAL YEAR 2007 BUDGET--LIBRARY BUILDINGS AND
                                 GROUNDS
------------------------------------------------------------------------
                                                            Fiscal Year
           Library Priorities Fiscal Year 2007            2007 Requested
------------------------------------------------------------------------
Fort Meade Book Module 3 & 4............................  ..............
Copyright Deposit Re-Design.............................  ..............
Fort Meade Logistics Warehouse..........................     $54,200,000
Culpeper O&M (Facility Support).........................       2,500,000
Fort Meade O&M (Facility Support).......................         640,000
Air Handling Unit Replacement JMMB......................       2,890,000
Preservation Environmental Monitoring...................          80,000
Contract Asbestos Validation TJB........................         100,000
LOC Space Modifications (Rooms and Partitions)..........         650,000
Minor Construction......................................         990,000
Painting................................................         100,000
Kitchen Equipment.......................................          40,000
Design--Court Yard Renovation, TJB......................          75,000
                                                         ---------------
      Total.............................................      62,265,000
                                                         ---------------
Operational Support.....................................      39,972,000
                                                         ===============
      Client Total......................................     102,237,000
------------------------------------------------------------------------

    Question. Please provide an update on the progress of the National 
Audio-Visual Conservation Center in Culpeper, VA. When will this 
facility be complete?
    Answer. The Packard Humanities Institute (PHI) is in charge of the 
NAVCC construction. PHI is working closely with the Architect of the 
Capitol and has made and is financing enhancements and improvements in 
the original plan. PHI's originally scheduled completion dates for the 
NAVCC were spring 2005 for the Phase 1 Collections Building and Central 
Plant and spring 2006 for the Phase 2 Conservation Building and Nitrate 
Vaults. Since then, construction delays have forced PHI to revise 
slightly its master schedule. Phase 1 was turned over to the Library in 
December 2005, and the Library is now moving its collections into this 
part of the complex. For Phase 2, PHI's new master schedule indicates a 
completion and turnover date for the entire project of March 1, 2007.
    Staff will be relocated in stages that are synchronized with the 
PHI construction schedule. Six Library staff began working in the Phase 
1 Collections Building in January 2006. The majority of NAVCC staff 
will work in the Phase 2 Conservation Building and will be relocated in 
alignment with the new construction schedule as follows:
  --Summer 2006.--Relocation of two or three advance staff from the 
        Motion Picture Conservation Center (MPCC) in Dayton, Ohio to 
        help set up the NAVCC Film Laboratory.
  --December 1, 2006.--Relocation of two advance technical staff from 
        MBRS in Washington to install cabling and initial AV system 
        components.
  --March-May 2007.--Relocation of Capitol Hill staff and the remainder 
        of the Dayton staff to Culpeper. Approximately 12 MBRS staff 
        will remain in the Madison Building to provide public services 
        in the NAVCC reading room.
    Question. Dr. Billington, the Library has requested funding in 
fiscal year 2007--$150,000--for the Lincoln traveling exhibition. 
Please describe how the Library is working with the federally 
designated Abraham Lincoln Bicentennial Commission on development and 
implementation of the exhibition.
    Answer. The Library of Congress has had periodic meetings with the 
director and various members of the Abraham Lincoln Bicentennial 
Commission for more than a year. At these meetings, we discuss the 
progress of the exhibition, funding efforts, the other venues to which 
the exhibition will travel, and the coordination of programming 
developed by the Library as well as programming developed by the 
Commission and its partners.
    The Commission has been particularly helpful in identifying and 
making initial contacts with many of the exhibition's potential venues. 
Further, many of the Library of Congress Lincoln exhibition advisors 
have been drawn from the Commission's Advisory Committee. We will 
continue to share information and progress reports with the Commission 
in planning the Library exhibition and its ancillary programs.
    Question. Mr. Mulhollan, the Congressional Research Service (CRS) 
recently eliminated 59 permanent job positions in 3 categories. This is 
the first reduction-in-force (RIF) in CRS's history. Can you tell us 
what steps you are taking to ensure a fair transition for these 
employees?
    Answer. CRS has taken a number of steps to assist the staff who 
will be affected by CRS' decision to change the way work is performed. 
These include:
  --Staff received a full twelve months to seek and find alternative 
        employment. The decision was announced on September 22, 2005 
        and the positions will not be eliminated until September 30, 
        2006.
  --CRS offered a voluntary early retirement option and requested of 
        the Congress and received authority to offer a separation 
        incentive payment of up to the legal maximum amount allowed of 
        $25,000 to staff separating through retirement with a full 
        annuity, early retirement, or resignation. Twenty-three of the 
        affected staff took advantage of one or both of these programs 
        and retired on or before January 3, 2006.
  --Since the end of September, CRS alone and in collaboration with the 
        Library's Office of Human Resources Services, has been 
        providing a range of retirement and career counseling services, 
        including:
    --Retirement counseling: special briefings on the details of 
            voluntary early retirement; the application and approval 
            process for separation incentives; a two-day retirement 
            seminar for staff and spouses; and individual retirement 
            counseling.
    --Career services: workshops and individual career counseling 
            sessions; a workshop with representatives from D.C., 
            Maryland, and Virginia career services centers; a 
            comprehensive three-day career-transition workshop; 
            notification of local recruiting events, and access to a 
            web page with career-related information and links to 
            numerous websites.
    --Employment opportunities: training on how to apply for positions 
            using the Library's automated hiring system; notification 
            of all vacancy announcements within CRS; and notification 
            of potential vacancies of interest in the Library.
    --Reduction-in-force (RIF) briefing: a special briefing with a RIF 
            expert on RIF general procedures.
  --Further, the Library is seeking approval of new and permanent 
        authority that will grant any Library of Congress employee who 
        is the subject of a formal RIF with job placement rights with 
        agencies in the Executive Branch. Heretofore, Library of 
        Congress staff displaced through agency downsizing or 
        reengineering had no federal re-employment rights regardless of 
        their grade, job series, or federal tenure. This authority 
        would grant Library of Congress employees who receive a RIF 
        notice priority status for selection into competitive-service 
        positions in the executive branch. Such authority is currently 
        granted to executive branch employees who are RIFed from 
        executive branch positions. This authority would place Library 
        of Congress employees behind any affected employees in an 
        agency undergoing a RIF in selection priority but ahead of 
        applicants who have no federal service. Adopting this provision 
        would give the Library's employees a broader potential 
        employment base and help employees who wish to continue their 
        public-service careers beyond the Library of Congress.
    Question. Where in your fiscal year 2007 budget have you accounted 
for the possibility of paying severance pay to these employees?
    Answer. First, we need to add that one additional individual within 
the CRS affected staff has been offered a position outside of the 
Library--bringing the number of remaining employees down to 30. The 
Library is committed to funding any fiscal liability associated with 
the separation of the remaining 30 affected CRS staff; however, the 
question assumes that all severance pay will be borne by CRS which is 
unlikely. Further, the specific treatment of severance pay in the 
Library's budget is premature.
    Projecting the amount of severance pay which will actually be paid 
in fiscal year 2007 is a complicated process. It involves taking into 
account several variable outcomes: forecasting the number of staff that 
who accept Voluntary Early Retirement (VERA) and/or the Voluntary 
Separation Incentive Payment (VSIP); the number of staff who are 
successful in competing for vacant positions in CRS, the Library, other 
federal agencies, or in the private sector; and ultimate placement of 
affected staff into vacant positions in the Library or elsewhere in the 
Federal government under a reduction-in-force action.
    Of the 30 who remain on the CRS payroll at this time, one is 
currently eligible for full retirement and eight others are or will be 
eligible for early retirement on September 30. In accordance with the 
Federal Code of Regulations, an employee separated by a reduction-in 
force (RIF) action is ineligible for a severance entitlement if they 
are eligible to receive an immediate annuity from a federal retirement 
system. For these nine staff, CRS will be liable only for terminal 
leave payments, estimated at about $49,000.
    The Library's general policy is ``to retain and to assign to other 
positions, insofar as may be possible . . . staff members whose 
positions are abolished.'' This may occur by assigning staff to vacant 
positions in other organizations within the Library, or by an employee 
affected by a RIF exercising their ``bumping'' rights to claim a 
position held by someone with less retention preference. It is 
conceivable that ``bumping'' could eventually force an involuntary 
separation of an employee in another Library Service Unit, in which 
case, the severance payments would not be reflected in the CRS budget. 
Further, given that the individual who is ultimately separated has the 
least seniority, the Library's fiscal liability would be reduced 
because the severance entitlement computation is based upon years of 
service and age. Should an affected employee decline a reasonable offer 
to be reassigned into another Library position, that employee forfeits 
his/her claim to receive severance pay. The severance entitlement 
terminates if/when an individual becomes employed under a qualifying 
appointment with the federal government or the government of the 
District of Columbia.
    As stated by both the Librarian and the CRS Director, it is the 
hope of the institution that all of the affected staff will find 
alternative employment or be placed into vacant positions within the 
Library. If a formal RIF becomes necessary and the processes governing 
it are implemented, the Library of Congress has a good track record for 
placing employees and is hopeful that this will again be the case.
    As stated elsewhere in these responses, the Library is seeking two 
new administrative provisions that would grant competitive status to 
Library staff who have completed their probationary period and places 
displaced Library staff on equal footing with Executive branch 
employees by making these employees eligible for vacant Executive 
Branch positions. These new provisions would expand options for Library 
staff facing a RIF and offers all Library employees additional 
opportunities for jobs and career growth in public service. As staff 
are successfully placed within the Library or with other federal 
agencies, the federal financial liability for severance pay decreases 
accordingly and could be eliminated altogether.
    Question. Have you provided any Members of Congress, Congressional 
committees, or CRS staff copies of the studies or any other written 
analysis which led you to decide that 59 permanent positions should be 
eliminated by September 30, 2006? If not, members of this subcommittee 
would like to see copies of these studies.
    Answer. A CRS ``Director's Report'' issued on November 3, 2005 
provides a detailed analysis of the decision to eliminate the 
production support, technical support assistant, and audio-visual 
staff. That report was provided to selected members of the metropolitan 
area delegation, members of the Congressional Black Caucus, 
Congressional Hispanic Caucus, and the Congressional Asian Pacific 
Caucus. This report and extensive additional information also were 
provided to the House Administration Committee and key staff on the 
Library's oversight committees. The report was also made available to 
all CRS staff members on the CRS staff web page. The Director's Report 
of November 3, 2005 follows.

 Director's Report--Fiscal Year 2006 Staffing Changes, November 3, 2005

                                SUMMARY

    The Director of the Congressional Research Service (CRS) is vested 
by the Legislative Reorganization Act of 1970 with responsibility to 
assure the appropriate mix of employees and consultants to develop and 
maintain the information and research capability that he deems 
necessary to perform the statutory mission of the Service--to provide 
to the Congress, throughout the legislative process, comprehensive and 
reliable legislative research, analysis, and information services that 
are timely, objective, non-partisan, and confidential. The Director is 
also authorized to ``establish and change, from time to time, as he 
considers advisable, within the Congressional Research Service, such 
research and reference divisions or other organizational units, or 
both, as he considers necessary . . .'' From the statute, it is clear 
that the Director is obligated to undertake such reorganizations and 
staffing adjustments as he considers necessary to provide efficiently 
and effectively the products and services upon which Members and 
committees rely and have come to expect. The staffing adjustments 
announced recently fall squarely within this obligation. The Congress 
is facing many global and domestic financial challenges and has 
explicitly stated that Legislative Branch agency heads are expected to 
look within to find ways to streamline operations and pare all 
unnecessary duplication and costs that are not critical to achieving 
core business goals and objectives.
    The following key points are discussed in the report.

The Decision
    The Congressional Research Service will eliminate the production 
support, technical support assistant, and audio visual positions on 
September 30, 2006. This action affects 59 staff in a total workforce 
of nearly 700. The decision is based on a series of management reviews 
and evaluations of needed functions and activities which have been 
overtaken by technological advances. CRS will redirect the resources, 
currently committed to supporting these staff, to obtain new support 
capacities critical to service to the Congress.
    Of the 59 staff, 38 are production coordinators or assistants (of 
which two are receptionists), 18 are technical support assistants, and 
three are in audio-visual support. The average compensation, including 
salary and benefits, for these staff is $75,101 per annum; the average 
salary without benefits is $60,636. Over one-half of these staff, 33, 
are either eligible for full voluntary retirement or voluntary early 
retirement and the maximum $25,000 separation incentive. Sixteen are 
not eligible to retire but are eligible for the maximum $25,000 
separation incentive. The average separation incentive for these 16 
staff is $16,906.
    Currently 32.3 percent of CRS' total permanent workforce of 694 
staff is minority. If all of the affected staff were to separate from 
CRS and no other attrition or hires were to take place (total staff 
reduced to 635), the total minority population would be 28.8 percent. 
The proportion of Asian Americans would increase from 4.5 percent to 
4.7 percent; Native Americans would increase from .7 percent to .8 
percent; Hispanics would remain the same; and the proportion of African 
Americans would decrease from 24.6 percent to 20.9 percent. It must be 
noted that these projections of course do not reflect new hires or the 
consequences of other attrition.
    CRS is offering the 59 affected staff a variety of resources to 
assist in their planning, including an early retirement option, 
separation incentive of up to $25,000, retirement counseling, career 
and job counseling, and retention in their current positions through 
September, 2006.
    CRS, as a result of management reviews and evaluations, has and 
continues to create new positions to meet critical work needs of the 
Service. Affected staff may apply for these positions through an open 
and competitive process.

Background
    In fiscal years 2005 and 2006, the House and Senate Committees on 
Appropriations issued clear directives to all Legislative Branch 
agencies to maintain rigorous and disciplined business practices in 
agency operations, to contain costs, to establish strong agency-
performance goals, and to report to the Congress on all of these 
activities. CRS based the fiscal year 2006 staffing decisions upon 
analytic and objective evaluations of how best to align resources to 
current, critical work needs.
    The final fiscal year 2005 and 2006 appropriations for CRS require 
the agency to downsize permanently by the equivalent of about 30 full 
time equivalents (FTEs), thereby reducing total FTEs from 729 to 700. 
Given the confluence of several factors, including a higher average 
grade level (higher level of expertise) and the continuing trend of 
increased costs for staff benefits (Federal Employee Retirement System 
benefits average 28 percent per employee versus an average of 13 
percent per employee under Civil Service Retirement System), CRS 
requested in fiscal years 2005 and 2006 additional funds, $2.7 million 
and $3.6 million respectively, to compensate for funding shortfalls in 
its budget base. Congress did not fund the request in fiscal year 2005 
and provided $500,000 toward this shortfall in 2006. CRS must be 
vigilant to maintain the necessary analytic strength to support the 
Congress, and it must maintain an infrastructure that meets and keeps 
pace with the Congress' evolving needs. The fiscal year 2006 staffing 
decisions are part of the Service's overall strategy to accommodate a 
downsized CRS within the framework of a fiscally constrained budget.
    CRS has taken action and implemented adjustments over the last five 
years to ensure that its resources are properly aligned with 
congressional needs. These adjustments resulted in the elimination and 
restructuring of organizational units; the elimination, downgrading, 
and creation of positions; and the use of contractors to undertake 
specific work needs. CRS based each adjustment upon formal assessments 
of the impact of new technologies on the work; the existing content, 
structure and processes of the work performed; the skills and abilities 
needed to undertake the work; and in some cases, consideration to 
outsource the work based upon a cost and feasibility analysis. Examples 
of recent assessments follow:
  --1. The role of information professionals/librarians within CRS. The 
        result of this study led to the elimination of a CRS office and 
        a division (Office of Information Resources Management and 
        Information Research Division) and the creation of one smaller, 
        integrated division, the Knowledge Services Group. The work of 
        librarians, as well as all paralegal, technical information, 
        and most library technician staff, throughout the Service was 
        redefined and adjusted. Positions were created to undertake new 
        functions, revisions were made to other positions to align the 
        work directly to the new organization, some positions were 
        eliminated, and some activities were contracted out. During the 
        assessment, no new permanent hires were made into positions 
        under review. Today, the new, more efficient, organization 
        consists of 54 fewer staff performing the work--a staff 
        reduction from 190 to 136.
  --2. Examination of support positions within three infrastructure 
        offices. Three separate studies evaluated the functions 
        supporting CRS formal programs and seminars in the Legislative 
        Relations Office and of administrative functions within the 
        Offices of Finance and Administration and Workforce 
        Development. These studies resulted in CRS creating and 
        competitively filling new positions at lower grade levels. For 
        example, program aide positions were redesignated at a GS-11 
        level rather than GS-13. Administrative support grade levels 
        within the Offices were reduced, on average, from GS-11 to GS-
        7.
  --3. Integration of CRS' economists and scientists with other policy 
        research disciplines. This study led to the elimination of two 
        research divisions (Economics and Science Policy), the 
        integration of the economists and scientists into the other 
        policy divisions, the elimination of seven senior level 
        research coordination positions, and the return of five senior 
        level specialists to full time research.
  --4. Outsourcing of selected support functions. Other functional 
        assessments resulted in expanded outsourcing of CRS support 
        activities, including mail and courier service, technical 
        troubleshooting (help desk and user support), receptionist 
        duties, and copy center operations.

                              INTRODUCTION

    The Director of the Congressional Research Service is vested by the 
Legislative Reorganization Act of 1970 with responsibility to assure 
the appropriate mix of employees and consultants to develop and 
maintain the information and research capability that he deems 
necessary to perform the statutory mission of the Service--to provide 
to the Congress, throughout the legislative process, comprehensive and 
reliable legislative research, analysis, and information services that 
are timely, objective, non-partisan, and confidential. The Director is 
also authorized to ``establish and change, from time to time, as he 
considers advisable, within the Congressional Research Service, such 
research and reference divisions or other organizational units, or 
both, as he considers necessary . . .'' \1\ From the statute, it is 
clear that the Director is obligated to undertake such reorganizations 
and staffing adjustments as he considers necessary to provide 
efficiently and effectively the products and services upon which 
Members and committees rely and have come to expect. The staffing 
adjustments announced recently fall squarely within this obligation. 
The Congress is facing many global and domestic financial challenges 
and has explicitly stated that Legislative Branch agency heads are 
expected to look within to find ways to streamline operations and pare 
all unnecessary duplication and costs that are not critical to 
achieving core business goals and objectives.
---------------------------------------------------------------------------
    \1\ 2 U.S.C. 166 (d, f).
---------------------------------------------------------------------------
            CURRENT CONDITIONS RELEVANT TO STAFFING DECISION

Congressional Directives and the CRS Budget
    In fiscal years 2005 and 2006, the House and Senate Committees on 
Appropriations issued clear directives to all Legislative Branch 
agencies to maintain rigorous and disciplined business practices in 
agency operations, cost containment, and achievement of agency-
performance objectives. The use of sound business practices has been, 
and will continue to be, the way CRS is managed. The fiscal year 2006 
enacted budget places financial constraints on CRS operations and 
reinforces Congress' expectation that CRS contain costs while 
sustaining a highly productive, high performing agency. Appendix A 
provides excerpts from the committee reports.
    Eighty-eight percent of the CRS budget, now just over $100 million, 
is earmarked for the ``salary and benefits'' costs of its workforce. 
Over the past ten years, the Service's annual adjustments provided 
through the budget process have not kept pace with the rapidly 
increasing costs of sustaining CRS' workforce, due to several factors:
  --a gradual and necessary shift to more highly skilled expertise in 
        the CRS workforce composition to support the Congress in 
        increasingly complex policy areas (e.g., combating terrorism, 
        assimilating information technologies in industry, commerce and 
        governments, and the implications of an aging population). In 
        the period from fiscal year 1995 to the present, the average 
        grade level of a CRS hire has increased from GS-7, Step 9 to 
        GS-13, Step 9;
  --a shift in the proportion of the workforce participating in the 
        Federal Employee Retirement System, for which the average 
        employer-paid benefits rate of 28 percent is twice that of a 
        Civil Service Retirement System employee making the same salary 
        (with an average employer-paid benefits rate of 13 percent); 
        \2\
---------------------------------------------------------------------------
    \2\ The Federal Employees Retirement System Act of 1986 (Public Law 
99-335) requires all federal employees initially hired into permanent 
positions after 1983 to be covered by the Federal Employees Retirement 
System (FERS). Federal employees hired before 1984 are covered by the 
Civil Service Retirement System (CSRS) unless they elected to switch to 
FERS during ``open seasons'' held in 1987 and 1998. For CSRS 
participants, the total employer-paid benefits per employee averages 
about 13 percent of the base pay. For staff participating in FERS, the 
employer-paid benefits cost averages about 28 percent of the base pay--
due in large part to the Thrift Savings Plan matching component of 
FERS--making FERS significantly more expensive to the employing agency. 
As the older CSRS staff retire and the proportion of the workforce 
covered by FERS increases, the agency overhead costs related to staff 
benefits increases.
---------------------------------------------------------------------------
  --the adverse impact of annual rescissions in which losses are not 
        recovered in subsequent years; and
  --the fact that the President has implemented actual pay raises that 
        are higher than those provided in the Legislative Branch bills 
        in nine of the last ten years.
    While each of these factors would produce a marginal impact in the 
course of a single year, the cumulative and combined impact of all of 
them has generated a funding gap of nearly $4 million over the course 
of ten years.
    In fiscal years 2005 and 2006, CRS requested a one-time budget base 
adjustment ($2.7 to $3.6 million respectively) ``catch-up,'' that would 
have provided the funding needed to recover lost cost increases 
(purchasing power) and to rebuild the CRS workforce to the 729 full 
time equivalent (FTE) ceiling authorized by the Congress. In both years 
CRS informed the Congress that without the additional funding, the 
Service's workforce would necessarily be drawn down to a level of about 
700 FTEs, causing a serious impact on its ability to sustain the 
research capacity required to fulfill its mission and meet the needs of 
the Congress.\3\ The Congress did not support the request in fiscal 
year 2005, and in fiscal year 2006 authorized $500,000 towards this 
shortfall. CRS can no longer sustain a capacity of 729 full-time 
equivalent employees.
---------------------------------------------------------------------------
    \3\ Testimony of Daniel P. Mulhollan, Director, Congressional 
Research Service, U.S. Congress, House, Committee on Appropriations, 
Legislative Branch Appropriations for 2005, hearing, 108th Cong., 2d 
sess., (Washington: GPO, 2004), p. 274; and testimony of Daniel P. 
Mulhollan, Director, Congressional Research Service, U.S. Congress, 
House, Committee on Appropriations, Legislative Branch Appropriations 
for 2006, hearing, 109th Cong., 1st sess., (Washington: GPO, 2005), p. 
593.
---------------------------------------------------------------------------
CRS Management Initiatives
    Well before the issuance of fiscal year 2005 and 2006 report 
language from the House and Senate (see Appendix A), and with the goal 
of maintaining a cost-effective organization, CRS had been undertaking 
systematic assessments to identify current and future resource needs 
and to identify functions that should be eliminated or re-engineered 
due to technological advancements, internal work processes and 
congressional needs. Listed below are some of the more significant 
management initiatives CRS has instituted and the results of these 
initiatives. CRS has:
  --Developed and implemented an annual staffing assessment to 
        determine four key factors: (1) anticipated and known 
        attrition, (2) anticipated legislative issues, (3) likely gaps 
        in the Service's capacity to meet the needs of Congress, and 
        (4) current and future staffing needs. This assessment forms 
        the basis for the Service's annual hiring plan and is a 
        critical activity since staff salaries and benefits comprise 88 
        percent of the CRS budget.
  --Implemented an annual ``zero scrub'' of the 12 percent of the CRS 
        budget devoted to nonpersonnel costs to validate each planned 
        expenditure and to identify expenditures that should either be 
        considered for reduction or elimination, or adjusted upwards to 
        meet agency needs;
  --Created a new performance assessment system for senior-level 
        managers; and
  --Instituted annual program and activity reviews to assess the 
        efficiencies and effectiveness of current operations, as well 
        as identify potential need to re-engineer or realign resources.
    Resulting actions--organizational and staff realignments:
  --The role of information professionals/librarians within CRS. The 
        result of a two year study led to the elimination of a CRS 
        office and a division (Office of Information Resources 
        Management and Information Research Division) and the creation 
        of one smaller, integrated division, the Knowledge Services 
        Group. The work of librarians, as well as all paralegal, 
        technical information, and most library technician staff, 
        throughout the Service was redefined and adjusted. Positions 
        were created to undertake new functions, revisions were made to 
        other positions to align the work directly to the new 
        organization; some positions were eliminated; and some 
        activities were contracted out. During the assessment no new 
        permanent hires were made into positions under review. Today, 
        the new, more efficient, organization contains 54 fewer staff 
        to perform the work, a reduction from 190 to 136 staff members.
  --Examination of support positions within three infrastructure 
        offices. Three separate studies evaluated the functions 
        supporting formal CRS programs and seminars in the Legislative 
        Relations Office and of administrative functions within the 
        Offices of Finance and Administration and Workforce 
        Development. The result of these studies led CRS to create and 
        competitively fill new positions at lower grade levels. For 
        example, program aide positions were redesignated at a GS-11 
        level rather than GS-13. Administrative support grade levels 
        within the Offices were reduced on average from GS-11 to GS-7.
  --Integration of CRS' economists and scientists with other policy 
        research disciplines. This study led to the elimination of two 
        research divisions (Economics and Science Policy), the 
        integration of the economists and scientists into the other 
        policy divisions, the elimination of seven senior level 
        research coordination positions, and the return of five senior 
        level specialists to full time research.
    Resulting actions--activities and services eliminated:
  --Eliminated two product lines--Info Packs and Electronic Briefing 
        Books;
  --Closed two research centers--located in the Longworth and Ford 
        House office buildings;
  --Eliminated indexing of committee prints;
  --Shifted CRS product distribution from a primarily paper-based 
        inventory to primarily web-based, on-demand printing;
  --Eliminated the public policy literature file and service;
  --Closed one copy center; and
  --Eliminated and consolidated division libraries.
    Resulting actions--activities and services outsourced:
  --Mail and messenger services;
  --Copy center operations;
  --Receptionist functions;
  --Selected technology support; and
  --Selected library technical support.
    The most recently completed 2005 program and activity reviews 
include an assessment of the functions currently performed by CRS 
production support staff, technical support assistants, and audio-
visual staff. These assessments formed the basis for the actions 
underway in these support activities. Studies to assess other 
activities and functions are in progress.

   PRODUCTION SUPPORT, TECHNICAL SUPPORT ASSISTANT, AND AUDIO-VISUAL 
                               FUNCTIONS

Studies and Findings
    Data for these 2005 studies came from a variety of sources, 
including multiple discussions with potentially affected staff; a 
thorough review of all relevant position functions; initial and 
subsequent meetings with each assistant director and deputy assistant 
director, some associate directors, and a sample of analysts, 
attorneys, editors, and section heads. Information was collected using 
structured questions and analyses of documents provided by CRS 
staff.\4\
---------------------------------------------------------------------------
    \4\ In 2000, a preliminary review of the functions carried out by 
the CRS production staff suggested that technological advances in word 
processing were beginning to have implications for the ability to 
sustain staff resources devoted to supporting word processing 
activities. While determining the long-term consequences of these 
advances on CRS staffing levels, the Service did not fill any 
production coordinator or assistant positions thus, in effect, 
implementing a freeze on these positions until further study could be 
undertaken.
---------------------------------------------------------------------------
    Aware of the changing functions needed to support its analytic 
work, CRS last filled a primary production support position in 1997; a 
technical support assistant position in 1999; and an audio-visual 
position in 1991. The studies undertaken in 2005 confirmed that the 
functions identified and performed by staff in these positions, while 
appropriate and warranted ten years ago when first created, have been 
overtaken by advances in technology and desktop computing.
    The in-depth reviews of the production-support and technical-
support assistant functions confirmed that advances in technology have 
changed both the expectations staff have with regard to the capacity 
and power of their desktop computing capabilities and ease of using 
these technologies in their day-to-day work. Ten years ago, when CRS 
created the technical support assistant positions, the software and 
operating systems used by the Service required a hands-on presence by 
supporting staff, leading to the necessity of investing in a 
significant number of technical support positions. For example, in the 
past operating systems and software applications were manually 
installed machine by machine. Today's computing environment is 
supported centrally via ``push'' technology that enables sophisticated 
software packages and upgrades to be loaded on more than 700 computers 
from a single, central location within a few minutes. Such technology 
also allows for a computer specialist to gain remote access to or 
``proxy into'' a computer in order to evaluate and troubleshoot 
technical problems directly with the user.
    In addition, more than one-third of CRS' current analytic staff has 
been hired in the last five to six years. They are more technologically 
adroit, routinely producing final products at their desktops. And as a 
result, the majority of CRS analysts no longer rely on the production 
staff to help with product creation. Further, CRS is moving away from 
providing the Congress with paper copies of reports to a primarily web-
based delivery system, with products prepared in both PDF and HTML. 
Software and other technology advances have simplified product delivery 
and incorporated most of the formatting directly in the software on the 
author's desk. The CRS Electronic Research Products Office is 
responsible for preparing CRS written products for final congressional 
publication and dissemination, hence this function is not undertaken by 
the individual analyst or production support coordinator or assistant.
    Direct congressional demand for audio-visual products has been 
declining for more than ten years. And the need by CRS analysts for 
audio-visual support is uneven calling into question the need to retain 
a separate, in-house staff for this purpose.
    Since the functions needed to support effectively and efficiently 
the administrative, product-preparation, and technology assistance 
activities are significantly different from what is currently being 
performed, the Director decided to eliminate the current positions and 
redirect these resources to fulfilling newly identified support needs. 
In order to accommodate remaining audio-visual needs the Service is 
exploring outsourcing options. Appendix B provides additional 
information on the studies.

                             AFFECTED STAFF

Positions Affected
    Production support and receptionist duties \5\: The 38 individuals 
affected by this decision are in positions at grade levels GS-4 to GS-
11. With the exception of two receptionists, the principal functions of 
the current production staff include:
---------------------------------------------------------------------------
    \5\ Receptionist functions have been outsourced, and as a result 
the two remaining receptionists in the Service are included as part of 
these staffing changes.
---------------------------------------------------------------------------
  --supporting research analysts throughout the entire product 
        preparation process to include the creation, formatting, 
        styling, editing and appearance of written documents, and in 
        the development of graphics and tables when needed;
  --creating macros, templates and other guides to use in supporting 
        research analysts as they prepare their written products;
  --meeting the needs of division authors with respect to design, 
        format and presentation of written products;
  --working with division management to ensure uniformity of style and 
        format for division research products consistent with Service-
        wide standards; and
  --delivering final products to the CRS Review Office and the 
        Electronic Research Products Office.
    Technical Support: The 18 individuals affected by this decision are 
in positions at the GS-12 grade level. The principal functions of the 
current positions include:
  --analyzing operations with requirements that can be met through 
        limited customization of existing hardware components and/or 
        software packages;
  --installing standard and specialized software on individual 
        computers within a division or office;
  --keeping systems fully operational, integrated with other CRS 
        systems, and current with new developments in technology; and
  --serving as trouble shooter for various computer problems 
        encountered by division/office staff.
    Audio-visual support: The three individuals affected by this 
decision in the audio-visual specialist/officer position are at the GS-
12 and GS-13 grade levels. Highlights of their current functions 
include taping and editing scheduled programs and creating videos of a 
small number of CRS experts who have prepared educational presentations 
such as Supreme Court nominations and congressional procedures.

Salaries and Compensation
    The total projected fiscal year 2006 cost for the 59 staff who are 
affected by this decision is $4,430,962. Salaries and benefits for 
individual staff range from $35,141 to a high of $115,678--the average 
being $75,101. Further analysis of the data indicates that the salaries 
(excluding benefits) for the affected staff range from $26,989 to 
$99,223, with an average salary of $60,636. The median salary of these 
staff is $52,082; eight staff earn less than $50,000 per year. Appendix 
C includes a more detailed display of the salaries and benefits for the 
affected staff.

Retirement Eligibility
    CRS is offering a voluntary early retirement option and separation 
incentive payment \6\ to the affected staff. CRS sought these options 
based on the following information about the 59 affected staff:
---------------------------------------------------------------------------
    \6\ CRS has the authority to grant the separation incentive payment 
to a maximum of 50 staff. Up to 10 of these payments may be granted to 
staff outside of these affected positions--the staff of the Knowledge 
Services Group. There is no limit, however, on the number of affected 
staff who can take advantage of the voluntary early retirement option.
---------------------------------------------------------------------------
  --33 of the affected staff are either eligible for full voluntary 
        retirement or voluntary early retirement and are eligible to 
        receive the maximum $25,000 separation incentive (16 for full 
        retirement and 17 for early retirement);
  --16 are not eligible to retire but are eligible for the maximum 
        $25,000 separation incentive;
  --Nine who are not eligible to retire, are eligible for separation 
        incentive payments ranging between $3,434 to $21,943, at an 
        average of $16,906; and
  --One staff member, a receptionist, is not eligible for a separation 
        incentive because he has not fulfilled the requirement of three 
        years' employment with the government.
    Appendix C also includes data on the retirement eligibility of 
affected staff.

Diversity
    A consequence of the 2006 staffing decisions is its potential 
impact on the Service's workforce diversity profile. Table 1 below 
demonstrates that if all of the affected staff were to separate from 
the CRS workforce (data as of September 15, 2005), with no other 
attrition or hires, the minority population of the CRS workforce would 
represent 28.8 percent rather than 32.3 percent of total staff. This 
computation, while accurate, may overstate the implication of the 
reduction on minority staff. There is no way to predict the impact 
other attrition might have on the Service's workforce composition or 
the impact of planned 2006 hires. Further, given that 16 of these staff 
are currently eligible for full voluntary retirement, it is possible 
that many of these staff would have retired during this period, 
regardless of the re-engineering efforts underway.
    If no other element of our current profile changed, the elimination 
of these positions would result in an increase in the proportion of 
Asian Americans in the total workforce from 4.5 percent to 4.7 percent; 
the proportion of Native Americans would increase from .7 percent to .8 
percent; Hispanics would remain the same, at 2.4 percent; while the 
proportion of African Americans would decrease from 24.6 percent to 
20.9 percent.

                                TABLE 1.--DIVERSITY COMPOSITION OF THE CRS STAFF
----------------------------------------------------------------------------------------------------------------
                                                                 Total CRS Perm/Ind      Projected CRS Perm/Ind
                                                              Workforce Composition as  Workforce Composition as
                                                                     of 9/15/05                of 10/1/06
                                                             ---------------------------------------------------
                                                                 Number      Percent       Number      Percent
----------------------------------------------------------------------------------------------------------------
Female......................................................          357         51.4          317         49.9
Male........................................................          337         48.6          318         50.1
                                                             ---------------------------------------------------
      Total.................................................          694        100.0          635        100.0
                                                             ===================================================
Minority composition........................................          224         32.3          183         28.8
    Nat Am/Alaskan..........................................            5          0.7            5          0.8
    Asian American..........................................           31          4.5           30          4.7
    African American........................................          171         24.6          133         20.9
    Hispanic................................................           17          2.4           15          2.4
Non-Minority................................................          470         67.7          452         71.2
                                                             ---------------------------------------------------
      Total.................................................          694        100.0          635        100.0
----------------------------------------------------------------------------------------------------------------

    Appendix D provides the diversity composition of the affected 
staff.

Services to Affected Staff
    CRS is offering a variety of resources to staff to assist them in 
their decision making and transition. CRS requested of the Congress and 
received authority to offer a separation incentive payment of up to 
$25,000 to staff separating through retirement with a full annuity, 
early retirement, or resignation. CRS is granting staff one full year 
to find alternative employment and offering numerous specialized and 
individual services to help them achieve that objective, including job 
and retirement counseling. Appendix E provides a detailed list of the 
services and resources being offered to the 59 affected staff.
    It is CRS' hope that these measures will eliminate the need to 
undertake a reduction-in-force (RIF) in September of 2006. However, 
after September 2006, staff who remain in the positions targeted for 
elimination will be subject to RIF procedures.

                             NEW POSITIONS

    CRS is redirecting its resources to acquire new and different 
support capacities generated by technological changes and new work 
processes. CRS will be competitively filling these new support 
positions in the near future. There will be fewer positions and some 
will be classified and filled at lower grade levels.
    The new positions are summarized below. A description of existing 
positions is included to provide a context for the new capacities. The 
language used to describe the duties of these positions is primarily 
derived from the relevant, official position descriptions.
Administrative Support Positions

            GS-8 Senior Production Assistant (current)

    Performs duties related to the preparation of various written 
products that CRS produces for the Congress to include Reports, Issue 
Briefs and memoranda. Supports research analysts throughout the entire 
production process to include the creation, formatting, styling, 
editing and appearance of written documents and in the development of 
graphics and tables when needed. Is responsible for product delivery 
and for working with the Electronic Research Products Office (ERPO) to 
finalize products, making changes as needed following the review of the 
ERPO editors or the CRS Review Office. May use computer on-line systems 
to retrieve information in support of the researcher's written 
products.

            GS-7 Administrative Support Assistant (new)

    Performs support functions related to the administrative operations 
of the division. Implements and maintains division-wide administrative 
control systems to include confidential division files, correspondence 
tracking and the disposition of records. Ensures that division staff at 
all levels are fully informed on CRS and Library administrative 
practices, procedures and other administrative requirements. Initiates 
the development of new and revised administrative policies and 
procedures for the division as appropriate. Works with the supervisor 
to ensure that division managers and staff requests for training and 
travel are processed in an accurate and timely manner and tracks the 
progress of these requests through to approval. Uses appropriate 
software applications to generate administrative documents and forms. 
Serves as the central point of contact for all division staff regarding 
questions and issues related to the web- based time and attendance 
system.
            GS-11 Senior Production/Administrative Coordinator 
                    (current)

    Oversees the function that supports the preparation of CRS written 
products including managing the production work-flow, clearing products 
for style, format, and editorial accuracy, maintaining records of the 
location of research products, transmitting written products to the CRS 
Review Office and the Electronic Research Products Office and other 
duties related to the support of the research production/preparation 
function in the division. Provides training and trouble-shooting 
service for the senior production assistants and other support staff in 
the division. Helps to create macros, templates and other guides for 
the support staff to use in supporting research analysts as they 
prepare their written products. Advises the support staff on how to 
meet the needs of division authors with respect to design, format and 
presentation of written products. Works with division management to 
ensure uniformity of style and format for division research products 
consistent with Service-wide standards.

            GS-11 Supervisory Administrative Coordinator (new)

    Advises the head of the division (the assistant director) on the 
administrative needs and requirements of the division, serves as the 
principal point of contact for the division, and supervises the work of 
administrative and clerical division staff. Coordinates with senior CRS 
and Library managers and with subordinate offices to communicate and 
interpret administrative/management assignments, recommend appropriate 
action or suggest alternative approaches, and follow up as appropriate 
to ensure proper and timely response to assignments. Manages the 
division's official correspondence and a wide variety of correspondence 
from within and outside the agency. Manages the assistant director's 
calendar and initiates contacts and oversees logistical planning and 
preparation for the assistant director's meetings. Undertakes special 
administrative projects or management studies either individually or as 
a participant on task forces or working groups. Monitors and evaluates 
the activities of contractors assigned to perform clerical activities 
for the division.

Technical Support Positions

            GS-12 Senior Technical Support Assistant (current)

    Provides de-centralized technical support to divisions and offices. 
Independently analyzes operations with requirements that can be met 
through limited customization of existing hardware components and 
software packages. Installs standard and specialized software. 
Independently designs, develops, documents, and manages systems that 
require important but limited customization. Keeps such systems fully 
operational, integrated with other CRS systems, and current with new 
developments in technology. Creates documentation for end users of 
systems; typically the entire staff of a division or office. Serves as 
trouble shooter for various computer problems encountered by division/
office staff. Prepares documentation and establishes procedures to 
assist other technical support assistants to diagnose and solve trouble 
calls in a number of technical areas supported by the CRS Technology 
Office. Develops and delivers training courses for groups of 10-12.

            GS-11 Technical Writer-Editor (new)

    Plans, writes, and edits a variety of technical documents, 
including guidelines, reference materials, fact sheets, website 
entries, and standard operating procedures; ensures accuracy, 
consistency, format, completeness, spelling, punctuation, 
capitalization, and syntax. Produces technical material for a variety 
of offices, and determines the adequacy of materials prepared by 
others. Utilizes substantial subject matter knowledge to interpret 
technical material for a variety of audiences.

            GS-14 Information Technology Specialist--INFOSEC (new)

    Serves as a technical authority and assists in planning, directing, 
and coordinating the implementation and execution of approved security 
policies, programs, and services related to Information Technology (IT) 
systems. Oversees or coordinates the preparation of security testing 
and implementation plans. Plans and investigates mission-critical 
cybersecurity violations that affect the integrity of an agency-wide IT 
infrastructure, and develops long-range plans for IT security systems. 
Leads the implementation of security programs for the Service designed 
to anticipate, assess, and minimize system vulnerabilities. Conducts 
difficult and sensitive computer forensic investigations, and ensures 
the integration of IT programs and services.

            GS-7 Office Equipment Administrator (new)
    Monitors the CRS copy centers, determining whether print jobs 
require assistance to be completed; tracks work produced for accuracy, 
quality, and production timeliness; and analyzes system down-time. 
Monitors CRS copiers and other office equipment, and identifies obvious 
trends, or deviations that could impact services provided. Provides 
support and assists in the planning, review, and reporting of data/
statistical results of programs and project studies, and compiles 
statistical data to assist with the overall evaluation and selection of 
equipment.

Status of New Positions
    CRS posted the vacancy announcements for the supervisory 
administrative coordinator positions on October 18, 2005 and the 
administrative support assistant positions on October 24, 2005. CRS 
anticipates that vacancy announcements for the other three technical 
positions will open by the end of November.
    CRS is also creating quality assurance editor and publication-
support positions to assist with the dissemination of CRS products to 
the Congress. Work on these positions are underway. Vacancy 
announcements for these positions may be open by late-November.
    Affected staff may apply for these new positions under the Library 
of Congress merit selection process.

                         FISCAL YEAR 2006 HIRES

    In addition to filling positions in the new support areas described 
above, CRS will continue hiring staff to sustain analytic capacity and 
prepare for the succession of senior leadership. While the total CRS 
workforce is smaller today than in 1999, the proportion of analytic 
staff compared to the total workforce has increased. As of September 
15, 2005, CRS analytic capacity represents 333 permanent, full time 
staff members (47.9 percent) of a total staff of 694 compared to 287 
permanent, full-time staff members (40.8 percent) of a total staff of 
703 in fiscal year 1999. The 2006 staffing decisions were made in the 
context of honoring the congressionally supported succession plan of 
the late 1990s and maintaining a Service-wide infrastructure in a 
manner that adequately addresses analytic capacity and research needs.
    In fiscal year 2006, unless faced with an across-the-board 
rescission, the Service anticipates hiring four attorneys in American 
Law; eight analysts in Domestic Social Policy; six analysts in Foreign 
Affairs, Defense and Trade; four analysts in Government and Finance; 
and six analysts in Resources, Science and Industry. Consistent with 
succession planning, CRS will be filling positions for a deputy 
associate director for finance and a deputy associate director for 
congressional affairs. The Service will continue to review the current 
section head duties as part of CRS' ongoing succession planning.

                               CONCLUSION

    CRS is making every effort to manage its resources so as to perform 
efficiently and effectively its statutory mission of service to the 
Congress, while at the same time coping with the constrained 
Legislative Branch budget that has prevailed in recent years. The 
Service has been directed by the Congress to find ways to streamline 
its operations, eliminate unnecessary duplication, explore options for 
outsourcing appropriate functions, and to align resources in a cost-
effective manner while achieving performance goals that meet 
congressional needs.
    The decisions outlined in this report were made with full 
recognition of and appreciation for the contributions made by affected 
CRS staff, and with much attention focused on finding ways to mitigate 
the impact on those employees. As described, CRS is providing time for 
the affected staff to make personal decisions by delaying 
implementation for a full year. CRS also has obtained from the Congress 
authority to offer separation incentive payments and approval from the 
Office of Personnel Management to offer a voluntary early retirement 
option. The Service also is applying resources through September 2006 
to assist staff during the phase out of their positions by offering 
them services which include: career counseling, job search assistance, 
and retirement counseling.
    In summary, obligations for good stewardship have led the Service 
to make some very difficult decisions. CRS has done so in keeping with 
recent congressional directives and budget decisions and only after a 
thorough examination of all available options and proper attention to 
the implications for staff.

Appendix A: Excerpts From the Fiscal Years 2005 and 2006 Reports of the 
             House and Senate Committees on Appropriations

Fiscal Year 2005
    From U.S. Congress, House Committee on Appropriations, Legislative 
Branch Appropriations, 2005, report to accompany H.R. 4755, 108th 
Cong., 2d sess., H. Rept. 108-577 (Washington: GPO, 2005). Excerpts:
            Legislative Branch Wide Matters
    Budget requests.--The Committee wants to underscore the fact that 
with record deficits, a war on terrorism, and troops on the ground in 
Afghanistan and Iraq, the budget requests from the agencies of the 
Legislative Branch cannot continue to be presented with requested 
increases as high as 50 percent. The Committee expects that future 
budget submissions will take into consideration the overall budget 
constraints placed on the entire Federal budget and that more 
reasonable budget requests will be forthcoming in future years. (p. 4)
    Potential for savings.--. . . The Committee directs the General 
Accounting Office (GAO) to work closely with the head of each 
Legislative Branch entity to: (1) identify opportunities that will 
streamline the agency organization and eliminate organizational layers; 
(2) outsource operations that will result in providing higher quality 
and less costly services; (3) utilize existing technology to enhance 
operational efficiency; (4) implement management changes, which will 
increase efficiency and effectiveness of agency operations; and (5) 
where applicable apply the ``Federal Activities Inventory Reform Act'', 
and ``Chief Financial Officers Act'', and the ``Government Performance 
and Results Act''. The committee directs that the GAO report its 
findings, including recommendations for changes, to the Committee on 
Appropriations of the House and Senate by January 10, 2005. Each agency 
of the Legislative Branch should be prepared to discuss recommended 
changes during the fiscal year 2006 appropriation hearing cycle. (pp. 
4-5)
    Outsourcing.--. . . the Committee directs that each agency of the 
Legislative Branch examine potential outsourcing opportunities of the 
following areas: Information management operations and site management; 
building facilities and grounds management and operations; human 
resources management and operations; training functions; vehicle 
maintenance and management; physical security; financial operations; 
and printing operations. Each agency is expected to not only examine 
the areas outlined, but also examine other activities and functions 
that are unique to each agency to determine if further outsourcing 
opportunities exist. (p. 5)
            Congressional Research Service
    The Committee is concerned with the potential for duplication of 
support activities between the Congressional Research Service Unit and 
the Library of Congress, Salaries and Expenses account. The Committee 
funds centralized support organizations such as Information Technology 
Services, Human Resources Services, Office of the Chief Financial 
Officer, and Integrated Support Services to provide Library-wide 
support services, which helps to reduce duplicate systems and processes 
throughout the Library accounts. Of particular note, in this year's 
budget request, the Library is requesting in two separate accounts 
funding for the Alternate Computer Facility and XML capabilities which 
may reflect duplication of support services. The Committee directs that 
the Library of Congress conduct a study of such functions as 
information technology, human resources, financial services, space 
management, and other support functions to determine whether any 
duplicate or overlapping activities exist. The findings of the study 
are to be provided to the Committee on Appropriations of the House and 
Senate prior to the fiscal year 2006 budget submission and any 
budgetary reductions or realignments be so reflected in the fiscal year 
2006 request. (p. 24)

    From Statement of Managers accompanying the conference report to 
H.R. 4755, H. Rept. 108-792, see Congressional Record (daily edition), 
November 19, 2004, p. H10770.

    The conferees emphasize to the Legislative Branch agencies that the 
large budgetary increases requested in the fiscal year 2005 budget 
submissions cannot be sustained. The conferees encourage the agencies 
to submit more reasonable budget requests for fiscal year 2006, and 
thereafter.

Fiscal Year 2006
    From U.S. Congress, House Committee on Appropriations, Legislative 
Branch Appropriations, 2006, report to accompany H.R. 2985, 109th 
Cong., 1st sess., H. Rept. 109-139 (Washington: GPO, 2006).
            Legislative Branch Wide Matters
    Mandatory and Price Level Increases.--After reviewing budget 
presentation materials submitted by Legislative Branch entities, it is 
apparent to the Committee that there is a wide variance in how the 
agencies formulate and present budget estimates, especially estimates 
for mandatory, or uncontrollable budget increases. To facilitate the 
Committee's review and analysis of budget requests, the Government 
Accountability Office (GAO) is directed to review and evaluate the 
basis of each Legislative Branch agency's budget estimates with the 
exception of those of the House and the Senate. This review should 
place particular emphasis on evaluating the basis of each agency's 
estimates of uncontrollable costs, including what the agency presents 
as ``mandatory'' and ``price level expenses''. GAO shall recommend to 
the Committee budget formulation policy changes that address the 
composition of estimates as well as presentation format. Also, GAO is 
directed to examine each agency's treatment of Full-Time Equivalents 
(FTE's) in its budget submission and recommend consistent guidelines 
each agency can follow in formulating, presenting, and justifying its 
FTE requirements. GAO should also evaluate each agency's treatment of 
non-recurring requirements. This evaluation should be of requirements 
below the program level not simply a list of non-recurring programs. 
GAO shall recommend to the Committee a consistent analytical approach, 
which can be used by each agency to identify non-recurring requirements 
of individual programs and reflect those changes in budget presentation 
materials. GAO shall report to the Committee on Appropriations of the 
House and Senate the results of its efforts by October 1, 2005 to 
provide sufficient time for the Committee to review and analyze so that 
Legislative Branch agencies incorporate the appropriate changes in the 
formulation of their fiscal year 2007 budget requests. (pp. 4-5)
    Legislative Branch Agency Reforms.--The Congress and the nation are 
faced with increased demands for Federal funds for every increasing 
domestic and international program. The Committee is impressed with the 
management and operational reforms implemented in several Legislative 
Branch agencies over the past few years, including the Government 
Printing Office, the Government Accountability Office and the Chief 
Administrative Office of the House of Representatives. The Committee 
believes that other legislative agencies can benefit by the examples 
set by these agencies. Further opportunities exist for increases in 
efficiency resulting from new technology, performance based management, 
and other management improvements. The Committee understands that 
organizational reform is difficult, however, the task can be achieved 
if strong and dynamic leadership is attained. The Committee extends the 
following advice gleaned from these successful agencies. It is critical 
that agency heads look to the future in planning these endeavors and 
that mid-managers and employees are participants as well as 
stakeholders in the process. The leaders and employees are guided in 
developing and embracing their own logical and clear strategic vision 
for the organization's future. Agency management needs to identify 
leaders at all levels that will embrace change, and never lose sight of 
the most important asset of any organization, the staff and workforce. 
The Committee expects that all agencies will continue to look within 
for ways to complete their missions by using the guidance and 
experiences of their successful sister agencies as models to reduce the 
demand for additional staff and larger budget increases in the coming 
fiscal years. (p. 5)
    Review statutes of legislative branch agency heads.--There 
currently exist various laws, processes, and practices governing the 
selection, appointment, removal, compensation, and term of service of 
the Heads and the Deputies of various agencies in the Legislative 
Branch, including the Office of Compliance, the Congressional Budget 
Office, and the Architect of the Capitol, the Library of Congress, the 
Government Printing Office, and the General Accounting Office. The 
Committee suggests that the Joint Leadership of Congress, in order to 
establish uniformity, should review, evaluate and consider the 
appropriate changes to current legislation and regulations governing 
these positions. (p. 6)

    From U.S. Congress, Senate Committee on Appropriations, Legislative 
Branch Appropriations, 2006, report to accompany H.R. 2985, 109th 
Cong., 1st sess., S. Rept. 109-89 (Washington: GPO, 2005).
            Government Performance and Results Act
    The Committee supports the applicability of many Government 
Performance and Results Act (GPRA) principles to the Legislative 
Branch. GPRA encourages greater efficiency, effectiveness, and 
accountability in Federal spending, and requires agencies to set goals 
and use performance measures for management and budgeting. While most 
Legislative Branch agencies have developed strategic plans, several 
agencies have not effectively dealt with major management problems and 
lack reliable data to verify and validate performance. While 
Legislative Branch agencies are not required to comply with GPRA, the 
Committee believes the spirit and intent of the Results Act should be 
applied to these agencies. The Committee intends to monitor agencies' 
progress in developing and implementing meaningful performance 
measures, describing how such measures will be verified and validated, 
linking performance measures to day-to-day activities, and coordinating 
across ``sister'' agencies. The Committee directs all legislative 
branch agencies to submit their plans for achieving this goal within 90 
days of enactment of this Act. (pp. 3-4)
            Library of Congress
    The Committee recognizes the high priority of the Library's 
research mission in support of the Congress, which is reflected in the 
amount recommended for the Congressional Research Service. (p. 35)
    The Committee is concerned about the lack of transparency in the 
Library of Congress budget presentation. It is not always clear and 
understandable. The budget presentation materials do not present 
meaningful programmatic information from a zero-based perspective that 
allow the Committee to determine how priorities are established and 
where tradeoffs could be made. Therefore, the Committee directs the 
Library of Congress to develop a budget presentation and justification 
package for the fiscal year 2007 budget cycle that clearly addresses 
rates and assumptions used in the base as well as a clear description 
for each program of what drives demand for the program, what the nature 
of the program's workload is, and what service or outcome each base 
program is intended to produce. A clear description of new program 
starts and a detailed break out of rates and assumptions associated 
with cost estimates for those programs including demand, workload, and 
outcome should also be provided along with a clear explanation of how 
each program relates to goals and objectives set forth in the Library's 
strategic plan. The Committee expects the Library will consult with the 
Government Accountability Office (GAO) on the development of this new 
presentation package. (p. 35)

  Appendix B: Findings From the Production Support, Technical Support 
                 Assistant, and Audio-Visual Functions

Summary of the Program Activity reviews
            Methodology
    In 2005 CRS undertook assessments of its production, technical 
support, and audio-visual needs, as well as the functions currently 
provided within the Service in those areas. Data for these studies came 
from a variety of sources, including multiple discussions with 
potentially affected staff; a thorough review of all relevant position 
functions; initial and subsequent meetings with each assistant director 
and deputy assistant director, some associate directors, and a sample 
of analysts, attorneys, editors, and section heads; and the use of 
structured questions.

            Production and Administrative Support Functional Review: 
                    Findings Summary from the January 2005 Study
    The study of production and administrative support functions found 
that the technical needs of research and analytic staff have changed. 
The study found that the technical skills of newly hired analysts and 
attorneys often exceed those that the production staff regularly 
demonstrate. Concurrently, there is a need for increasingly advanced 
and specialized technical skills to do the more sophisticated product-
preparation work now required.
    Production staff indicated that they primarily perform 
administrative functions (e.g., logging ISIS requests, recording and 
reporting time and attendance, managing and ordering supplies, and 
performing general receptionist activities). Some study participants 
stated that some production staff do not consider currently needed 
tasks as part of their duties and responsibilities. An example is 
importing data from a variety of sources and transforming that data 
into tables, graphs, and charts for inclusion into CRS products. 
Several production staff reported oftentimes not having enough work to 
keep them occupied full time.
    As a result, the current system has created unmet production needs 
and shifted product-preparation demands, particularly for assistance in 
creating graphics and obtaining editorial assistance. Some analysts 
have come to rely upon the Electronic Research Products Office and the 
CRS Technology Office (TO) for assistance with these tasks.

            Technical Support Assistant Functional Review: Findings 
                    Summary from May 2005 Study
    Because CRS research and analytic staff have become more 
technically sophisticated, the need for basic technical services has 
decreased. The study found that newly hired and other technically 
sophisticated staff are more likely to try to diagnose and solve 
problems themselves before contacting a technical support assistant 
(TSA). Also, the study found TSA skill levels inconsistently meet the 
needs of CRS staff.
    TSAs provide a wide array of technical support assistance: most 
work involves resolving hardware, software, CPU, password, and network 
issues. Some also assist with special projects, provide graphics/
mapping support, develop guidance documents, and assist TO with 
Service-wide projects. Study participants noted that work required of 
TSAs is not standardized across CRS but instead varies by division and 
office.
    The current decentralized organizational structure does not ensure 
consistent technical expertise. Across the research divisions TSAs 
report to different levels of staff (assistant director, deputy 
assistant director, project management coordinator, etc.), who prepare 
their performance reviews. Further, potential for duplication of 
efforts among CRS help desk and user support units and TSAs is not 
cost-effective.

            Audio-Visual Support Functional Review: Findings Summary 
                    from August 2005 Study
    Direct congressional demand for audio-visual products has been 
declining for more than ten years. And the need by CRS analysts for 
audio-visual support is uneven calling into question the need to retain 
a separate, in-house staff for this purpose.

                                   APPENDIX C: SALARY, COMPENSATION, AND RETIREMENT ELIGIBILITY FOR THE AFFECTED STAFF
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                   Employer-
        Job Class. Series            Grade &     Ret. Plan                          Job Title                           Annual       Paid     Total Cost
                                       Step                                                                             Salary     Benefits
--------------------------------------------------------------------------------------------------------------------------------------------------------
         PRODUCTION STAFF
 
Staff Eligible for Full
 Retirement and Separation
 Incentive:
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614     $13,414     $83,028
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614      $9,189     $78,802
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614      $5,882     $75,496
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $15,917     $67,999
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $12,529     $64,612
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,296     $64,379
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,112     $64,195
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,040     $64,123
    303..........................  8-10.......  FERS.......  Sr. Sp. Adm. Support Assistant.........................     $52,082     $10,194     $62,276
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,980     $60,062
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,872     $59,954
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,673     $59,756
    303..........................  8-10.......  CSRS.......  Sr. Sp. Adm. Support Assistant.........................     $52,082      $7,603     $59,685
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $4,509     $56,591
    1411.........................  6-10.......  CSRS.......  Library Technician.....................................     $42,326      $7,135     $49,461
Staff Eligible for Early
 Retirement and Separation
 Incentive:
    301..........................  11-10......  CSRS.......  Sr. Production/Administrative Coordinator..............     $69,614     $13,556     $83,169
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $15,917     $67,999
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,343     $64,426
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $12,040     $64,123
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082     $11,929     $64,011
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,874     $59,956
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,738     $59,820
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,673     $59,756
    344..........................  8-10.......  CSRS.......  Sr. Production Assistant...............................     $52,082      $7,565     $59,648
    344..........................  8-9........  CSRS.......  Sr. Production Assistant...............................     $50,762      $7,864     $58,626
    303..........................  8-10.......  CSRS.......  Sr. Special Adm. Support Assistant.....................     $52,082      $4,509     $56,591
Staff Eligible for Separation
 Incentive Only:
    301..........................  11-10......  FERS.......  Sr. Production/Administrative Coordinator..............     $69,614     $24,119     $93,733
    301..........................  11-10......  FERS.......  Sr. Production/Administrative Coordinator..............     $69,614     $16,744     $86,358
    344..........................  7-6........  FERS.......  Sr. Production Assistant...............................     $58,361     $16,141     $74,501
    301..........................  11-8.......  CSRS.......  Sr. Production/Administrative Coordinator..............     $57,387     $12,668     $70,054
    344..........................  8-9........  FERS.......  Sr. Production Assistant...............................     $50,762     $19,174     $69,936
    344..........................  8-8........  FERS.......  Sr. Production Assistant...............................     $49,420     $18,618     $68,038
    344..........................  8-10.......  FERS.......  Sr. Production Assistant...............................     $52,082     $13,848     $65,930
    344..........................  8-8........  CSRS.......  Sr. Production Assistant...............................     $49,420     $15,014     $64,434
    1411.........................  5-9........  FERS.......  Reference Assistant....................................     $37,001     $11,782     $48,783
    1411.........................  5-9........  FERS.......  Reference Clerk........................................     $37,001     $11,484     $48,485
    304..........................  4-5........  FERS.......  Receptionist...........................................     $29,588      $5,553     $35,141
Staff Not Eligible for Retirement
 or Separation Incentive:
    304..........................  4-1........  FERS.......  Receptionist...........................................     $26,989      $8,750     $35,740
                                                                                                                     -----------------------------------
      Total Cost.................  ...........  ...........  .......................................................  ..........  ..........  $2,429,674
                                                                                                                     ===================================
        TECHNICAL SUPPORT
 
Staff Eligible for Full
 Retirement and Separation
 Incentive:
    2210.........................  12-7.......  CSRS.......  Sr. Technical Support Assistant........................     $77,027     $14,344     $91,370
Staff Eligible for Early
 Retirement and Separation
 Incentive:
    2210.........................  12-8.......  CSRS.......  Sr. Technical Support Assistant........................     $81,769     $19,282    $101,051
    2210.........................  12-7.......  CSRS.......  Sr. Technical Support Assistant........................     $77,027     $14,404     $91,431
    2210.........................  12-7.......  CSRS.......  Sr. Technical Support Assistant........................     $77,027      $9,866     $86,893
Staff Eligible for Separation
 Incentive Only:
    2210.........................  12-10......  FERS.......  Sr. Technical Support Asst.............................     $83,438     $23,220    $106,658
    2210.........................  12-7.......  FERS.......  Sr. Technical Support Asst.............................     $79,157     $26,739    $105,896
    2210.........................  12-7.......  FERS.......  Sr. Technical Support Asst.............................     $77,027     $21,662     $98,688
    2210.........................  12-5.......  FERS.......  Sr. Technical Support Asst.............................     $72,745     $24,425     $97,170
    2210.........................  12-5.......  FERS.......  Sr. Technical Support Asst.............................     $74,875     $20,292     $95,167
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $70,594     $24,506     $95,099
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $70,594     $24,211     $94,805
    2210.........................  12-6.......  CSRS.......  Sr. Technical Support Asst.............................     $74,875     $18,496     $93,371
    2210.........................  12-3.......  FERS.......  Sr. Technical Support Asst.............................     $68,463     $24,090     $92,554
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $70,594     $20,079     $90,673
    2210.........................  12-8.......  CSRS.......  Sr. Technical Support Asst.............................     $79,157     $10,050     $89,207
    2210.........................  12-2.......  FERS.......  Sr. Technical Support Asst.............................     $66,333     $22,736     $89,069
    2210.........................  12-2.......  FERS.......  Sr. Technical Support Asst.............................     $66,333     $22,666     $88,999
    2210.........................  12-4.......  FERS.......  Sr. Technical Support Asst.............................     $46,107     $16,289     $62,395
                                                                                                                     -----------------------------------
      Total Cost.................  ...........  ...........  .......................................................  ..........  ..........  $1,670,496
                                                                                                                     -----------------------------------
        AUDIO/VISUAL STAFF
 
All Audio/Visual Staff Are
 Eligible for Early Retirement:
 These staff are in the 1071 job
 classification series. To honor
 the privacy of the three
 individual staff members in this
 job series, CRS has not provided
 individual salary and cost data
                                  ----------------------------------------------------------------------------------------------------------------------
      Total Cost.................  ...........  ...........  .......................................................  ..........  ..........    $330,793
                                  ======================================================================================================================
      Total CRS Costs for 59       ...........  ...........  .......................................................  ..........  ..........  $4,430,962
       Affected Staff.
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                 APPENDIX D: DIVERSITY COMPOSITION OF THE AFFECTED STAFF
                                     [Breakdown of CRS Staff by Gender and Race Categories As of September 15, 2005]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 Total CRS Perm/                        Affected Staff by Category
                                                                 Indef Workforce -----------------------------------------------------------------------
                                                               ------------------    Production         Technical       Audio-Visual     Total Affected
                           Category                                                    Support           Support     ------------------       Staff
                                                                                 ------------------    Assistants                      -----------------
                                                                 Number  Percent                   ------------------  Number  Percent
                                                                                   Number  Percent   Number  Percent                     Number  Percent
--------------------------------------------------------------------------------------------------------------------------------------------------------
Female........................................................      357     51.4       33     86.8        7     38.9  .......  .......       40     67.8
Male..........................................................      337     48.6        5     13.2       11     61.1        3    100.0       19     32.2
                                                               -----------------------------------------------------------------------------------------
      Total...................................................      694    100.0       38    100.0       18    100.0        3    100.0       59    100.0
                                                               =========================================================================================
Minority Composition..........................................      224     32.3       30     78.9       11     61.1  .......  .......       41     69.5
    Nat.Am/Alaskan............................................        5      0.7  .......  .......  .......  .......  .......  .......  .......  .......
    Asian American............................................       31      4.5        1      2.6  .......  .......  .......  .......        1      1.7
    African-American..........................................      171     24.6       28     73.7       10     55.6  .......  .......       38     64.4
    Hispanic..................................................       17      2.4        1      2.6        1      5.6  .......  .......        2      3.4
Non-Minority..................................................      470     67.7        8     21.1        7     38.9        3    100.0       18     30.5
                                                               -----------------------------------------------------------------------------------------
      Total...................................................      694    100.0       38    100.0       18    100.0        3    100.0       59    100.0
--------------------------------------------------------------------------------------------------------------------------------------------------------

      Appendix E: Transition Resources Provided to Affected Staff
    CRS is providing the following transition resources to affected 
staff:
  --an opportunity to participate in the Voluntary Early Retirement 
        Authority (VERA) and Voluntary Separation Incentive Payment 
        (VSIP) programs. Deadline for applying is December 2, 2005. 
        Staff have from December 19, 2005 through January 3, 2006 to 
        separate from the Library under these programs. As of Tuesday, 
        November 1, 2005, 20 affected staff have applied for these 
        programs;
  --a special briefing on the VERA/VSIP process restricted to eligible 
        CRS staff, in coordination with the Library's Office of Human 
        Resources Services;
  --a two-day retirement seminar exclusively for these staff and their 
        spouses. The seminar was held on October 26 and 27. Twenty-
        three affected staff members registered to attend, eighteen 
        attended;
  --special individual retirement counseling, in coordination with the 
        Library's Office of Human Resources Services;
  --special training sessions on how to apply for positions using the 
        Library's automated hiring system. The Library's Office of 
        Human Resources conducted sessions on October 12 and 13. 
        Individual sessions were arranged for those who were unable to 
        attend either of the earlier sessions;
  --a career services web page where staff can access career-related 
        information and links to numerous websites including job search 
        engines, resume writing and interview guides, job fair 
        announcements, training opportunities, and more;
  --services of a career counselor who will be available one day a week 
        through September of 2006 to meet individually with staff and 
        to present a career workshop once a month. The career counselor 
        is expected to be available early November 2005;
  --a briefing on October 13, 2005 by a Reduction in Force (RIF) expert 
        who has been used frequently by the Library of Congress for 
        other RIFs to provide an overview of RIF procedures and to 
        answer questions, to include any follow-up questions by phone 
        and email;
  --briefings on September 28, 2005 for all affected staff to review 
        these transition resources, and to give staff an opportunity to 
        ask questions; and
  --continuous communications from the Associate Director for Workforce 
        Development by e-mail to inform when positions they may be 
        interested in opened, and other upcoming activities to include 
        career fairs, reminders of registration deadlines, and to 
        remind them that they may continue to submit any questions that 
        they have during the transition.

    Question. In your testimony you state that extensive consultation 
took place before you decided to eliminate production support, computer 
technical support, and audio-visual functions. With whom did you 
consult? Was CRS staff in any way involved before you made your 
decision?
    Answer. Before the final decision was made, in addition to multiple 
meetings with the Service's senior managers, CRS solicited input 
through a variety of venues including forums, one-on-one conversations, 
e-mail exchanges. CRS also held follow-up discussions with potentially 
affected staff as well as staff who use their services, including a 
sample of analysts, attorneys, and section heads (first-line 
supervisors).
    Question. Were the affected staffs given an opportunity to receive 
training that may have given them an opportunity to keep their job or 
to apply for other positions within CRS?
    Answer. The skills required for the Service's new technical 
positions are quite different from those required for the older 
production support and technical positions that will be abolished. The 
specialized expertise required for these new positions cannot be 
acquired or developed through some selected training courses.
    In addition to traditional production support, the incumbents of 
the two older production support positions performed some 
administrative tasks as well. One of the current production support 
positions is supervisory/managerial at the GS-11 grade level; and, the 
other is non-supervisory at the GS-8 grade level.
    When CRS defined the new work tasks and developed the associated 
position descriptions, all of the administrative tasks were 
consolidated into two new positions, one is supervisory at the GS-11 
grade level and the other was classified by the Library of Congress 
Human Resources Services as a GS-7, one grade level lower than the GS-8 
production position. Both of the new administrative positions will have 
fewer incumbents (ten total) than the number of incumbents of the 
current production positions (33 total). So far, three of the affected 
staff were competitively selected for these ten new administrative 
positions. A fourth individual from the affected staff was also 
selected but declined the offer and chose instead to retire.
    CRS affected staff continue to receive training for the work that 
they perform in their current positions. However, selecting particular 
individuals for specific training to improve their credentials for a 
new job could be seen as running counter to merit-selection principles 
inherent in OPM regulations implementing the Government Employee 
Training Act. Information provided in the following questions addresses 
the issues of training staff for future positions.
    Question. What actions have you taken to work with the rest of the 
Library to find positions for the remaining 31 staff?
    Answer. CRS and the Library will begin the process of seeking 
placements for the remaining staff in June. The data and conditions for 
placing the remaining staff are dictated by law, regulation, and the 
CRS collective bargaining agreement, which govern when a reduction-in-
force is established.
    When the staffing changes were announced last September, it was the 
Director's hope that by providing a 12-month notice, separation 
incentives, voluntary early retirement opportunities, and transition 
services that all 59 individuals would vacate the positions before 
September 30, 2006. At this time, 29 of the 59 affected staff have 
retired, resigned, or secured other positions. In the meantime, CRS 
continues to provide a variety of career counseling services to 
affected staff and to provide weekly notices of CRS and Library posted 
positions that may be of interest to them.
    Question. How closely have you worked with the new Center for 
Learning and Development in the Library to assist affected staff in 
training for current and future positions in the Library?
    Answer. Staff from the CRS Office of Workforce Development worked 
closely with the Library's Center for Learning and Development in 
identifying 600 online courses that would provide a broad array of 
training for Library staff as it pertains to their current positions. 
The availability of courses has been communicated to all CRS staff and 
a number of CRS staff members, including the affected staff, have taken 
online courses.
    The On-line Learning Center has been a topic of discussion at the 
weekly CRS Research Policy Council meetings of senior managers who are 
advised to encourage staff to enroll in the online training. As a 
result, a number of affected staff have taken advantage of these 
training opportunities. In addition, the Career Services Web Page that 
was established specifically for affected staff includes a link to the 
Online Learning Center.
    Providing training for future positions becomes more complex. The 
Government Employee Training Act (GETA) permits training ``which will 
improve individual and organizational performance and assist in 
achieving the agency's mission and performance goals.'' [5 USC4101(4)] 
OPM implementing regulations provide that ``mission-related training'' 
includes training that improves an employee's current job performance 
and training that ``[a]llows for expansion or enhancement of an 
employee's current job [or e]nables an employee to perform needed or 
potentially needed duties outside the current job at the same level of 
responsibility.'' [5 CFR 410.101 (d)]
    Retraining ``to address an individual's skills obsolescence in the 
current position and/or training and development to prepare an 
individual for a different occupation, in the same agency, in another 
government agency, or in the private sector'' is also permitted under 
OPM regulations. [5 CFR 410.101(e)] The selection of employees for 
training opportunities, however, must follow merit system principles. 
[5 CFR 410.302 (a)(1)] Each agency must establish criteria for the 
``fair and equitable selection and assignment of employees to training 
consistent with merit system principles.'' [5 CFR 410.306(a)]
    Merit system principles are particularly applicable to training 
designed to prepare employees for advancement. Thus, OPM's Training 
Policy Handbook provides that ``[a]gencies' training programs must 
consider all employees fairly'' and that ``[a]gency merit promotion 
procedures must be followed in selecting employees for training that is 
primarily to prepare trainees for advancement and that is not directly 
related to improving performance in their current positions.''
    Selecting particular employees to be accorded specific training 
designed to improve their advancement possibilities or to qualify them 
for other positions could be seen to run counter to merit selection 
principles. The Library and CRS have developed a merit selection 
process for filling positions, and CRS also applies competitive 
procedures to its longer term details within the agency and to 
designating section heads. The GETA and implementing regulations would 
also seem to dictate that similar principles be applied in the 
provision of training.
    The focus of all training opportunities provided to staff complies 
with the Service's obligation to enhance staff skills for the positions 
currently held, rather than to provide training for possible future 
positions that could be seen as running counter to merit-selection 
principles inherent in OPM regulations implementing the GETA.
    Question. It is my understanding that of the 59 staff being 
eliminated, nearly 70 percent are minorities. What are your plans to 
address the major loss of minority employees in CRS?
    Answer. CRS is dedicated to maintaining a diverse workforce. When 
CRS announced its plan to eliminate three functions, the diversity 
profile of the Service was 32.3 percent minority. If all of the 
affected staff would have left and no new hires added, the CRS 
workforce would have been reduced to 635 and the racial and ethnic 
profile of that reduced staff would have reflected a minority 
population of 28.8 percent. The proportion of Asian Americans would 
have increased from 4.5 percent to 4.7 percent; Native Americans would 
have increased from .7 percent to .8 percent; Hispanics would have 
remained the same at 2.4 percent; and the proportion of African 
Americans would have decreased from 24.6 percent to 20.9 percent.
    Instead, as of February 28, 2006, after the retirement of 23 
affected staff, attrition unrelated to the workforce re-engineering, 
and the hiring of new staff in accordance with the CRS hiring plan, 
31.1 percent of CRS' total permanent/indefinite workforce of 685 is 
minority; .7 percent Native American, 4.7 percent Asian American, 23.1 
percent African American, and 2.6 percent Hispanic.
    CRS has filled four (4) of the new positions (with 12 incumbents). 
Of the twelve incumbents hired, nine (75 percent) are minorities, and 
all of whom are African American females.
    CRS will continue to use national recruitment and hiring programs 
and sources to attract minority applicants to CRS. These programs 
include targeting universities and public policy schools with high 
minority enrollments to serve as recruitment sources for entry-level 
professional positions, and forging special connections with minority-
serving organizations such as Historically Black Colleges and 
Universities, the United Negro College Fund, the Congressional Black 
Caucus, the Congressional Hispanic Caucus, and others. In addition, CRS 
continues to use programs such as the CRS Law Recruit Program, the 
Student Diversity Internship Program, the Hispanic Association of 
Colleges and Universities National Internship Program, and the Federal 
Presidential Management Fellowship Program to recruit minorities for 
CRS positions.

                          SUBCOMMITTEE RECESS

    Senator Allard. The subcommittee stands in recess and we 
will meet next on March 15 at 10:30 a.m., when we will take 
testimony from the Secretary of the Senate and Architect of the 
Capitol on their fiscal year 2007 budget requests. In addition, 
we will hear from witnesses regarding progress of the Capitol 
Visitor Center as part of the monthly oversight of that 
particular project.
    I thank the participants today for sharing their views with 
us.
    [Whereupon, at 11:45 a.m., Wednesday, March 1, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 15.]

</pre></body></html>
